CASE NO. ____
IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________________________
JAMES CODDINGTON,
v.

Petitioner,

TOMMY SHARP, Warden, Oklahoma State Penitentiary,
Respondent
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
APPENDIX

Appendix A:

Tenth Circuit’s opinion in Coddington v. Sharp, 959 F.3d 947
(10th Cir. 2020)…………………………………………………. 01

Appendix B:

District Court’s memorandum opinion denying petition for
habeas corpus in Coddington v. Royal, 2016 WL 4991685
(W.D. Okla. Sept. 15, 2016)……………………………………. 17

Appendix C:

Oklahoma Court of Criminal Appeals opinion on direct
appeal in Coddington v. State, 142 P.3d 437 (Okla. Crim. App.
2006)……………………………………………………………... 41

Appendix D:

Tenth Circuit’s order denying panel rehearing/rehearing en
banc, dated September 29, 2020………………………………. 69

Appendix A
Tenth Circuit’s opinion in Coddington v. Sharp, 959 F.3d 947 (10th Cir. 2020)

001

947

CODDINGTON v. SHARP
Cite as 959 F.3d 947 (10th Cir. 2020)

pending appeal. The Bishop’s inability to
hold in-person worship services, and the
Church members’ inability to attend them,
are certainly irreparable injuries. Elrod v.
Burns, 427 U.S. 347, 373, 96 S.Ct. 2673, 49
L.Ed.2d 547 (1976) (‘‘The loss of First
Amendment freedoms, for even minimal
periods of time, unquestionably constitutes
irreparable injury.’’); O Centro Espirita
Beneficiente Uniao Do Vegetal v. Ashcroft,
389 F.3d 973, 1008 (10th Cir. 2004) (en
banc) (Seymour, J., concurring in relevant
part for a majority of the court) (‘‘[T]he
violation of one’s right to the free exercise
of religion necessarily constitutes irreparable harm.’’), aff’d sub nom. Gonzales v. O
Centro Espirita Beneficente Uniao Do
Vegetal, 546 U.S. 418, 126 S.Ct. 1211, 163
L.Ed.2d 1017 (2006). The injury here is
particularly poignant, given that Pentecost—which the eponymously named
Church greatly desires to celebrate—falls
on May 31. Indeed, the State explicitly
‘‘does not question the sincerity of Plaintiffs’ belief that it is essential to gather in
person for worship services.’’
I do not doubt the importance of the
public health objectives that the State puts
forth, but the State can accomplish those
objectives without resorting to its current
inflexible and overbroad ban on religious
services. The balance of equities, and the
public interest, strongly favor requiring
the State to honor its constitutional duty to
accommodate a critical element of the free
exercise of religion—public worship.
For these reasons, I would grant Plaintiffs’ request for a preliminary injunction. I
respectfully dissent.

,
* Pursuant to Fed. R. App. P. 43(c)(2), Mike
Carpenter is replaced by Tommy Sharp as the

James CODDINGTON, PetitionerAppellant,
v.
Tommy SHARP, Warden, Oklahoma
State Penitentiary,* RespondentAppellee.
No. 16-6295
United States Court of Appeals,
Tenth Circuit.
FILED May 12, 2020
Background: State prisoner was convicted of first-degree murder and first-degree
robbery. His convictions were affirmed on
appeal, 142 P.3d 437, but not his death
sentence, and the matter was remanded
for resentencing. On remand, he was sentenced to death and that sentence was
affirmed on appeal, 254 P.3d 684. His petition for post-conviction relief was denied,
259 P.3d 833. He petitioned for writ of
habeas corpus. The United States District
Court for the Western District of Oklahoma, Joe Heaton, Chief Judge, 2016 WL
4991685, denied the petition. Prisoner appealed.
Holdings: The Court of Appeals, Eid, Circuit Judge, held that:
(1) prisoner was not entitled to relief on
basis that he had been deprived of
right to present defense, and
(2) conclusion by state appellate court, that
petitioner knowingly and voluntarily
waived his Miranda rights, was reasonable application of federal law.
Affirmed.
1. Habeas Corpus O842
Under the Antiterrorism and Effective Death Penalty Act (AEDPA), a disWarden of the Oklahoma Department of Corrections.

002

948

959 FEDERAL REPORTER, 3d SERIES

trict court’s legal analysis of a state court
decision is reviewed de novo when the
issues in the petitioner’s habeas petition
were adjudicated on the merits by the
state court. 28 U.S.C.A. § 2254(d).
2. Habeas Corpus O452
Under the Antiterrorism and Effective Death Penalty Act (AEDPA), a decision is contrary to federal law if the state
court arrives at a conclusion opposite to
that reached by the United States Supreme Court on a question of law or if the
state court decides a case differently than
the Supreme Court has on a set of materially indistinguishable facts. 28 U.S.C.A.
§ 2254(d).
3. Habeas Corpus O450.1
Under the Antiterrorism and Effective Death Penalty Act (AEDPA), a decision is an unreasonable application of federal law if the state court identifies the
correct governing legal principle from the
United States Supreme Court’s decisions
but unreasonably applies that principle to
the facts of the prisoner’s case. 28
U.S.C.A. § 2254(d).
4. Habeas Corpus O452
Under the Antiterrorism and Effective Death Penalty Act (AEDPA), a federal court may only grant habeas relief if
there is no possibility fair-minded jurists
could disagree that the state court’s decision conflicts with the United States Supreme Court’s precedents. 28 U.S.C.A.
§ 2254(d).
5. Habeas Corpus O490(5)
Conclusion by state appellate court,
that trial court’s decision to exclude expert’s testimony, which, in his opinion, petitioner would not have been able to form
intent of malice aforethought while experiencing effects of cocaine, did not have substantial and injurious effect or influence in
determining jury’s verdict convicting him

of first-degree murder under Oklahoma
law, was reasonable application of federal
law, and therefore petitioner was not entitled to relief on his petition for writ of
habeas corpus on basis that he had been
deprived of right to present defense and
his due process rights had been violated.
U.S. Const. Amends. 5, 6, 14; 28 U.S.C.A.
§ 2254(d).
6. Criminal Law O1162
On direct appeal in criminal case, a
state appellate court evaluates a state trial
court’s federal constitutional error for
harmlessness; specifically, the court considers whether the state has proven beyond a reasonable doubt that the federal
constitutional error was harmless.
7. Habeas Corpus O500.1
When a state court’s decision under
Chapman v. California, 386 U.S. 18, is
reviewed by a federal court under Antiterrorism and Effective Death Penalty Act
(AEDPA), a federal court may not award
habeas relief unless the harmlessness determination itself was unreasonable. 28
U.S.C.A. § 2254(d).
8. Habeas Corpus O442
The Antiterrorism and Effective
Death Penalty Act (AEDPA) limitation to
Chapman v. California, 386 U.S. 18, is
subsumed by Brecht v. Abrahamson, 507
U.S. 619 test for harmlessness, which is
used by courts engaging in collateral review; under this test, a petitioner cannot
gain relief for a trial court’s error unless
he can establish that the error had a substantial and injurious effect or influence in
determining the jury’s verdict, i.e., the petitioner must establish actual prejudice.
28 U.S.C.A. § 2254(d).
9. Habeas Corpus O442
Even if a state law violation cannot be
tied to the denial of a specific federal
constitutional right, such as the right to

003

CODDINGTON v. SHARP
Cite as 959 F.3d 947 (10th Cir. 2020)

present a defense, it is still reviewed on a
petition for habeas corpus to determine
whether the violation so infected the trial
with unfairness as to make the resulting
conviction a denial of due process. U.S.
Const. Amend. 14; 28 U.S.C.A. § 2254(d).
10. Habeas Corpus O490(3)
Conclusion by state appellate court,
that petitioner knowingly and voluntarily
waived his Miranda rights, was reasonable
application of federal law, and therefore
petitioner was not entitled to relief on his
petition for writ of habeas corpus; among
other things, officers did not have to tell
petitioner that they wanted to question
him about murder, neither delay between
petitioner’s confession and station-house
interrogation nor his drug use were sufficient to render his confession unknowing
or involuntary, his prior law enforcement
encounters could be considered in its analysis, and his mental faculties were sufficient enough for him to voluntarily and
knowingly waive his rights. U.S. Const.
Amend. 5; 28 U.S.C.A. § 2254(d).
11. Criminal Law O411.91
Testimony from a custodial interrogation will be suppressed if the prisoner did
not knowingly and voluntarily waive his
Miranda rights. U.S. Const. Amend. 5.
12. Criminal Law O411.92
For a waiver of a suspect’s Miranda
rights to be considered voluntary, knowing, and intelligent, the relinquishment of
the right must have been voluntary in the
sense that it was the product of a free and
deliberate choice rather than intimidation,
coercion, or deception, and the waiver
must have been made with a full awareness of both the nature of the right being
abandoned and the consequences of the
decision to abandon it. U.S. Const.
Amend. 5.

949

13. Criminal Law O411.92
A court engages in a totality of the
circumstances approach to determine
whether a waiver of a suspect’s Miranda
rights can be considered voluntary, knowing, and intelligent, where no single factor,
whether intoxication, exhaustion, or other,
is dispositive. U.S. Const. Amend. 5.
14. Criminal Law O411.92
Whether the suspect was aware of
each possible subject of questioning is not
relevant to the analysis of whether a waiver of a suspect’s Miranda rights can be
considered voluntary, knowing, and intelligent. U.S. Const. Amend. 5.
15. Criminal Law O410.88
The mere fact of drug or alcohol use
will not render a confession unknowing or
involuntary; drug use will only render a
confession unknowing if it rises to the level
of substantial impairment. U.S. Const.
Amend. 5.
16. Criminal Law O410.88
Drug use will render a confession
involuntary under Miranda only if the
suspect’s will was overborne by the circumstances surrounding the giving of a
confession. U.S. Const. Amend. 5.
17. Criminal Law O410.88
Intoxication alone will not render a
confession involuntary under Miranda; the
intoxication must rise to the level of ‘‘substantial impairment’’ to render the confession unknowing. U.S. Const. Amend. 5.
18. Criminal Law O410.88
For intoxication to render a confession
involuntary under Miranda, the circumstances of the confession must show that
the suspect’s will was overborne. U.S.
Const. Amend. 5.
APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR THE

004

950

959 FEDERAL REPORTER, 3d SERIES

WESTERN DISTRICT OF OKLAHOMA
(D.C. No. 5:11-CV-01457-HE)
John T. Carlson, Ridley, McGreevy &
Winocur P.C., Denver, Colorado (Seth A.
Day, Hall Estill P.C., Oklahoma City,
Oklahoma, with him on the briefs), for
Petitioner-Appellant.
Caroline E.J. Hunt, Assistant Attorney
General (Mike Hunter, Attorney General
of Oklahoma, with her on the brief), Oklahoma City, Oklahoma, for Respondent-Appellee.
Before LUCERO, MORITZ, and EID,
Circuit Judges.
EID, Circuit Judge.
Petitioner James Coddington seeks collateral review of the Oklahoma Court of
Criminal Appeals’ (OCCA) resolution of his
constitutional challenges to his conviction
and sentence. Coddington argues that the
trial court deprived him of his constitutional right to present a defense when it refused to allow his expert to testify that he
was unable to form the requisite intent for
malice murder. He also argues that his
confession to the murder should have been
suppressed because he did not knowingly
and voluntarily waive his Miranda rights.
The OCCA denied relief, and, applying
AEDPA deference, the district court below
did the same. For the reasons set forth
below, we affirm the district court’s denial
of Coddington’s petition because Coddington has failed to show that the OCCA’s
rejection of his challenges involved an unreasonable application of federal law. I.

day to support his habit. See id. Eventually, he ran out of money. See id. On March
5, following a three or four-day cocaine
binge, he was desperate for cocaine and
robbed a convenience store. See id. But
the money he took from the store was
insufficient, so later that day he went over
to Al Hale’s house. See id. Hale and Coddington were friends, and Coddington
knew that Hale usually kept large sums of
cash (on March 5, Hale had over $24,000 in
cash in his home). See id.
Coddington did not immediately ask
Hale for money—he watched TV with him
for a couple hours. See id. At some point
though, Coddington asked Hale if he could
borrow some money. See id. According to
Coddington, Hale could tell that Coddington had ‘‘relapsed on drugs.’’ 2003 Tr. VI
at 47. He refused Coddington’s request,
told him to go back to treatment, and then
asked him to leave. Id. at 48. Coddington
began to leave. Id. But after noticing a
hammer on the counter when he walked
through the kitchen toward the door, Coddington stopped. State Ex. 89 at 14. Hale
then went into the kitchen and ‘‘pushed *
[Coddington] and told [him] to get out.’’
2003 Tr. VI at 76. Coddington then
grabbed the hammer and hit Hale in the
head, causing him to fall. Id. at 69. When
Hale was lying face-down on the ground,
Coddington hit him several more times in
the back of the head. Id. at 69–70. He then
took the money that Hale had on his person ($525) and, believing Hale was dead,
left the house. State Ex. 89 at 15.

In March of 1997, Coddington, who had
a history of cocaine use, relapsed and began using cocaine again. Coddington v.
State, 142 P.3d 437, 442 (Okla. Crim. App.
2006). He spent approximately $1,000 per

Coddington was mistaken; Hale was not
dead. See id. at 443. Hale’s son, Ron, discovered his father later that day. See id.
There was ‘‘blood and blood spatter everywhere.’’ Id. ‘‘Hale was lying in his bed,
soaked in blood, still breathing but unable
to speak.’’ Id. Hale had moved from the

* Coddington told the police that Hale pushed
him, but he did not volunteer this information

in his trial testimony. State Ex. 89 at 15; 2003
Tr. VI at 49.

005

CODDINGTON v. SHARP
Cite as 959 F.3d 947 (10th Cir. 2020)

kitchen to his bedroom. See id. Hale was
rushed to a hospital, where he died 24
hours later. See id. The autopsy showed he
died from blunt-force trauma to the head.
See id.
After Coddington left Hale’s house, Coddington immediately bought more cocaine
and continued committing crimes to finance his purchases. He robbed five more
convenience stores. See id. at 442. When
he eventually got back home, he threw the
hammer in a creek behind his apartment.
See id. at 455.
Two days later, the police arrested Coddington at his apartment. See id. at 443.
When the police arrived, Coddington began voluntarily making statements. See id.
at 447. Realizing that Coddington may
have been starting to confess, the police
officers read him his Miranda rights. See
id. Coddington waived his Miranda rights
and continued making statements to officers. See id. About two to three hours
after he initially waived his rights outside
of his apartment, the police officers interrogated him at the station. See id. At the
station, the officers reminded Coddington
of his waiver from a few hours earlier, and
Coddington stated he remembered waiving
his rights. See id. Coddington then confessed to the convenience store robberies
and to murdering Hale. See id. at 443.
At the station, Coddington was able to
recall the murder in detail. See State Ex.
89 at 13–21 (Transcript of Police Station
Interview); see also 2003 Tr. VI 47–48, 62–
63. He recalled the clothes he wore, that
he and Hale conversed for a couple hours,
that they watched TV, that he had gone to
Hale’s home to ask for money, that Hale
refused his request for money, that Hale
then asked him to leave, and that he
struck Hale with a claw hammer as Hale
was showing him out. See State Ex. 89 at
14–15. He also remembered specific details
about the hammer—that it had a chrome

951

handle with a rubber grip. See id. at 20.
He remembered how many times he
struck Hale. See id. at 15. He remembered
how much money he took from Hale’s person and the denominations of the bills. See
id. at 18. Finally, he stated that he did not
call the police when he left Hale’s home
because he did not want to get caught. See
Coddington, 142 P.3d at 443.
The state charged Coddington with multiple armed robberies, murder, and robbery with a dangerous weapon. Coddington pleaded guilty to six armed robberies
and proceeded to trial on the murder and
robbery with a dangerous weapon charges.
Prior to trial, the court resolved two motions in limine relevant to this petition.
First, the court considered the state’s motion to exclude Coddington’s expert’s testimony on whether Coddington was able to
form intent. See id. at 448–51. Coddington
proffered that his expert—Dr. Smith—
would have testified that his cocaine use
leading up to and during the murder rendered him unable to form malice aforethought. See id. at 448–51. The state
moved to have this portion of Dr. Smith’s
testimony excluded, and the trial judge
granted the motion. See id.
Second, the court considered Coddington’s motion to suppress his confession.
See id. at 446–48. Coddington believed that
he did not knowingly or voluntarily waive
his Miranda rights. See id. The court did
not agree and denied the motion. See id.
The case proceeded to trial. At the guilt
phase of trial, the jury convicted Coddington of first-degree murder and robbery
with a dangerous weapon. See id. at 442.
At the sentencing phase, the jury found
the existence of two aggravating circumstances and sentenced Coddington to
death. See id. Coddington appealed his
conviction and sentence to the OCCA. See
id. Among other things, he challenged the
pretrial rulings (1) denying his motion to

006

952

959 FEDERAL REPORTER, 3d SERIES

suppress his confession and (2) excluding a
portion of Dr. Smith’s testimony. See id. at
446–51. The OCCA first concluded that
Coddington’s confession was sufficiently
knowing and voluntary, but it agreed with
Coddington that the trial court erred by
restricting Dr. Smith’s testimony. See id.
The OCCA summarily determined that
this amounted to a constitutional error and
applied Chapman v. California, 386 U.S.
18, 87 S.Ct. 824, 17 L.Ed.2d 705 (1967), to
determine whether the error was harmless
beyond a reasonable doubt. See id. at 448–
51. The OCCA determined that the evidence that Coddington acted with malice
aforethought was overwhelming. See id. at
451. Accordingly, it held that ‘‘Dr. Smith’s
expert opinion on the ultimate issue of
whether Coddington could form the requisite malice would not have made a difference in the jury’s determination of guilt.’’
Id.
The OCCA similarly rejected Coddington’s other guilt-phase arguments and affirmed his conviction. It did, however, find
that reversible error occurred at the sentencing phase. See id. at 461.† It therefore
vacated Coddington’s death sentence and
remanded for resentencing. See id. At resentencing, the jury found the existence of
aggravating circumstances and again sentenced Coddington to death. Coddington v.
State, 254 P.3d 684, 693 (Okla. Crim. App.
2011). The OCCA affirmed, see id. at 718,
and the United States Supreme Court denied certiorari, see Coddington v. Oklahoma, 565 U.S. 1040, 132 S.Ct. 588, 181
L.Ed.2d 432 (2011). Coddington then filed
a petition for post-conviction relief with the
OCCA. Coddington v. State, 259 P.3d 833
(Okla. Crim. App. 2011). The OCCA denied
† The OCCA found that the trial court made two
reversible errors during the sentencing phase.
The first was that the court did not allow
Coddington to play a video tape of his mother’s testimony, but instead only allowed Coddington to show the jury a written transcript

the petition. See id. at 840. Subsequently,
Coddington filed a 28 U.S.C. § 2254 petition. Coddington v. Royal, No. CIV-111457-HE, 2016 WL 4991685 (W.D. Okla.
Sept. 15, 2016).
In his § 2254 petition, Coddington raised
nine grounds for relief. See id. at *1. The
district court denied relief on all of them.
See id. We granted a Certificate of Appealability (COA) as to the first and second
grounds: (1) whether the OCCA unreasonably applied federal law when it held that
the exclusion of Dr. Smith’s testimony was
harmless, and (2) whether the OCCA unreasonably applied federal law when it affirmed the lower court’s decision that Coddington’s waiver of his Miranda rights
was knowing and voluntary.
II.
[1] Under the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA), the standard under which we review
the district court’s disposition of a state
petitioner’s habeas petition depends on
how the claim at issue was resolved in the
state court. Byrd v. Workman, 645 F.3d
1159, 1165 (10th Cir. 2011). Here, because
the issues in Coddington’s habeas petition
were already adjudicated on the merits by
the OCCA, ‘‘we review the district court’s
legal analysis of the state court decision de
novo.’’ Littlejohn v. Trammell, 704 F.3d
817, 825 (10th Cir. 2013). We therefore—
like the district court before us—review
the OCCA decision under the AEDPA deference standards.
The AEDPA, 28 U.S.C. § 2254(d), provides that:
of it. The trial court’s second error was its
allowance of a confusingly-worded jury instruction that potentially misled the jury
about the significance of various testimony
from Coddington’s family members. Coddington, 142 P.3d at 460–61.

007

953

CODDINGTON v. SHARP
Cite as 959 F.3d 947 (10th Cir. 2020)

An application for a writ of habeas corpus on behalf of a person in custody
pursuant to the judgment of a State
court shall not be granted with respect
to any claim that was adjudicated on the
merits in State court proceedings unless
the adjudication of the claim-(1) resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the
Supreme Court of the United States;
or
(2) resulted in a decision that was
based on an unreasonable determination of the facts in light of the evidence presented in the State court
proceeding.
[2–4] A decision is contrary to federal
law ‘‘if the state court arrives at a conclusion opposite to that reached by [the Supreme Court] on a question of law or if the
state court decides a case differently than
[the Supreme Court] has on a set of materially indistinguishable facts.’’ Valdez v.
Bravo, 373 F.3d 1093, 1096 (10th Cir. 2004)
(quotations omitted) (alterations in original). Relatedly, a decision is an unreasonable application of federal law ‘‘if the state
court identifies the correct governing legal
principle from [the Supreme Court’s] decisions but unreasonably applies that principle to the facts of the prisoner’s case.’’ Id.
(same). Finally, a federal court may only
grant habeas relief if ‘‘there is no possibility fairminded jurists could disagree that
the state court’s decision conflicts with the
Supreme Court’s precedents.’’ Frost v.
Pryor, 749 F.3d 1212, 1223 (10th Cir. 2014)
(quotations omitted).
III.
[5] In his first claim for relief, Coddington argues that the trial court deprived him of his constitutional right to
present a defense when it refused to allow

his expert to testify that he was unable to
form the requisite intent for malice murder, and that the OCCA wrongfully concluded that the trial court’s error was
harmless. We affirm the district court’s
denial of this claim, concluding that the
OCCA did not unreasonably apply Chapman in holding that the exclusion of a
portion of Dr. Smith’s testimony was
harmless.
A.
[6–8] On direct appeal, a state appellate court evaluates a state trial court’s
federal constitutional error for harmlessness. See Chapman v. California, 386 U.S.
18, 87 S.Ct. 824, 17 L.Ed.2d 705 (1967).
Specifically, the court considers whether
the state has proven beyond a reasonable
doubt that the federal constitutional error
was harmless. See id. When a state court’s
Chapman decision is reviewed by a federal
court under AEDPA, ‘‘a federal court may
not award habeas relief under § 2254 unless the harmlessness determination itself
was unreasonable.’’ Davis v. Ayala, 576
U.S. 257, 135 S. Ct. 2187, 2199, 192
L.Ed.2d 323 (2015) (emphasis in original).
This AEDPA limitation to Chapman is
subsumed by the Brecht test for harmlessness, which is used by courts engaging in
collateral review. Id. Under this test, a
petitioner cannot gain relief for a trial
court’s error unless he can establish that
the error ‘‘had [a] substantial and injurious
effect or influence in determining the
jury’s verdict.’’ Brecht v. Abrahamson, 507
U.S. 619, 637, 113 S.Ct. 1710, 123 L.Ed.2d
353 (1993) (quotations omitted). In other
words, the petitioner must establish actual
prejudice. See id. Coddington must therefore ‘‘show that he was actually prejudiced
by’’ the trial court’s failure to admit the
expert’s testimony, ‘‘a standard that he
necessarily cannot satisfy if a fairminded
jurist could agree with the [OCCA’s] deci-

008

954

959 FEDERAL REPORTER, 3d SERIES

sion that [the error] TTT met the Chapman
standard of harmlessness.’’ Davis, 135 S.
Ct. at 2199.
The Brecht test for harmlessness also
applies to Coddington’s claim that the trial
court’s rejection of Dr. Smith’s testimony
separately amounted to a violation of due
process. Any constitutional due process violations are likewise reviewed for harmlessness. See Patton v. Mullin, 425 F.3d
788, 800 (10th Cir. 2005) (applying Brecht
harmlessness analysis to petitioner’s allegation of due process violation at trial).‡

multiple federal courts—including the
Tenth Circuit—have upheld Rule 704 in
the face of constitutional challenges because testimony on the ultimate issue of
intent is not actually evidence. See id. at 17
(citing United States v. Austin, 981 F.2d
1163, 1165 (10th Cir. 1992)). Under those
precedents, the testimony Coddington
sought to have admitted was not evidence
at all. See, e.g., Austin, 981 F.2d at 1165.
So, the argument goes, Coddington’s constitutional right to present a defense was
not violated, and the analysis should end
there.

B.
As a preliminary matter, the state argues that Coddington has not shown the
existence of a constitutional error sufficient to trigger Chapman/Brecht. See
Resp.’s Br. at 16 (‘‘[T]he application of the
Brecht harmless error standard presupposes the existence of an actual federal
constitutional error.’’). It contends that expert testimony on the ultimate issue of
intent is generally not allowed in the federal system because it is prohibited by Federal Rule of Evidence 704. See Fed. R.
Evid. 704(b) (‘‘In a criminal case, an expert
witness must not state an opinion about
whether the defendant did or did not have
a mental state or condition that constitutes
an element of the crime charged or of a
defense. Those matters are for the trier of
fact alone.’’). Additionally, it notes that

[9] We disagree. Even if a state law
violation cannot be tied to the denial of a
specific federal constitutional right (such
as the right to present a defense), it is still
reviewed to determine whether the violation ‘‘so infected the trial with unfairness
as to make the resulting conviction a denial of due process.’’ Romano v. Oklahoma,
512 U.S. 1, 12, 114 S.Ct. 2004, 129 L.Ed.2d
1 (1994). And whether we analyze Coddington’s claim as a violation of a specific
constitutional right or as a violation of
constitutional due process, we still must
determine whether the alleged error was
harmless. See Patton, 425 F.3d at 800
(‘‘[A]ny trial errors will be deemed harmless unless they had a substantial and injurious effect or influence in determining the
verdict. TTT If we are in grave doubt as to

‡ We have previously stated that ‘‘once a showing of fundamental unfairness is made, a petitioner is entitled to habeas relief without an
assessment of harmless error.’’ Spears v. Mullin, 343 F.3d 1215, 1229 n.9 (10th Cir. 2003).
We based this statement on our belief that the
fundamental unfairness inquiry ‘‘essentially
duplicate[s] the function of harmless error
review.’’ Id. (alteration in original) (quotations omitted). The Supreme Court, however,
has commented that ‘‘the Chapman harmlesserror standard is more demanding than the
‘fundamental fairness’ inquiry of the Due Process Clause.’’ Greer v. Miller, 483 U.S. 756,

765 n.7, 107 S.Ct. 3102, 97 L.Ed.2d 618
(1987). One standard that is less demanding
than another cannot ‘‘duplicate’’ the more
demanding standard. Accordingly, we decline
to follow this court’s earlier holding in Spears
that would preclude harmlessness review
when a due process violation is found on
habeas review. See Bryan A. Garner et al., The
Law of Judicial Precedent 303–04 (2016) (noting that, while earlier horizontal precedent
nearly always controls, an exception exists if
that decision was ‘‘clearly contrary to a thenstanding vertical precedent’’).

009

955

CODDINGTON v. SHARP
Cite as 959 F.3d 947 (10th Cir. 2020)

the harmlessness of an error, the habeas
petitioner must prevail.’’).
Because we ultimately conclude that the
trial court’s error in excluding a portion of
Dr. Smith’s testimony was harmless, see
infra, we need not determine whether the
error committed by the trial court amounted to a violation of a specific constitutional
right or a more general constitutional due
process violation. Instead, we ‘‘assume,
without deciding, that the error[ ] [Coddington] identifies TTT [is] of constitutional
magnitude.’’ Malone v. Carpenter, 911
F.3d 1022, 1032 n.1 (10th Cir. 2018) (rejecting state’s argument that habeas relief was
not available because there was no constitutional violation).
C.
The OCCA concluded that, even if Dr.
Smith had been permitted to testify on
intent, the jury would have still found malice aforethought. See Coddington, 142 P.3d
at 451. Coddington argues that the
OCCA’s harmlessness determination was
unreasonable because, while he was allowed to present substantial testimony
about the effects of cocaine use, none of
the evidence went to whether he was able
to form the requisite intent. See Pet’r Br.
at 17–26. After reviewing the state court
record, we do not find that the exclusion
had a substantial and injurious effect on
the jury’s verdict. First, though he was
unable to present testimony explicitly asserting that his cocaine use might have
precluded his ability to form malice aforethought, Coddington was permitted to
present copious testimony on how his cocaine use negatively affected his rationality
and self-awareness. Second, it was disputed as to whether Coddington was even
intoxicated at the time of the murder. And
third, the excluded testimony would have
been heavily contradicted by other evidence in the record indicating that Cod-

dington not only was capable of self-awareness, but that he indeed hit Hale with the
deliberate intent ‘‘to take away [his] life.’’
See Criminal Appeal Original Record
(C.A.O.R.) I at 88 (jury instruction defining ‘‘malice aforethought’’).
1.
Even without Dr. Smith’s excluded testimony, the jury considered evidence regarding Coddington’s cocaine use and the
ill-effects of such use on his brain. Dr.
Smith told the jury that he had diagnosed
Coddington with cocaine dependency. See
2003 Tr. V at 81. He then told the jury
that cocaine affects the ‘‘thinking part of
the brain,’’ i.e., the cortex and frontal
lobes. See id. at 81–82. He also told the
jury that the cortex is what ‘‘makes you
aware of yourself and what you’re doing
and your ethics and your judgment and
how to make decisions and therefore how
to behave.’’ Id. at 82. He showed the jury a
PET-scan of a drug-addict’s brain to give
the jury a visual representation of how
drug use can cause brain damage. See id.
at 83. He further told the jury that cocaine
use can cause paranoia and agitation. See
id. at 88.
Dr. Smith then applied these general
statements about cocaine use to Coddington in particular. He noted that Coddington’s cocaine use ‘‘had a marked effect on
[Coddington’s] brain function’’ the day of
the murder. See id. at 92.
It made him -- it had multiple effects on
his brain function. His paranoia, his
fearfulness, his belief he was being followed and watched constantly, his desperation to get more cocaine, his overresponsiveness to stimulation of any
kind, including touching. So I think it
markedly affected his ability to exercise
reasonable judgment and control.
Id. Dr. Smith also told the jury that Coddington’s cocaine binge likely made these

010

956

959 FEDERAL REPORTER, 3d SERIES

effects even worse. Specifically, it likely
made it ‘‘difficult for [Coddington] to control his behavior.’’ See 2003 Tr. VI at 5. He
testified that, to a reasonable degree of
medical certainty, Coddington was not
thinking reasonably or rationally. See id.
at 6.§
In addition to Dr. Smith’s comprehensive testimony, Coddington himself testified that he never intended to kill Hale.
He also stated that the murder basically
just happened: ‘‘the next thing I know he
was laying on the floor and I had hit him
with [the hammer].’’ Id. at 48. Also, Coddington’s counsel repeatedly argued that
Coddington’s cocaine use and addiction
rendered him incapable of forming the
requisite intent. Counsel referred to the
killing as ‘‘mindless’’ and having occurred
‘‘in the middle of a drug-inspired frenzy.’’
Id. at 150–51. In fact, in closing, Coddington’s counsel explicitly told the jury that
Coddington’s ‘‘cocaine intoxication rendered him at the moment of truth incapable of forming malice aforethought.’’ Id. at
161.
2.
With or without the excluded portion,
the jury might have disregarded Dr.
Smith’s testimony altogether if it found
that Coddington was not ‘‘intoxicated’’ at
the time of the murder. Coddington offered Dr. Smith’s testimony to support his
intoxication defense, which applies where
the defendant’s ‘‘mental powers’’ were so
‘‘overcome with intoxication’’ that it would
have been ‘‘impossible [for him] to form
the special state of mind known as malice
aforethought.’’ C.A.O.R. I at 106 (Jury In§ Coddington also contends that the OCCA’s
opinion is internally inconsistent. He says that
the OCCA acknowledged that Dr. Smith’s excluded testimony would have lowered the degree of murder. See Pet’r Br. at 18. This
assertion is factually inaccurate. The OCCA

struction 39) (emphasis added). But Dr.
Smith’s testimony focused less on how a
person behaves while intoxicated from cocaine and more on how repeated cocaine
use can damage a person’s brain. He explained that cocaine can impair a person’s
judgment and self-awareness by damaging
their pre-frontal cortex. He described
these effects not necessarily as cocaine
intoxication, but instead as ‘‘cocaine dependency.’’ 2003 Tr. V at 81. And it is unclear
whether the jury would have equated such
chronic effects of cocaine with the ‘‘intoxication’’ language existing in the pertinent
jury instruction.
With the above said, the jury considered
evidence that Coddington likely was not
‘‘high’’ at the time of the murder. Dr.
Smith informed the jury that the ‘‘high’’
from cocaine can last anywhere from several minutes to several hours. Id. at 94. On
numerous occasions, Dr. Smith described
the effects of cocaine as ‘‘momentary.’’ Id.
at 64, 66. His testimony further suggested
that smoking—which was Coddington’s
typical method of ingestion—crack cocaine
typically resulted in a ‘‘quicker’’ high. Id.
at 63. With that said, Coddington was at
Hale’s house for roughly two to three
hours before he murdered Hale. Therefore, for Coddington to have been intoxicated with cocaine at the time of the murder, he likely would have either had to
have smoked cocaine while at Hale’s house,
or potentially immediately before arriving
there.
And whether Coddington had indeed
smoked cocaine while—or immediately before—visiting Hale was in dispute during
the trial. Coddington testified at trial that
he smoked cocaine in Hale’s bathroom durstated that Dr. Smith’s testimony would have
lowered the degree of murder if the jury believed it. See Coddington, 142 P.3d at 451. The
OCCA then went on to explain that the jury
would not have believed it. See id.

011

957

CODDINGTON v. SHARP
Cite as 959 F.3d 947 (10th Cir. 2020)

ing the visit. 2003 Tr. VI at 47. And Dr.
Smith testified that Coddington had allegedly smoked cocaine sometime before arriving at Hale’s house. Id. at 29. However,
this testimony contrasts with Coddington’s
original confession during which he described the murder and surrounding
events in detail, yet never alleged that he
had smoked crack cocaine in Hale’s bathroom. Id. at 55; State Ex. 89.
Moreover, in contrast to the above testimony, other evidence showed that it
was implausible for Coddington to have
possessed and smoked cocaine at those
alleged times. By Coddington’s own admission, after conducting a robbery or a
burglary, he would immediately use the
stolen money to buy cocaine, and ‘‘as
soon as [he] bought that cocaine [he]
smoked it up.’’ Id. at 56. ‘‘And when [he]
got to wanting another fix [he] went and
got some money and did the same thing.’’
Id. On the day of the murder, which occurred sometime between 6:00pm and
7:00pm, the last time Coddington had stolen money was at 2:30am when he robbed
a convenience store. Id.** These admissions from Coddington suggest that the
last time he would have smoked cocaine
on the day of the murder was likely early
in the morning after his last robbery, and
that it would have been uncharacteristic
of him to have retained enough cocaine to
smoke it in the evening. And the fact
that Coddington—again, by his own admission—quickly after the murder bought
more cocaine with the money he took
from Hale’s wallet further suggests that
** In his trial testimony, which took place over
six years after the murder, Coddington said
he did not remember whether he committed
any robberies between the time he robbed the
7-11 at 2:30am and the time of the murder.
2003 Tr. VI at 56. However, during his interrogation two days after the murder, he indicated that he did not conduct another robbery
until after the murder. Ex. 8 at 5, 20 (assert-

Coddington had already run out of the
narcotic by that time and was desperate
for more. See id. at 78.
The jury therefore considered evidence
suggesting that Coddington likely did not
ingest cocaine immediately before or during his visit with Hale, and that the effects
of any cocaine he smoked earlier in the
day likely would have receded by the time
of the murder. Considering this evidence,
the jury could have found that Dr. Smith’s
excluded testimony—about Coddington’s
alleged inability to form the requisite intent while under the influence of cocaine—
was irrelevant altogether.
3.
Even if the jury believed that Coddington was under the influence of cocaine—
from either a ‘‘high’’ or other cocaine-related effects—at the time of the murder, it
still likely would have found Coddington
was capable of forming the requisite intent
of malice aforethought. Coddington testified that though he decided to take the
cash from Hale’s pocket, he deliberately
refrained from taking Hale’s diamond ring
because he ‘‘couldn’t do that.’’ State Ex. 89
at 15. Therefore, if Coddington was indeed
‘‘high’’ at the time of the murder, his actions immediately thereafter showed that
he was nonetheless capable of self-awareness during that period. Additionally, while
allegedly ‘‘high on cocaine,’’ Coddington
successfully robbed three venues and intentionally began targeting gas stations
because they were more likely to carry
cash. 2003 Tr. VI 58, 80; State Ex. 89 at 4–
ing that his first robbery—the 7-11—took
place on Tuesday night, while his second robbery—the Texaco—took place on Wednesday
night after the murder). Further, Coddington
pleaded guilty to six robberies, the first of
which was the 7-11 at 2:50am on March 5,
and the second of which was the Texaco at
1:15am on March 6. C.A.O.R. I at 12–13.

012

958

959 FEDERAL REPORTER, 3d SERIES

7, 9, 11. And during one of these robberies,
Coddington devised a scheme in which he
first scoped-out the venue while pretending to buy a soft drink, then—after ensuring the store was empty—returned with a
knife so that he could rob the clerk. Id. at
57.
Further, the available evidence showed
not only that Coddington was capable of
self-awareness at the time of the murder,
but that he indeed had formed malice
aforethought when killing Hale. We agree
with the OCCA that ‘‘the circumstances
surrounding [t]his murder suggest it was
committed with intent. Coddington attacked Hale after Hale refused to give him
money for drugs. He hit Hale with the
hammer three times; Hale had defensive
wounds, and there was significant blood
spatter.’’ Coddington, 142 P.3d at 455–56.
Not only did Coddington hit Hale so hard
that he made Hale fall over, but he continued to pound the back of Hale’s head with
the hammer while Hale was lying facedown on the floor. 2003 Tr. VI at 69–70.
The repetition and force with which Coddington struck Hale, along with evidence
suggesting that Hale tried to defend himself, could support a finding that Coddington had formed ‘‘the deliberate intention to
take away the life of a human being.’’
C.A.O.R. I at 88 (jury instruction defining
‘‘malice aforethought’’).

aforethought’’ while ‘‘experiencing the effects of the cocaine.’’ 2003 Tr. V at 81.
Despite the exclusion, the jury still heard
evidence about how cocaine could have
made Coddington unaware of what he was
doing. And even with the excluded testimony, the jury still would have had to grapple
with whether Coddington was indeed intoxicated at the time of the murder. Regardless, Dr. Smith’s excluded testimony
would have been contradicted by evidence
showing not only that Coddington was capable of self-awareness at the time of the
murder, but that he repeatedly hit Hale
with the intent to deliberately take away
his life. Given this, we simply cannot conclude that no ‘‘fairminded jurist could
agree with the [OCCA’s] decision that,’’
beyond a reasonable doubt, Dr. Smith’s
testimony regarding intent would not have
made a difference in the outcome of the
trial.†† Davis, 135 S. Ct. at 2199. Put another way, we do not find that the exclusion ‘‘had [a] substantial and injurious effect or influence in determining the jury’s
verdict.’’ Brecht, 507 U.S. at 637, 113 S.Ct.
1710.
IV.

In sum, we conclude that Coddington
was not prejudiced by the trial court’s
decision to exclude Dr. Smith’s testimony
that, in his opinion, Coddington ‘‘would not
have been able to form the intent of malice

[10] In his second claim for relief, Coddington argues that his confession to the
murder should have been suppressed because he did not knowingly and voluntarily
waive his Miranda rights. We find that the
OCCA did not unreasonably apply federal
law in concluding that Coddington’s waiver
was both knowing and voluntary. Neither
the delay between Coddington’s confession
and the station-house interrogation, nor
Coddington’s drug use, were sufficient to

†† As noted above, the district court concluded
that the OCCA’s determination was not unreasonable. In the alternative, it held that even if
the exclusion of Dr. Smith’s testimony was
not harmless, the jury would have still convicted Coddington of first degree felony mur-

der (because it convicted him of robbery with
a dangerous weapon). See Coddington, 2016
WL 4991685, at *6. Because we conclude the
OCCA’s determination was not unreasonable,
we do not address the district court’s alternate holding.

4.

013

959

CODDINGTON v. SHARP
Cite as 959 F.3d 947 (10th Cir. 2020)

render his confession unknowing or involuntary.
A.
[11, 12] Testimony from a custodial interrogation will be suppressed if the prisoner did not knowingly and voluntarily
waive his Miranda rights. See Patterson v.
Illinois, 487 U.S. 285, 292, 108 S.Ct. 2389,
101 L.Ed.2d 261 (1988); see also Miranda
v. Arizona, 384 U.S. 436, 86 S.Ct. 1602, 16
L.Ed.2d 694 (1966). This ‘‘inquiry has two
distinct dimensions.’’ Moran v. Burbine,
475 U.S. 412, 421, 106 S.Ct. 1135, 89
L.Ed.2d 410 (1986).
First, the relinquishment of the right
must have been voluntary in the sense
that it was the product of a free and
deliberate choice rather than intimidation, coercion, or deception. Second,
the waiver must have been made with a
full awareness of both the nature of the
right being abandoned and the consequences of the decision to abandon it.
Id.
[13–16] ‘‘We engage in a totality of the
circumstances approach, where no single
factor—whether intoxication, exhaustion,
or other—is dispositive.’’ United States v.
Burson, 531 F.3d 1254, 1258 (10th Cir.
2008). However, one circumstance that is
not relevant to our analysis is whether the
suspect was aware of each possible subject
of questioning. See Colorado v. Spring, 479
U.S. 564, 577, 107 S.Ct. 851, 93 L.Ed.2d
954 (1987) (‘‘[A] suspect’s awareness of all
the possible subjects of questioning in advance of interrogation is not relevant to
determining whether the suspect voluntarily, knowingly, and intelligently waived
his Fifth Amendment privilege.’’ (emphasis
added)). Additionally, ‘‘[t]he mere fact of
drug or alcohol use will not’’ render a
confession unknowing or involuntary. Burson, 531 F.3d at 1258. Drug use will only
render a confession unknowing if it rises

‘‘to the level of substantial impairment.’’
Id. (‘‘The defendant must produce evidence
showing his condition was such that it rose
to the level of substantial impairment [because] TTT [o]nly then could we conclude
the government has failed to prove the
defendant possessed full awareness of both
the nature of his rights and the consequences of waiving them.’’). Likewise, drug
use will render a confession involuntary
only if the suspect’s ‘‘will was overborne by
the circumstances surrounding the giving
of a confession.’’ United States v. Smith,
606 F.3d 1270, 1276–77 (10th Cir. 2010)
(quotations omitted).
B.
Coddington advances several arguments
for why his waiver was unknowing and
involuntary. See Pet’r Br. at 30–39. First,
he contends that the officers misled him
about the nature of their questioning. Specifically, Coddington believes that the officers told him that they wanted to question
him about the robberies, when they clearly
intended to also question him about Hale’s
murder. Coddington’s argument is unconvincing. ‘‘[A] suspect’s awareness of all the
possible subjects of questioning in advance
of interrogation is not relevant to determining whether the suspect voluntarily,
knowingly, and intelligently waived his
Fifth Amendment privilege.’’ Spring, 479
U.S. at 577, 107 S.Ct. 851. The OCCA’s
rejection of this argument, therefore, was
a reasonable application of federal law. See
Coddington, 142 P.3d at 448 (citing Spring,
479 U.S. at 573, 577, 107 S.Ct. 851 to
conclude trial court properly admitted
Coddington’s confession).
Second, Coddington argues that the interrogation at the police station occurred
2.5 to 3 hours after the officers initially
read him his Miranda rights at his home.
He believes that this time gap between his
waiver and the interrogation rendered his

014

960

959 FEDERAL REPORTER, 3d SERIES

confession unknowing. This argument
overlooks key facts. First, before the police
officers interrogated Coddington at the police station, they asked him if he remembered being advised of—and subsequently
waiving—his Miranda rights several hours
earlier; and Coddington replied in the affirmative. Id. at 447; State Ex. 89 at 1–2.
This court has found that such a reminder
under similar circumstances was adequate.
See Burson, 531 F.3d at 1259 (concluding
the defendant ‘‘knew his constitutional
rights’’ where the interrogating officer
‘‘asked [the defendant] if he remembered
the Miranda warning he was given at the
time of his arrest less than two hours
earlier’’ and the defendant ‘‘responded affirmatively’’). Second, Coddington had previous encounters with law enforcement and
was familiar with his Miranda rights. The
Tenth Circuit has previously held that a
suspect’s knowledge of Miranda rights
from previous encounters with law enforcement is an appropriate consideration
in determining whether a later waiver is
voluntary. Smith v. Mullin, 379 F.3d 919,
934 (10th Cir. 2004). Accordingly, it was
proper for the OCCA to consider Coddington’s previous law enforcement encounters
in its analysis. Coddington, 142 P.3d at 448
(‘‘[F]rom his prior contacts with law enforcement and prior convictions, we can
assume he was familiar with and understood the concepts encompassed in Miranda.’’ (quotations omitted)).

The OCCA’s decision was consistent
with these legal principles. Looking first to
the knowingness of Coddington’s confession, the OCCA observed that ‘‘[s]elf-induced intoxication, short of mania, or such
an impairment of the will and mind as to
make the person confessing unconscious of
the meaning of his words, will not render a
confession inadmissible, but goes only to
the weight to be accorded to it.’’ Coddington, 142 P.3d at 448 (quotations omitted).
The OCCA then held that Coddington’s
will was not sufficiently impaired to render
his confession inadmissible. See id. This
was not an unreasonable application of federal law. Coddington was able to recall
‘‘specific details about the robberies and
Hale’s murder, and appeared to understand exactly what was going on.’’ Id. This
shows that, like the defendant in Burson,
Coddington’s ‘‘mental faculties were sufficient’’ enough for him to voluntarily and
knowingly waive his rights. Burson, 531
F.3d at 1260.

[17, 18] Third, Coddington contends
that he could not have knowingly or voluntarily waived his rights because he was
intoxicated and sleep-deprived. It is well
established that intoxication alone will not
render a confession involuntary. The intoxication must rise to the level of ‘‘substantial impairment’’ to render the confession
unknowing. See Burson, 531 F.3d at 1258,
1260 (finding that the defendant—who was
allegedly ‘‘exhausted’’ and under the influ-

Coddington also argued before the
OCCA, as he does here, that his heightened intoxication is demonstrated by the
fact that he confessed to crimes that authorities in Oklahoma were unable to corroborate. However, we agree with the
OCCA that this fact on its own ‘‘does not
show he was so intoxicated that his Miranda waiver was not knowingly and voluntarily made.’’ Id. Coddington confessed
to numerous crimes that Oklahoma was

ence of drugs during an interrogation—
voluntarily and knowingly waived his
rights where his ‘‘mental faculties were
sufficient for him to engage in an intelligent, rational dialogue with [the officer]’’).
Similarly, for intoxication to render a confession involuntary, the circumstances of
the confession must show that the suspect’s will was overborne. See Smith, 606
F.3d at 1276–77.

015

APTIVE ENVIRONMENTAL, LLC v. TOWN OF CASTLE ROCK
Cite as 959 F.3d 961 (10th Cir. 2020)

able to verify, and he recalled specific details from those crimes.
Finally, the OCCA did not unreasonably
apply federal law in concluding that Coddington’s drug use did not render his confession involuntary. See id. at 447–48. The
totality of the circumstances demonstrate
that Coddington was aware of his surroundings and that the officers did not
pressure or coerce him into confessing.
Accordingly, even if Coddington was intoxicated at the time of the confession, Coddington has not shown that his ‘‘will was
overborne.’’ Smith, 606 F.3d at 1276 (quotation marks omitted).
V.

961

action alleging that town’s ordinance imposing 7:00 p.m. curfew on commercial
door-to-door solicitation violated its First
Amendment rights and sought injunction
against the curfew’s enforcement. Following a bench trial, the United States District Court for the District of Colorado,
Marcia S. Krieger, Chief Judge, permanently enjoined town from enforcing the
curfew. Seller appealed.
Holdings: The Court of Appeals, Holmes,
Circuit Judge, held that:
(1) seller established injury-in-fact required for Article III standing;
(2) causal link existed between ordinance
and injury-in-fact, as required for Article III standing;

For the reasons set forth above, we
AFFIRM the district court’s denial of
Coddington’s petition for habeas relief.

(3) seller established redressability requirement of Article III standing;

,

(5) town failed to demonstrate that ordinance directly advanced its interest in
public safety, and thus that interest did
not justify burden on First Amendment rights; and

APTIVE ENVIRONMENTAL,
LLC, Plaintiff-Appellee,
v.
TOWN OF CASTLE ROCK,
COLORADO, DefendantAppellant.
International Municipal Lawyers
Association; Colorado Municipal
League, Amici Curiae.
No. 18-1166
United States Court of Appeals,
Tenth Circuit.
FILED May 15, 2020
Background: Seller of pest-control services through door-to-door solicitation filed

(4) ordinance regulated commercial speech
protected by the First Amendment;

(6) town failed to demonstrate that ordinance directly advanced its interest in
protecting privacy of its citizens, and
thus that interest did not justify burden on First Amendment rights.
Affirmed.
Hartz, Circuit Judge, filed concurring
opinion.
1. Federal Civil Procedure O103.2, 103.3
Federal Courts O2101
To satisfy Article III’s case-or-controversy requirement for federal court jurisdiction, a plaintiff must demonstrate standing by establishing (1) an injury-in-fact, (2)
a sufficient causal connection between the
injury and the conduct complained of, and
(3) a likelihood that the injury will be

016

Appendix B
District court memorandum opinion denying habeas petition
Coddington v. Royal, 2016 WL 4991685 (W.D. Okla. Sept. 15, 2016)

017

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

2016 WL 4991685
Only the Westlaw citation is currently available.
United States District Court, W.D. Oklahoma.

James CODDINGTON, Petitioner,
v.
Terry ROYAL, Warden, Oklahoma State Penitentiary, Respondent.1
NO. CIV-11-1457-HE
|
Signed 09/15/2016
Attorneys and Law Firms
Seth A. Day, Susanna M. Gattoni, Hall Estill, Oklahoma City, OK, for Petitioner.
Jennifer B. Miller, Oklahoma City, OK, for Respondent.

MEMORANDUM OPINION
JOE HEATON, CHIEF U.S. DISTRICT JUDGE
*1 Petitioner, James Coddington, a state court prisoner, has filed a petition for writ of habeas corpus seeking relief pursuant
to 28 U.S.C. § 2254. Doc. 29.2 Petitioner, who is represented by counsel, is challenging the convictions entered against him in
Oklahoma County District Court Case No. CF-97-1500.
Petitioner’s first trial was held in 2003. The jury found petitioner guilty of murder in the first degree (malice aforethought)
and robbery with a dangerous weapon after former conviction of two or more felony crimes. Petitioner was sentenced to death
for the murder. He received a life sentence for the robbery (2003 O.R. VII, 1255-57, 1260-61; 2003 O.R. VIII, 1458-60).3 In
Coddington v. State, 142 P.3d 437 (Okla. Crim. App. 2006), cert. denied, 549 U.S. 1361 (2007), the Oklahoma Court of Criminal
Appeals (hereinafter “OCCA”) affirmed both of petitioner’s convictions and his life sentence for robbery, but finding error in
the second stage, it remanded the case for resentencing on the murder conviction.4
The resentencing trial was held in 2008. Once again, petitioner was sentenced to death. In support of his sentence, the jury found
four aggravating circumstances: (1) the murder was especially heinous, atrocious, or cruel; (2) the murder was committed to
avoid or prevent a lawful arrest or prosecution; (3) petitioner had previously been convicted of a felony involving the use or
threat of violence to the person; and (4) the existence of a probability that petitioner will commit criminal acts of violence that
would constitute a continuing threat to society (2008 O.R. V, 837-838, 914-16). In Coddington v. State, 254 P.3d 684 (Okla.
Crim. App. 2011), cert. denied, 132 S. Ct. 588 (2011), the OCCA affirmed petitioner’s death sentence, and in Coddington v.
State, 259 P.3d 833 (Okla. Crim. App. 2011), the OCCA denied petitioner’s application for post-conviction relief.
Petitioner has presented nine5 grounds for relief. Respondent has responded to the petition and petitioner has replied. Docs.
39 and 49. In addition to his petition, petitioner has filed motions for discovery and an evidentiary hearing. Docs. 30 and 31.
After a thorough review of the entire state court record (which respondent has provided), the pleadings filed in this case, and
the applicable law, the court concludes that, for the reasons set forth here, petitioner is not entitled to habeas relief.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

018

1

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

I. Facts.
*2 In adjudicating petitioner’s first direct appeal, the OCCA set forth a summary of the facts. Pursuant to 28 U.S.C. § 2254(e)
(1), “a determination of a factual issue made by a State court shall be presumed to be correct.” Although this presumption may
be rebutted by petitioner, the court finds that petitioner has not done so, and that in any event, the OCCA’s statement of the facts
is an accurate recitation of the presented evidence. Thus, as determined by the OCCA, the facts are as follows:
In early March of 1997, [petitioner], a cocaine addict, suffered a relapse and began using cocaine again. He estimated he
spent one thousand dollars ($1000.00) a day to support his habit. Within a short time, he was desperate for money and robbed
a convenience store on March 5, 1997 to feed his habit. The robbery did not yield enough money, so [Petitioner] went to his
friend Al Hale’s home to borrow fifty dollars ($50.00).
Hale, then 73 years old, worked with [petitioner] at a Honda Salvage yard. Hale had previously loaned [petitioner] money and
had also contributed towards [petitioner’s] previous drug treatment. Hale’s friends and family knew he kept a large amount
of cash at his home. On March 5, 1997, he had over twenty-four thousand dollars ($24,000.00) stashed in his closet.
[Petitioner] went to Hale’s home on the afternoon of March 5, 1997 to borrow money, because he had been on a cocaine
binge for several days and needed money for more cocaine. [Petitioner] watched television with Hale for an hour or two and
then smoked crack cocaine in Hale’s bathroom. Hale knew [petitioner] was using cocaine again. Hale refused to give him
money and told him to leave. As he was leaving, [Petitioner] saw a claw hammer in Hale’s kitchen, grabbed it, turned around
and hit Hale at least three times with the hammer. [Petitioner] believed Hale was dead, so he took five hundred twenty-five
dollars ($525.00) from his pocket and left. Following the attack on Hale, [petitioner] robbed five more convenience stores
to get money for cocaine.
Oklahoma City police detectives arrested [petitioner] on March 7, 1997, outside of his apartment in south Oklahoma City.
[Petitioner] told one officer he had been on a cocaine binge. On the way to the police department, [petitioner] tried to choke
himself by wrapping the seat belt around his neck. He also stated he wanted to die. At the police station, during an interview
with a robbery detective and a homicide detective, [petitioner] confessed to the convenience store robberies and also to the
murder of Mr. Hale. He admitted he struck Mr. Hale in the head with a claw hammer and believed Hale was dead when he
left. At trial, [petitioner] admitted he murdered Hale. He testified he did not go to Hale’s house with the intent to do anything
except borrow money to buy more cocaine. He said he did not have a weapon with him, did not intend to rob Hale, and
did not intend to kill him.
Ron Hale, the victim’s son, discovered Hale after the attack on the evening of March 5, 1997. There was blood and blood
spatter everywhere. Hale was lying in his bed, soaked in blood, still breathing but unable to speak. Hale was transported first to
Midwest City Hospital and then to Presbyterian Hospital. He died approximately twenty-four hours later. An autopsy showed
Hale died from blunt force head trauma. The medical examiner testified he sustained at least three separate blows to the left
side of his head, consistent with being hit in the head with a claw hammer. He also testified Hale had defensive wounds.
*3 [Petitioner] admitted that he did not call the police when he left Hale’s house because he did not want to get caught. He
also admitted he had prior felony convictions.
Coddington, 142 P.3d at 442-43.

II. Standard of Review.
A. Exhaustion as a Preliminary Consideration.
The exhaustion doctrine, a matter of comity which has long been a part of habeas corpus jurisprudence, requires the court to
consider in the first instance whether petitioner has presented his grounds for relief to the OCCA. As the Supreme Court stated
in Coleman v. Thompson, 501 U.S. 722, 731 (1991), “in a federal system, the States should have the first opportunity to address
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

019

2

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

and correct alleged violations of state prisoner’s federal rights.” The exhaustion doctrine is set forth in 28 U.S.C. § 2254(b).
Section 2254(b)(1)(A) prohibits the court from granting habeas relief in the absence of exhaustion (although Section 2254(b)
(1)(B) sets forth two limited exceptions to this rule), but Section 2254(b)(2) expressly authorizes the court to deny habeas relief
“notwithstanding the failure of the applicant to exhaust the remedies available in the courts of the State.”
B. Procedural Bar.
Beyond the issue of exhaustion, the court must also examine how the OCCA adjudicated each of petitioner’s grounds for relief,
i.e., whether the OCCA addressed the merits of petitioner’s grounds or declined to consider them based on a state procedural
rule. “It is well established that federal courts will not review questions of federal law presented in a habeas petition when the
state court’s decision rests upon a state-law ground that ‘is independent of the federal question and adequate to support the
judgment.’ ” Cone v. Bell, 556 U.S. 449, 465 (2009) (quoting Coleman, 501 U.S. at 729). “The doctrine applies to bar federal
habeas [relief] when a state court declined to address a prisoner’s federal claims because the prisoner had failed to meet a state
procedural requirement.” Coleman, 501 U.S. at 729-30.
C. Limited Merits Review.
When the OCCA has addressed the merits of one of petitioner’s grounds for relief, the court reviews that ground in accordance
with the standard of relief set forth in 28 U.S.C. § 2254(d). Pursuant to that section of the Antiterrorism and Effective Death
Penalty Act of 1996 (hereinafter “AEDPA”), in order for petitioner to obtain relief, he must show that the OCCA’s adjudication
of his claim either
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly established Federal law,
as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of the evidence presented in
the State court proceeding.
See Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (acknowledging that “[t]he petitioner carries the burden of proof”). The very
focus of this statutory provision is the reasonableness of the OCCA’s decision. “The question under AEDPA is not whether
a federal court believes the state court’s determination was incorrect but whether that determination was unreasonable—a
substantially higher threshold.” Schriro v. Landrigan, 550 U.S. 465, 473 (2007). In other words, “[i]t is not enough that [this]
court, in its independent review of the legal question, is left with a firm conviction that the [OCCA] was erroneous.” What is
required is a showing that the OCCA’s decision is “objectively unreasonable.” Lockyer v. Andrade, 538 U.S. 63, 75-76 (2003)
(internal quotation marks and citation omitted).
*4 The Supreme Court has repeatedly acknowledged that Section 2254(d) “ ‘erects a formidable barrier to federal habeas
relief for prisoners whose claims have been adjudicated in state court[,]’ ” and that “[i]f [it] is difficult to meet, that is because
it was meant to be.” White v. Wheeler, 577 U.S. ____, 136 S. Ct. 456, 460 (2015) (quoting Burt v. Titlow, 571 U.S. ____, 134
S. Ct. 10, 16 (2013)); Harrington v. Richter, 562 U.S. 86, 102 (2011). Section 2254(d) “stops short of imposing a complete bar
on federal-court relitigation of claims already rejected in state proceedings.” Richter, 562 U.S. at 102. What remains, then, is a
very narrow avenue for relief, one that permits relief only “where there is no possibility fairminded jurists could disagree that
the [OCCA’s] decision conflicts with [the Supreme] Court’s precedents.” Id. (emphasis added).
Section 2254(d) reflects the view that habeas corpus is a “guard against extreme malfunctions in the state criminal justice
systems,” not a substitute for ordinary error correction through appeal. As a condition for obtaining habeas corpus from a
federal court, a state prisoner must show that the state court’s ruling on the claim being presented in federal court was so
lacking in justification that there was an error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.
Id. at 102-03 (citation omitted).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

020

3

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

III. Analysis.
A. Ground IV: Trial Court’s Exclusion of Expert Testimony Regarding Petitioner’s Inability to Form Malice
Aforethought.
In his first ground for relief, petitioner asserts that he was denied his right to present a defense when the trial court improperly
limited his expert’s testimony. Petitioner raised this claim on direct appeal, and although the OCCA agreed with petitioner
that error had occurred, it found the error harmless and denied relief. Coddington, 142 P.3d at 448-51. Petitioner challenges
the OCCA’s harmless error analysis, asserting that it is an unreasonable application of Chapman v. California, 386 U.S. 18
(1967), and that he is entitled to relief under Fry v. Pliler, 551 U.S. 112 (2007), and Brecht v. Abrahamson, 507 U.S. 619 (1993),
because the error had a substantial and injurious effect on the jury’s verdict. Respondent, while asserting that AEDPA deference
applies to the resolution of this claim, argues that relief must be denied because there is no Supreme Court case on point. In the
alternative, respondent argues that petitioner cannot meet the Brecht standard for relief. Applying Brecht, the court denies relief.
Dr. John R. Smith, a psychiatrist, testified in the guilt stage of petitioner’s first trial regarding petitioner’s cocaine addiction
(2003 Tr. V, 52, 81).6 Dr. Smith advised the jury that cocaine addiction is a brain disease, that cocaine is a highly addictive
substance, and that given his history, petitioner was an individual who was vulnerable to addiction (2003 Tr. V, 62-66, 68-69,
71-72, 74-78). Dr. Smith discussed how addiction is treated and how relapses are common (2003 Tr. V, 78-80). He told the
jury that cocaine affects all parts of the brain, but particularly how a person thinks (2003 Tr. V, 81-82). Dr. Smith testified that
cocaine can cause paranoia, fidgetiness, and anxiety (2003 Tr. V, 88-89). Having reviewed petitioner’s videotaped confession
with police, it was Dr. Smith’s opinion that petitioner was high at that time (2003 Tr. V, 92-93).
Regarding petitioner’s mental state on the day of the murder, Dr. Smith testified that petitioner told him that he had smoked a
gram of crack cocaine with marijuana and drank some alcohol as well. After discussing the synergistic effect of this combination
of intoxicants (2003 Tr. V, 93-94), Dr. Smith testified that petitioner’s ability to make decisions on the day of the murder was
impacted, as was his ability to control his behavior. Describing petitioner as agitated and overreactive, Dr. Smith stated that
petitioner’s “ability to delay discharge behaviorally” and “his ability to be thoughtful or think” were “certainly affected” (2003
Tr. VI, 4). Dr. Smith testified regarding the cocaine binge petitioner was on at the time and explained why petitioner’s ability
to recall the details of the murder was not inconsistent with being under the influence of cocaine (2003 Tr. VI, 5-6). Defense
counsel ended direct examination of Dr. Smith with the following question: “So, Dr. Smith, what can you infer to a reasonable
degree of medical certainty on the 5th day of March, 1997, in regards to whether [petitioner] was thinking reasonably and
rationally?” Dr. Smith replied, “I can think he was not” (2003 Tr. VI, 6).
*5 Although Dr. Smith’s testimony clearly weighed in on the issue of whether or not petitioner’s cocaine use affected his
ability to form the intent to kill, defense counsel advocated for more, and in response to the trial court’s ruling limiting Dr.
Smith’s testimony, made the following offer of proof:
If permitted to testify as to the effect of [petitioner’s] cocaine addiction and his ability to form malice aforethought Dr. Smith
would testify that on 5 March in his opinion that to a reasonable degree of medical certainty [petitioner] would not have been
able to form the intent of malice aforethought and that he would have been experiencing the effects of the cocaine to such a
degree that the brain would be unable to formulate that specific intent ....
(2003 Tr. V, 35-38, 80-81). As noted above, when petitioner argued on direct appeal that the trial court committed error in
preventing Dr. Smith from giving this additional testimony, the OCCA agreed. The OCCA found that:
The normal experiences and qualifications of laymen jurors likely do not provide an understanding of the effects of cocaine
intoxication on one’s ability to control behavior, to think rationally, and to form an intent to kill. An expert’s opinion on the
effects of cocaine intoxication would have been helpful to the trier of fact. While Dr. Smith could not, under our case law, tell
the jury what result to reach, Dr. Smith could properly have testified that, in his expert medical opinion, [petitioner] would
have been unable to form the requisite malice.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

021

4

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

....
Here, [petitioner] raised sufficient evidence for the trial court to instruct the jury on his defense of voluntary intoxication.
When a defendant raises the defense of voluntary intoxication, an expert may properly offer his or her opinion on whether
the defendant’s actions were intentional. Dr. Smith could have properly testified that, in his opinion and based upon his
specialized knowledge, he believed [petitioner] would have been unable to form the requisite deliberate intent of malice
aforethought. The trial court erred and abused its discretion by sustaining the Motion in Limine and so limiting the expert
witness' testimony.
Coddington, 142 P.3d at 449, 450 (citations omitted). Nevertheless, the OCCA determined that the error was harmless beyond
a reasonable doubt and denied relief. Id. at 450-51 (citing Chapman, 386 U.S. at 24).
Although the OCCA applied the Chapman harmless error test, this court’s review is governed by “the more forgiving standard of
review” set forth in Kotteakos v. United States, 328 U.S. 750 (1946), and adopted in Brecht, 507 U.S. at 638, as the appropriate
standard to apply to cases on collateral review. Fry, 551 U.S. at 116, 121-22. Under Kotteakos, 328 U.S. at 776, the test is
whether the error had a “substantial and injurious effect or influence in determining the jury’s verdict.” The Supreme Court
elaborated on the standard as follows:
But if one cannot say, with fair assurance, after pondering all that happened without stripping the erroneous action from the
whole, that the judgment was not substantially swayed by the error, it is impossible to conclude that substantial rights were
not affected. The inquiry cannot be merely whether there was enough to support the result, apart from the phase affected
by the error. It is rather, even so, whether the error itself had substantial influence. If so, or if one is left in grave doubt, the
conviction cannot stand.
*6 Id. at 765. “By ‘grave doubt’ [the Supreme Court] mean[s] that, in the judge’s mind, the matter is so evenly balanced that he
feels himself in virtual equipoise as to the harmlessness of the error.” O'Neal v. McAninch, 513 U.S. 432, 435 (1995) (referring
to the term employed in Kotteakos) (parenthesis omitted).
The court concludes that the trial court’s error7 in limiting Dr. Smith’s testimony did not have a substantial and injurious effect
on the jury’s verdict. First and foremost, although Dr. Smith was not allowed to testify to the issue of intent more directly, he
did offer extensive testimony on the effects of cocaine addiction, and he was permitted to give the jury his medical opinion
regarding petitioner’s mental state at the time of the murder. In no uncertain terms, Dr. Smith told the jury that petitioner was
not “thinking reasonably and rationally” when he attacked the victim with a hammer (2003 Tr. VI, 6). This testimony, along
with the instructions given to the jury regarding the defense of involuntary intoxication (2003 O.R. VII, 1328-32), gave the
jury the option to find petitioner not guilty of malice murder. Second, the record reflects that petitioner was charged with two
forms of murder in the first degree, malice murder and felony murder (2003 O.R. I, 6-9). Although intent is required to prove
malice murder, a murder committed during the commission of a robbery with a dangerous weapon is a general intent crime
to which voluntary intoxication affords no defense (2003 O.R. VII, 1316, 1328, 1331, 1333-35). See Hammon v. State, 999
P.2d 1082, 1098 (Okla. Crim. App. 2000) (acknowledging that the voluntary intoxication defense applies only to specific intent
crimes and that felony murder/robbery with a dangerous weapon is a general intent crime). It necessarily follows that even if
Dr. Smith had been permitted to testify to the ultimate issue of petitioner’s intent, and even if the jury had been persuaded by
such testimony, the result would have been the same. Having found petitioner guilty of both malice murder and robbery with
a dangerous weapon, the court has little doubt that even if the jury found petitioner incapable of forming the intent as required
for a malice murder conviction, it would have nevertheless found petitioner guilty of first degree murder, albeit felony murder.
For these reasons, the court concludes that the error related to Dr. Smith’s testimony did not have a substantial and injurious
effect on the jury’s verdict and is therefore harmless. Petitioner’s Ground IV does not state a basis for relief.
B. Ground V: Admissibility of Petitioner’s Videotaped Confession.
In his Ground V, petitioner argues that his videotaped confession should not have been admitted because his Miranda8 waiver
was invalid. Petitioner raised this claim on direct appeal, but the OCCA denied relief. Coddington, 142 P.3d at 446-48. Petitioner

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

022

5

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

argues that the OCCA’s opinion is an unreasonable application of Miranda and Moran v. Burbine, 475 U.S. 412 (1986), as well
as an unreasonable determination of the facts. Respondent contends that petitioner must be denied relief because he has failed
to meet the AEDPA standard for relief. The court agrees with respondent.
*7 In Miranda, 384 U.S. at 444, the Supreme Court held that “the prosecution may not use statements, whether exculpatory
or inculpatory, stemming from custodial interrogation of the defendant unless it demonstrates the use of procedural safeguards
effective to secure the privilege against self-incrimination.” Miranda therefore requires that “[p]rior to any questioning, the
person must be warned that he has a right to remain silent, that any statement he does make may be used as evidence against
him, and that he has a right to the presence of an attorney, either retained or appointed.” Id. After being advised of these rights,
however, the defendant may waive them, “provided the waiver is made voluntarily, knowingly and intelligently.” Id. Whether
a valid waiver has been effectuated is dependent upon the inquiry of “two distinct dimensions”:
First, the relinquishment of the right must have been voluntary in the sense that it was the product of a free and deliberate
choice rather than intimidation, coercion, or deception. Second, the waiver must have been made with a full awareness of
both the nature of the right being abandoned and the consequences of the decision to abandon it. Only if the “totality of the
circumstances surrounding the interrogation” reveal both an uncoerced choice and the requisite level of comprehension may
a court properly conclude that the Miranda rights have been waived.
Burbine, 475 U.S. at 421. The OCCA applied this Supreme Court authority in its adjudication of petitioner’s claim. Coddington,
142 P.3d at 447. Therefore the question this court must answer is whether the OCCA did so unreasonably. “[I]f all fairminded
jurists would agree the [OCCA] was incorrect, then it was unreasonable and the habeas corpus writ should be granted. If,
however, some fairminded jurists could possibly agree with the [OCCA], then it was not unreasonable and the writ should be
denied.” Frost v. Pryor, 749 F.3d 1212, 1225 (10th Cir. 2014).
Petitioner’s first contact with law enforcement came two days after the murder when some Oklahoma City Police Officers
assigned to the robbery unit confronted petitioner at his apartment complex about his involvement in multiple robberies. While
standing outside petitioner’s apartment, petitioner told the officers, “You guys have caught me. I did all of those robberies.
I should have pulled that knife and made you guys kill me. I'm not going back to prison.” These incriminating statements
prompted Oklahoma City Police Officer Roger Smart to give petitioner his Miranda rights. Using a standard form, Officer Smart
read petitioner his rights. Petitioner acknowledged his understanding of these rights and he told Officer Smart that he desired
to waive them. He then signed the waiver of rights portion of the form.9 Petitioner was questioned about the robberies as they
stood outside his apartment. Regarding petitioner’s appearance and demeanor at that time, Officer Smart testified that although
petitioner was upset, agitated, and repetitive, petitioner did not appear to be drunk or high, that he was appropriately dressed, that
he walked normally, and that he was “coherent of his environment.” Officer Smart further testified that petitioner’s waiver was
not the result of any promises or threats (2003 Tr. III, 212-21, 224, 232-35; 2003 Tr. IV, 63-67, 70-78, 87; State’s Exhibit 34).
Later, petitioner was taken downtown and interviewed by Oklahoma City Police Officer Glen DeSpain, who like Officer Smart
was a part of the robbery unit, and Choctaw Police Officer Wes Weaver, who wanted to talk to petitioner about the murder.
This interview was videotaped. Officer DeSpain testified that he did not read petitioner his Miranda rights because he had
been told by Officer Smart that petitioner had already waived his Miranda rights. Officer DeSpain was in possession of the
waiver petitioner had signed earlier that day, and at the start of the interview, Officer DeSpain asked petitioner if he remembered
being advised of his rights. Petitioner responded affirmatively. Officer DeSpain testified that although petitioner was shaking
and cried a couple of times during the interview, his demeanor was not out of the ordinary, that he did not appear to be under
the influence, and that he was talkative, rational, alert, and coherent. Like Officer Smart, Officer DeSpain also testified that
petitioner’s interview was not the result of promises or threats. In the course of this interview, petitioner confessed to the murder
(2003 Tr. III, 221-22, 245-49; 2003 Tr. V, 7-14; State’s Exhibit 88; Court’s Exhibit 2).
*8 In his first challenge to the admission of his confession, petitioner contends that his waiver was invalid because he was not
advised that the police wanted to talk to him about the murder. Labeling this failure to advise as a misrepresentation, petitioner

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

023

6

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

argues that his confession should not have been admitted. In addition to his reliance on Miranda and Burbine, petitioner supports
this argument with citation to Lynumn v. Illinois, 372 U.S. 528 (1963), and Spano v. New York, 360 U.S. 315 (1959).
Both Lynumn and Spano are inapposite. In Lynumn, 372 U.S. at 534, the Supreme Court found a defendant’s confession to
be involuntary because it was given only after the police told the defendant that her failure to cooperate would result in the
loss of governmental assistance and the custody of her small children. In Spano, 360 U.S. at 317-24, the Supreme Court found
a defendant’s confession to be involuntary where he endured eight nighttime hours of nonstop questioning by multiple law
enforcement officials, all the while refusing to talk on the advice of counsel and confessing only after the police utilized a
police cadet, one of the defendant’s childhood friends, to play upon the defendant’s sympathies. Not only are the circumstances
under which petitioner confessed in no way similar to those addressed in Lynumn and Spano, but the Supreme Court’s decision
in Colorado v. Spring, 479 U.S. 564 (1987), a case upon which the OCCA relied to deny petitioner relief, clearly undercuts
petitioner’s position.
In Spring, 479 U.S. at 577, the Supreme Court specifically held “that a suspect’s awareness of all the possible subjects
of questioning in advance of interrogation is not relevant to determining whether the suspect voluntarily, knowingly, and
intelligently waived his Fifth Amendment privilege.” With reference to Spring, the OCCA rejected petitioner’s argument as
follows:
There is no question that [petitioner] was informed of his Miranda rights and waived them. He exhibited no reluctance in
speaking with the detectives about the robberies or the homicide. In fact it was he who volunteered statements about the
homicide and initiated the discussion about the homicide.10 The relevant inquiry is whether the suspect understands the rights
at stake and the consequences of waiving them. Colorado v. Spring, 479 U.S. at 573, 107 S.Ct. at 857. His “awareness of all
the possible subjects of questioning in advance of interrogation is not relevant to determining whether the suspect voluntarily,
knowingly, and intelligently waived his Fifth Amendment privilege.” Id., 479 U.S. at 577, 107 S.Ct. at 859.
Coddington, 142 P.3d at 448. Clearly, the OCCA’s decision here was not unreasonable.
Next, petitioner asserts that his confession was involuntary due to his mental state. Petitioner argues that because he had been
on a cocaine binge, had not eaten in three days, had not slept, confessed to other crimes that could not be substantiated, was
physically shaking and suicidal and, because the trial judge believed that he was intoxicated at the time he gave his videotaped
confession, the confession should not have been admitted. Because the OCCA found otherwise, petitioner contends that its
determination is both an unreasonable application of the law and the facts.
*9 In rejecting this argument, the OCCA held as follows:
“[S]elf-induced intoxication, short of mania, or such an impairment of the will and mind as to make the person confessing
unconscious of the meaning of his words, will not render a confession inadmissible, but goes only to the weight to be
accorded to it.” [Petitioner] gave specific details about both the robberies and the murder of Mr. Hale, and appeared to
understand exactly what was going on. That he also confessed to crimes which could not be corroborated does not show he
was so intoxicated that his Miranda waiver was not knowingly and voluntarily made. Further, from his prior contacts with
law enforcement and prior convictions, we can assume he was familiar with and understood the “concepts encompassed in
Miranda.”
[Petitioner] simply has not shown his Miranda rights waiver was not knowingly and voluntarily made. The admission of his
confession and the physical evidence derived therefrom did not deprive [petitioner] of his state or federal constitutional rights.
Coddington, 142 P.3d at 448 (citation omitted). For the following reasons, the OCCA’s determination is not unreasonable.
Although the trial court did find that petitioner was “in some sort of heightened state of intoxication” when he spoke to Officers
DeSpain and Weaver (2003 Tr. IV, 12), the Tenth Circuit has acknowledged that “intoxication does not automatically render a
statement involuntary. The test is whether [petitioner’s] will was overcome, or whether the statement was freely made.” United

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

024

7

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

States v. Muniz, 1 F.3d 1018, 1022 (10th Cir. 1993) (citations omitted). And despite finding that petitioner was intoxicated, the
trial court’s ultimate conclusion was that petitioner’s will was not overborne by police action:
I don't think based on what I saw from the videotape that he was threatened, promised, coerced by the police officers in this
case. The evidence has been – and I think the state is admitting that he has – or based on what I heard from the testimony
yesterday that he did give some statements that could not be borne out by investigation. However, there were other things
that did – that were borne out by the investigation. Finding of the hammer, the murder weapon in this case, were [sic] borne
out by the investigation.
Simply because he gives some consistent and some inconsistent statements I don't think that the statement was made against
his will in response to force, threat, or promise. I was thinking about this. And what’s the spirit of Miranda? I mean, the
spirit of Miranda is to make sure that the police don't sleep-deprive people, take rubber hoses to them, do things that we as
a society just don't think should be done to people.
(2003 Tr. IV, 13). This ruling is consistent with Colorado v. Connelly, 479 U.S. 157 (1986), wherein the Supreme Court held
“that coercive police activity is a necessary predicate to the finding that a confession is not voluntary within the meaning of the
Due Process Clause of the Fourteenth Amendment.” Id. at 167 (internal quotation marks omitted). See also Burbine, 475 U.S.
at 421 (“[T]he relinquishment of the right must have been voluntary in the sense that it was the product of a free and deliberate
choice rather than intimidation, coercion, or deception.”).
*10 Regarding petitioner’s laundry list of reasons why his mental state was compromised when he spoke to Officers DeSpain
and Weaver, petitioner’s argument appears to be that because the OCCA did not ultimately find that these circumstances rendered
his confession involuntary, the OCCA unreasonably determined the facts. In this same vein, petitioner additionally asserts that
the OCCA unreasonably determined the facts because it (1) relied on the testimony of Officers Smart and DeSpain who testified
that he was not intoxicated and (2) focused on the fact that he was intoxicated by his own volition.
A review of the OCCA’s opinion reveals that it was well-aware of all of the circumstances surrounding petitioner’s confession,
including the fact that the trial court held an opinion that contradicted the officers' testimony. While the OCCA noted the officers'
testimony (and the undisputed fact that petitioner was voluntarily intoxicated), its decision did not rise or fall on these matters.
See Grant v. Trammell, 727 F.3d 1006, 1023-24 (10th Cir. 2013) (emphasizing the “based on” language of 28 U.S.C. § 2254(d)
(2) and noting that findings which “concerned only subsidiary issues that the OCCA mentioned in passing” would not satisfy it).
What the OCCA did conclude was that petitioner’s “fatigue and hunger from drug usage [did] not render his waiver of Miranda
involuntary[,]” Coddington, 142 P.3d at 448, and this is not an unreasonable determination of the facts.
Petitioner also faults the OCCA for not equating his unsubstantiated admissions to other crimes as evidence of his lack of
awareness and for imputing familiarity with the criminal system based on his prior criminal history. Despite petitioner’s
admissions to criminal activity which the police could not substantiate, the OCCA also noted that petitioner gave the police
crime details which were completely accurate (including the murder weapon he used to kill Mr. Hale and where he disposed of
it). Id. In light of this mixed bag of accurate and unsubstantiated information, it was not unreasonable for the OCCA to discount
the same as it related to petitioner’s mental functioning. As for petitioner’s prior interaction with the criminal justice system,
this is clearly relevant information that the OCCA could consider in determining voluntariness. See Smith v. Mullin, 379 F.3d
919, 934 (10th Cir. 2004) (noting that the petitioner’s “prior experience with the criminal justice system ... [meant that] [t]he
concepts encompassed by Miranda were not foreign to him”).
For the foregoing reasons, the court concludes that petitioner has failed to demonstrate that the OCCA unreasonably denied his
Miranda claim. Ground V does not warrant habeas relief.
C. Ground VI: Double Jeopardy.
In Ground VI, petitioner contends that a double jeopardy violation occurred when the state was allowed to pursue the continuing
threat aggravator in his resentencing proceeding. Because the jury rejected the continuing threat aggravator in his first trial,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

025

8

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

petitioner argues that jeopardy attached and the state was prevented from seeking this aggravator a second time. Petitioner raised
this claim in the direct appeal that followed his resentencing. Relying on its decision in Hogan v. State, 139 P.3d 907 (Okla.
Crim. App. 2006), wherein the OCCA thoroughly analyzed Supreme Court authority addressing this issue, the OCCA denied
petitioner relief. Coddington, 254 P.3d at 706-07. Petitioner contends that the OCCA’s Hogan decision, and its application in
this case, is an unreasonable application of Sattazahn v. Pennsylvania, 537 U.S. 101 (2003).
*11 In Sattazahn, the prosecutor sought the death penalty, but because the jury could not agree as to the defendant’s sentence,
the trial court imposed a life sentence as required by Pennsylvania law. After the defendant successfully appealed his conviction,
the prosecution sought the death penalty again. This time, the defendant was sentenced to death. Id. at 103-05. Although
the defendant argued that the double jeopardy clause prevented the prosecution from seeking the death penalty in his retrial
proceeding, the Supreme Court disagreed. Examining precedent, including Poland v. Arizona, 476 U.S. 147 (1986), Arizona v.
Rumsey, 467 U.S. 203 (1984), and Bullington v. Missouri, 451 U.S. 430 (1981), the Supreme Court stressed that “the touchstone
for double-jeopardy protection in capital-sentencing proceedings is whether there has been an ‘acquittal.’ ” Because the jury
did not reach a verdict on the issue of punishment in the defendant’s first trial, the Supreme Court found that the defendant had
not been acquitted of the death penalty and therefore his subsequent sentence of death was valid. Sattazahn, 537 U.S. at 106-09.
With consideration of Sattazahn, as well as Poland, Rumsey, and Bullington, the OCCA has found that when an Oklahoma
jury returns a death verdict in a defendant’s original trial, double jeopardy concerns are not implicated with respect to the
aggravating circumstances. The OCCA has concluded that because the defendant was not acquitted of the death penalty in
the first proceeding, the state may pursue a death sentence a second time based on any aggravating circumstances that apply,
including those which the jury failed to find in the first proceeding. Hogan, 139 P.3d at 926-30. Petitioner has not shown that the
OCCA’s determination of this issue is unreasonable. See Romano v. Gibson, 239 F.3d 1156, 1178-79 (10th Cir. 2001) (applying
Poland and rejecting a similar argument); Mitchell v. Duckworth, No. CIV-11-429-F, 2016 WL 4033263, at *26-28 (W.D. Okla.
July 27, 2016) (finding that the OCCA’s decision in Hogan is not unreasonable); Hanson v. Sherrod, No. 10-CV-0113-CVETLW, 2013 WL 3307111, at *22-24 (N.D. Okla. July 1, 2013) (concluding that the OCCA did not unreasonably apply Poland
based on the reasoning employed in Hogan). Ground VI does not state a basis for relief.
D. Ground VII: Ineffective Assistance of Trial Counsel.
In Ground VII, petitioner challenges the representation he received in his original trial and in his resentencing proceeding. As
related to the guilt stage, petitioner asserts that trial counsel could have done more to substantiate his intoxication and, had they
done so, his confession (and other evidence) would not have been admitted. Regarding resentencing, petitioner argues that trial
counsel should have presented more evidence regarding his intoxication at the time of the crime and should have listed this
circumstance as one of his mitigating circumstances. For the following reasons, the court concludes that none of these claims
warrant relief.

Procedurally Barred Claims
Petitioner faults both his original trial counsel and his resentencing trial counsel for not presenting a witness (Kenneth “Hippy”
Johnson) to testify about petitioner’s drug usage before and after the murder. The problem with this claim is that it has never been
presented to the OCCA, and if petitioner were to return to state court in order to exhaust it, the OCCA would apply a procedural
bar to prevent consideration of its merits. See Okla. Stat. tit. 22, § 1089(D)(8). Under these circumstances, an anticipatory
procedural bar applies. See Cole v. Trammell, 755 F.3d 1142, 1169 (10th Cir. 2014) (citing Anderson v. Sirmons, 476 F.3d 1131,
1139-40 n.7 (10th Cir. 2007), and acknowledging the applicability of an anticipatory procedural bar). Petitioner can, however,
overcome the application of a procedural bar to this claim if he can satisfy one of two exceptions. Frost, 749 F.3d at 1231.
One exception is cause and prejudice. This exception requires petitioner to demonstrate that some external objective factor,
unattributable to him, prevented his compliance with the procedural rule in question. Spears v. Mullin, 343 F.3d 1215, 1255

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

026

9

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

(10th Cir. 2003). He must also show that the failure resulted in actual prejudice. Thornburg v. Mullin, 422 F.3d 1113, 1141
(10th Cir. 2005). In his reply, petitioner asserts that his default of this claim should be excused due to ineffective assistance
of appellate counsel. Reply, p. 10. However, this is insufficient to overcome a procedural bar to this claim. What petitioner
must show is why he did not raise this claim in his original post-conviction proceeding, and appellate counsel’s actions have
no bearing on this issue.11 Petitioner has therefore failed to satisfy this exception.
*12 The second exception is a fundamental miscarriage of justice. “This exception applies to those who are actually innocent
of the crime of conviction and those ‘actually innocent’ of the death penalty (that is, not eligible for the death penalty under
applicable law).” Black v. Workman, 682 F.3d 880, 915 (10th Cir. 2012) (citation omitted). In his reply, petitioner asserts his
actual innocence for both the murder and his death sentence. For his conviction, petitioner argues that if his intoxication had
been sufficiently proven, his confession and other evidence would not have been admitted against him. As for his sentence,
petitioner contends that the same “would have supported the mitigation evidence submitted to the jury and undermined the
aggravator of avoid arrest.” Reply, pp. 8-10. Neither of these arguments is persuasive.
Actual innocence means factual innocence. Because petitioner’s claim of actual innocence is based on evidence he claims
trial counsel should have presented in support of his intoxication defense, this goes to legal innocence, not factual innocence.
Petitioner, therefore, fails to show a miscarriage of justice on this basis. See Beavers v. Saffle, 216 F.3d 918, 923 (10th Cir.
2000) (finding that the miscarriage of justice exception had not been met where petitioner’s contentions were legal arguments
regarding his intoxication and self-defense).
Regarding petitioner’s assertion that he is actually innocent of the death penalty, this fails as well. “In the specific context of
a sentencing challenge, the Supreme Court has held actual innocence requires the petitioner to show ‘by clear and convincing
evidence that but for constitutional error, no reasonable juror would find him eligible for the death penalty under [state] law.’
” Brecheen v. Reynolds, 41 F.3d 1343, 1357 (10th Cir. 1994) (citing Sawyer v. Whitley, 505 U.S. 333, 348 (1992)). See also
Black, 682 F.3d at 915-16. As the Supreme Court held in Sawyer, “the ‘actual innocence’ requirement must focus on those
elements that render a defendant eligible for the death penalty, and not on additional mitigating evidence that was prevented
from being introduced as a result of a claimed constitutional error.” Sawyer, 505 U.S. at 347. “Thus, even if state law considers
the outweighing of mitigating circumstances by aggravating circumstances as an ‘element’ of a capital sentence, it is not an
element for purposes of the actual-innocence inquiry.” Black, 682 F.3d at 916.
Petitioner’s argument is that his mitigation case would have been strengthened if his resentencing trial counsel had presented
more evidence of his intoxication. He also claims that this additional evidence would have undermined one of the four
aggravating circumstances the jury found. As in Black, this is an evidence-based challenge that “cannot support the actualinnocence exception to procedural bar.” Id.
Having failed to show either cause and prejudice or a fundamental miscarriage of justice, petitioner’s ineffectiveness challenges
based on the absence of Mr. Johnson’s testimony from both the guilt and sentencing stages are procedurally barred.
In addition to his claims regarding Mr. Johnson, petitioner presents another claim which is procedurally barred as well. In his
original post-conviction application, petitioner alleged that his trial counsel in the resentencing proceeding were ineffective for
failing to present testimony from a neuropharmacologist, and that because appellate counsel did not raise this claim of trial
counsel ineffectiveness in his resentencing appeal, he was entitled to relief upon a claim of appellate counsel ineffectiveness.
Coddington, 259 P.3d at 839. As respondent notes, the OCCA found that the primary claim raised by petitioner in this instance
was one based on appellate counsel ineffectiveness, a claim which the OCCA reviewed on the merits and denied relief. Id.
(finding that trial counsel’s decision not to present this particular witness may have been “sound trial strategy[,]” but that in any
event, petitioner had not shown prejudice). As for trial counsel’s ineffectiveness, the OCCA’s opinion makes clear that even
petitioner acknowledged that this claim had been waived. Id. at 835 n.2. Under these circumstances, respondent has argued that
this claim is procedurally barred. Response, pp. 55-64.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

027

10

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

*13 Because respondent has asserted procedural bar as an affirmative defense, petitioner has the burden of arguing against
its application. Hooks v. Ward, 184 F.3d 1206, 1217 (10th Cir. 1999) (“Once the state pleads the affirmative defense of an
independent and adequate state procedural bar, the burden to place that defense in issue shifts to the petitioner. This must be
done, at a minimum, by specific allegations by the petitioner as to the inadequacy of the state procedure.”). This he has not
done. In his reply, petitioner has responded only to the applicability of a procedural bar to the claims involving Mr. Johnson.
Petitioner has made no arguments as to why a procedural bar should not apply to this claim, nor has he attempted to satisfy an
exception to its application. Reply, pp. 8-10. Accordingly, the court finds this claim procedurally barred as well.12

Claims Adjudicated by the OCCA
Petitioner’s two remaining claims were presented to the OCCA in petitioner’s resentencing appeal. The OCCA reviewed the
merits of these claims and denied relief. Coddington, 254 P.3d at 713-16. Affording the OCCA substantial deference, as required
by both the AEDPA and Strickland v. Washington, 466 U.S. 668 (1984), the court concludes that petitioner is not entitled to
relief on these claims.
“[T]he Sixth Amendment does not guarantee the right to perfect counsel; it promises only the right to effective assistance ....”
Burt v. Titlow, 571 U.S.____, 134 S. Ct. 10, 18 (2013). Whether counsel has provided constitutional assistance is a question
to be reviewed under the familiar standard set forth in Strickland, which the OCCA did in denying petitioner relief. To obtain
relief, Strickland requires a defendant to show not only that his counsel performed deficiently, but that he was prejudiced by it.
Strickland, 466 U.S. at 687. A defendant must show that his counsel “made errors so serious that counsel was not functioning
as the ‘counsel’ guaranteed ... by the Sixth Amendment.” Id. The assessment of counsel’s conduct is “highly deferential,” and a
defendant must overcome the strong presumption that counsel’s actions constituted “ ‘sound trial strategy.’ ” Id. at 689 (citation
omitted). “[S]trategic choices made after thorough investigation of law and facts relevant to plausible options are virtually
unchallengeable ....” Id. at 690.
As Strickland cautions, “[i]t is all too tempting for a defendant to second-guess counsel’s assistance after conviction or adverse
sentence, and it is all too easy for a court, examining counsel’s defense after it has proved unsuccessful, to conclude that a
particular act or omission of counsel was unreasonable.” Id. at 689. Therefore, “[a] fair assessment of attorney performance
requires that every effort be made to eliminate the distorting effects of hindsight, to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from counsel’s perspective at the time.” Id. Within “the wide range of reasonable
professional assistance,” “[t]here are countless ways to provide effective assistance in any given case[, and] [e]ven the best
criminal defense attorneys would not defend a particular client in the same way.” Id.
As for prejudice, Strickland requires a defendant to show that his counsel’s errors and omissions resulted in actual prejudice
to him. Id. at 687. In order to make a threshold showing of actual prejudice, a defendant “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have been different. A reasonable
probability is a probability sufficient to undermine confidence in the outcome.” Id. at 694.
*14 In Richter, the Supreme Court addressed the limitations of the AEDPA as specifically applied to a claim of ineffective
assistance of counsel that a state court has denied on the merits. The Court held that “[a] state court’s determination that a claim
lacks merit precludes federal habeas relief so long as fairminded jurists could disagree on the correctness of the state court’s
decision.” Richter, 562 U.S. at 101 (internal quotation marks and citation omitted). The Court bluntly acknowledged that “[i]f
this standard is difficult to meet, that is because it was meant to be.” Id. at 102.
[The AEDPA] preserves authority to issue the writ in cases where there is no possibility fairminded jurists could disagree
that the state court’s decision conflicts with [the Supreme] Court’s precedents. It goes no further. Section 2254(d) reflects
the view that habeas corpus is a guard against extreme malfunctions in the state criminal justice systems, not a substitute for
ordinary error correction through appeal.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

028

11

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

Id. at 102-03 (internal quotation marks and citation omitted). When these limits imposed by the AEDPA intersect with the
deference afforded counsel under Strickland, a petitioner’s ability to obtain federal habeas relief is even more limited.
Surmounting Strickland’s high bar is never an easy task. An ineffective-assistance claim can function as a way to escape
rules of waiver and forfeiture and raise issues not presented at trial, and so the Strickland standard must be applied with
scrupulous care, lest intrusive post-trial inquiry threaten the integrity of the very adversary process the right to counsel is
meant to serve. Even under de novo review, the standard for judging counsel’s representation is a most deferential one.
Unlike a later reviewing court, the attorney observed the relevant proceedings, knew of materials outside the record, and
interacted with the client, with opposing counsel, and with the judge. It is all too tempting to second-guess counsel’s assistance
after conviction or adverse sentence. The question is whether an attorney’s representation amounted to incompetence under
prevailing professional norms, not whether it deviated from best practices or most common custom.
Establishing that a state court’s application of Strickland was unreasonable under § 2254(d) is all the more difficult. The
standards created by Strickland and § 2254(d) are both highly deferential, and when the two apply in tandem, review is
doubly so[.] The Strickland standard is a general one, so the range of reasonable applications is substantial. Federal habeas
courts must guard against the danger of equating unreasonableness under Strickland with unreasonableness under § 2254(d).
When § 2254(d) applies, the question is not whether counsel’s actions were reasonable. The question is whether there is any
reasonable argument that counsel satisfied Strickland’s deferential standard.
Richter, 562 U.S. at 105 (internal quotation marks and citations omitted).
On direct appeal, petitioner asserted that his trial counsel should have done more to educate the resentencing jury about
cocaine addiction and about how his cocaine intoxication at the time of the murder affected his actions. He contended that this
information should have been presented through Dr. Smith, who testified in his original trial. See Ground IV, supra. Although
petitioner acknowledged that trial counsel had presented another expert in mitigation, he asserted that his testimony was more
general and therefore not as good as what could have been presented through Dr. Smith. Petitioner argued that this evidence
was crucial to counter the state’s assertions that the murder was especially heinous, atrocious, or cruel and that it was committed
to avoid arrest or prosecution. Petitioner also asserted that it was classic mitigation evidence that reduced his moral culpability
for the murder. Brief of Appellant, Case No. D-2008-655, at 66-69. Petitioner makes these arguments here as well, asserting
that the OCCA’s denial of this claim is contrary to or an unreasonable application of Supreme Court law.13
*15 In denying petitioner relief, the OCCA compared the testimony given by Dr. Smith in the first stage of petitioner’s original
trial with the testimony given by Dr. William Ruwe, the neuropsychologist presented by trial counsel at resentencing. The
OCCA found that Dr. Ruwe’s testimony was similar in many respects to Dr. Smith’s, and that given the nature and focus of
the resentencing proceeding, it was reasonable strategy for trial counsel to rely upon Dr. Ruwe’s expertise in the presentation
of the mitigation case.
Smith’s testimony was presented during the first stage of the first trial, not in mitigation. He reviewed [petitioner’s] records,
including a neuropsychological examination, a competency evaluation, hair analysis, Children’s Hospital and other medical
records, drug treatment, DHS and school records, family history, legal history, [petitioner’s] statement to police, and the
medical examiner and police reports. He also interviewed [petitioner]. Smith’s testimony focused on the chemical, physical
and psychological effects of cocaine and alcohol on the brain. He discussed the ways in which these substances affected the
developing brain. Smith testified that [petitioner] was drug-dependent and addicted to cocaine. He specifically described the
effect of cocaine use on various areas of the brain. Smith used [petitioner’s] long history of head trauma and injuries, alcohol
use, and substance abuse to illustrate the probable effects on [petitioner’s] brain development. He testified that [petitioner]
was unable to use good judgment, control his behavior, think, or make good decisions.
Ruwe’s mitigation testimony was broader than Smith’s, but substantially included the evidence Smith gave. Ruwe reviewed
the records Smith reviewed, including Smith’s own report and testimony, and conducted his own interview of [petitioner].
During his testimony, Ruwe testified as to Smith’s findings and conclusions. Ruwe’s testimony regarding alcohol and
substance addiction was similar to, and in some ways more extensive than, Smith’s. Ruwe emphasized the effects of substance

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

029

12

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

abuse on the developing brain. Like Smith, he testified about the physical and neuropsychological characteristics of cocaine
abuse and addiction on the brain, as well as on brain development. Ruwe discussed at length [petitioner’s] probable delay
in brain development and deficits in judgment, impulse control and ability to make good decisions. Ruwe explained how
these characteristics were affected by [petitioner’s] terrible childhood, his history of physical abuse and injuries, his longterm addiction, and his substance abuse shortly before the crime. He explained that these factors combined to ensure that
[petitioner] could not make good decisions or use good judgment during his encounter with Hale which led to robbery and
murder. Ruwe testified about the ways in which [petitioner’s] personality characteristics, influenced by his brain development,
were affected by environment. Ruwe’s testimony highlighted the ways in which [petitioner’s] upbringing and substance abuse
reduced his moral culpability.
The record supports our conclusion that counsel’s decision not to present Smith’s testimony was sound trial strategy. Counsel’s
focus in the resentencing trial was necessarily different from the trial strategy employed during the first trial. Smith’s testimony
was offered to show that [petitioner] could not have formed the intent necessary to commit first degree murder. Ruwe’s
testimony was more expansive, including medical evidence of the effects of cocaine and other substances on [petitioner’s]
brain, thinking and judgment, and the effects of his entire history and upbringing. Smith’s opinion that [petitioner] was too
intoxicated to form the intent to commit murder was of minimal relevance in the resentencing trial, which was not concerned
with [petitioner’s] guilt. The mitigating effect of that testimony was fulfilled by Ruwe’s testimony. Counsel’s decision to rely
on Ruwe’s evidence, rather than present Smith’s prior testimony, was a viable option and a reasonable strategic decision.
“[W]here counsel makes an informed decision to pursue a particular strategy to the exclusion of other strategies, this informed
strategic choice is virtually unchallengeable.”
*16 Coddington, 254 P.3d at 714-15 (citations omitted). Contrary to petitioner’s assertion, there is nothing unreasonable about
this determination by the OCCA.
In opening statement, trial counsel told the jury that in order for them to “make a qualified decision about [petitioner’s]
sentence[,]” they had to know all about him. They had “to know the 24-year-old man that committed this crime, how he became
who he was and ... who he is today” (2008 Tr. III, 121). To accomplish this, trial counsel presented eleven witnesses, including
Dr. Ruwe. Through these witnesses, trial counsel told the jury about petitioner’s tragic upbringing which fostered his addiction
to intoxicants. The jury learned that for the two years prior to the murder, however, petitioner had maintained a stable life. He
was drug-free, maintained positive relationships (including a friendship with the victim, Mr. Hale), and worked long hours to
provide for his fiancé and her children. But petitioner relapsed, and in December 1996, he underwent a 30-day inpatient drug
treatment program. When he got out in January 1997, he had some success, but before too long, he was out of control again.
He lost his fiancé and their family and he killed his friend while desperately seeking money to maintain his high.
In closing, trial counsel stated, “[Petitioner’s] journey through this world is not what any child’s journey should be. He lived
a dreadful life ...” (2008 Tr. VI, 156). Reviewing the details of petitioner’s life, trial counsel reminded the jury of Dr. Ruwe’s
testimony about how petitioner’s history had impacted his development and his battle with addiction, but also how Dr. Ruwe
believed that petitioner, having been incarcerated for over a decade, could be a well-behaved prisoner. Trial counsel concluded
by asking the jury for a sentence of life without parole and making the final comment: “Let the long and difficult journey that has
been in his life end there [prison] where he will live every day with the shame of what we [sic] has done, in fairness, sympathy,
and mercy” (2008 Tr. VI, 167-68).
From the foregoing, it is clear that trial counsel employed a reasonable strategy through the presented mitigation case, and
that Dr. Ruwe’s evaluation of petitioner and his testimony regarding his findings meshed well with it. Accordingly, the court
concludes that the OCCA’s determination in this instance is reasonable.
Related to this claim, petitioner additionally faults his trial counsel for not including his cocaine impairment at the time of the
crime among the mitigating circumstances provided to the jury. The OCCA addressed this claim as well, concluding that the jury
was “sufficiently instructed that they could consider [petitioner’s] impairment by cocaine addiction in mitigation.” Coddington,
254 P.3d at 715. The record supports this determination. Among the twenty-five mitigation circumstances detailed in the jury

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

030

13

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

instructions, which accurately reflected the mitigation case, the jury was told that petitioner had been neurologically harmed by
alcohol and illegal drugs, among other things (2008 O.R. V, 827-31). No relief is warranted here.
*17 Petitioner’s final challenge concerns trial counsel’s failure to object when the trial judge allegedly left the bench during the
playing of a video at the resentencing proceeding. Although petitioner does not request relief for the underlying error, the record
reflects that the OCCA fully addressed the issue and denied relief because petitioner failed to show prejudice. Coddington, 254
P.3d at 697-704. In making this determination, the OCCA summarized the facts as follows:
Taking the evidence in the light most favorable to the defendant, the courtroom was darkened. Jurors were facing the video
screen, not the bench, watching a 46–minute long videotape. The videotape was [petitioner’s] mother’s emotionally affecting
testimony in mitigation. The parties, and the trial court, had seen the videotape and it was admitted by agreement. No
objections were made, on substantive or any other grounds, during the playing of the tape. During this time, the trial judge
may have left the courtroom briefly. The judge’s recollection is that, if this happened, it was for a minute or two. A defense
intern avers that she timed the judge’s absence at five minutes. Although she and second chair defense counsel both say they
saw the trial judge leave, neither they nor the first chair counsel objected at the time or made a record of the incident at any
other time during the remainder of the trial. There is no evidence suggesting that any juror saw the trial court leave, if he
left, or was affected by the sight.
Id. at 703. In denying petitioner relief on the related ineffectiveness claim, the OCCA found that just as the underlying claim
failed for a lack of prejudice, so did the Strickland claim. Id. at 715-16. This is not unreasonable. See Hanson v. Sherrod,
797 F.3d 810, 839 (10th Cir. 2015) (refusing to analyze a petitioner’s ineffectiveness claim based on trial counsel’s failure to
object to instances of prosecutorial misconduct where the underlying instances of alleged misconduct were without merit), cert.
denied, 136 S. Ct. 2013 (2016). See also Freeman v. Attorney General, 536 F.3d 1225, 1233 (11th Cir. 2008) (“A lawyer cannot
be deficient for failing to raise a meritless claim ....”); Snow v. Sirmons, 474 F.3d 693, 724-25 (10th Cir. 2007) (trial counsel
was not ineffective for failing to object to certain evidence that the OCCA found admissible); Spears, 343 F.3d at 1249 (trial
counsel was not ineffective for failing to object to the giving of a flight instruction where the OCCA found sufficient evidence
supporting the instruction).
Having addressed each of the ineffectiveness claims contained in petitioner’s Ground VII, the court concludes that no relief is
warranted. These claims are either procedurally barred or without merit or both.
E. Ground VIII: Medical Examiner Testimony.
Although petitioner’s Ground VIII is labeled as a direct challenge to the admission of evidence which petitioner claims violated
his right to confront the witnesses against him, petitioner states that this ground is exhausted because it was presented to the
OCCA in the post-conviction application following his resentencing direct appeal. Petition, p. 37. However, in post-conviction,
petitioner did not raise an independent confrontation violation. Instead, petitioner raised a layered claim that his appellate counsel
was ineffective for not raising an ineffective assistance of trial counsel claim based on trial counsel’s failure to object to the
admission of the medical examiner’s testimony at his resentencing proceeding. Original Application for Post-Conviction Relief
at 40, 59-64. Because this is the only exhausted claim, the court construes petitioner’s Ground VIII in this light and denies relief
because petitioner cannot show that the OCCA unreasonably denied him relief on this appellate counsel ineffectiveness claim.14
*18 Claims regarding the effectiveness of appellate counsel are governed by Strickland. Milton v. Miller, 744 F.3d 660, 669
(10th Cir. 2014) (citing Smith v. Robbins, 528 U.S. 259, 285 (2000)). In accordance with Strickland, a petitioner alleging
appellate counsel ineffectiveness must show (1) that his appellate counsel’s actions on appeal were objectively unreasonable
and (2) that, but for counsel’s unreasonable actions, he would have prevailed on appeal. Robbins, 528 U.S. at 285-86; Miller v.
Mullin, 354 F.3d 1288, 1297 (10th Cir. 2004) (quoting Ellis v. Hargett, 302 F.3d 1182, 1186-87 (10th Cir. 2002)). As previously
discussed with respect to petitioner’s Ground VII, both Strickland and the AEDPA are highly deferential standards, “and when
the two apply in tandem, review is ‘doubly’ so.” Richter, 562 U.S. at 105 (citation omitted).

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

031

14

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

When an appellate counsel claim concerns omitted issues, Strickland’s first prong requires a showing that counsel unreasonably
omitted “nonfrivolous issues.” Robbins, 528 U.S. at 285. When counsel has filed a brief on the merits, it is difficult to show
his incompetence for failing to raise a particular claim. Id. at 288. Appellate counsel does not have an obligation to raise every
possible claim irrespective of its merit. In fact, “the hallmark of effective appellate advocacy” is the “process of ‘winnowing
out weaker arguments on appeal and focusing on’ those more likely to prevail ....” Smith v. Murray, 477 U.S. 527, 536 (1986)
(quoting Jones v. Barnes, 463 U.S. 745, 751-52 (1983)). “This has assumed a greater importance in an era when oral argument
is strictly limited in most courts–often to as little as 15 minutes–and when page limits on briefs are widely imposed.” Jones,
463 U.S. at 752-53.
In denying petitioner relief, the OCCA concluded that because the underlying confrontation claim was harmless, petitioner’s
appellate counsel claim failed due to a lack of prejudice. In finding the underlying claim to be harmless, the OCCA noted that
petitioner had confessed to the murder and that other “witnesses [had] described the crime scene and the victim’s wounds in
detail.” Coddington, 259 P.3d at 839. See United States v. Garcia, 793 F.3d 1194, 1212 (10th Cir. 2015) (“The admission of
evidence barred by the Confrontation Clause requires reversal of the conviction unless the admission was harmless beyond a
reasonable doubt.”).15 Arguing against this conclusion, petitioner asserts that the testimony was “extremely prejudicial” because
Dr. Choi testified that Mr. Hale’s wounds would have been painful, a consideration for the finding of the especially heinous,
atrocious, or cruel aggravating circumstance. Petition, pp. 38-39.
Petitioner has not shown that the OCCA unreasonably denied him relief on this claim. First, even though Dr. Choi gave testimony
regarding the pain Mr. Hale most likely felt, the especially heinous, atrocious, or cruel aggravating circumstance was only one of
the four aggravating circumstances which the jury found to support petitioner’s death sentence. Second, irrespective of whether
or not Dr. Choi conducted the autopsy of Mr. Hale, she clearly had the expertise to give her opinion about the issue of pain after
reviewing the autopsy report and the many pictures of Mr. Hale’s injuries. And finally, this testimony was not something that
was not otherwise obvious and known. The undisputed evidence was that petitioner pounded Mr. Hale’s head with a hammer
multiple times, but that Mr. Hale did not succumb to his injuries until the following day. When Mr. Hale’s son found him several
hours after the attack, he was not in the kitchen where petitioner assaulted him, but in his bedroom mumbling and moaning in
pain. Under these circumstances, the OCCA reasonably denied petitioner relief because even if appellate counsel had raised a
trial counsel ineffectiveness claim based on Dr. Choi’s testimony, it would not have affected the outcome of his resentencing
appeal.
*19 Ground VIII is denied.
F. Ground IX: Sleepy Juror.
In his Ground IX, petitioner asserts that his constitutional rights were violated by a juror who appeared to be nodding off during
testimony in the guilt stage of his original trial. Petitioner faults the trial court for not replacing the juror with an alternate
when this conduct was made known. He also faults his trial counsel for failing to seek the juror’s removal. Petitioner raised
this claim in his first direct appeal. The OCCA denied relief. Coddington, 142 P.3d at 445-46. For the following reasons, the
court likewise denies relief.
The facts underlying this claim are undisputed. As set forth by the OCCA in its opinion, the facts are as follows:
On the first day of witness testimony, during the examination of Scott Cox, defense counsel informed the trial court that Juror
Muller appeared to be “nodding off and sleeping. She’s about to fall out of her chair.” Defense counsel asked the trial court
to watch the juror and, at break, to talk to her. Assistant District Attorney Reid also noted the same conduct. The trial court
watched the juror and a short while later, the trial court called the attorneys to the bench and stated “[s]he is nodding off ...”.
At defense counsel’s request, the trial court spoke with Juror Muller in chambers. During this colloquy, Juror Muller told the
trial court she was feeling strange and “not very well;” she thought it was something to do with her blood sugar. Juror Muller
told the trial court she was having difficulty with her vision and walking.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

032

15

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

Juror Muller tested her blood sugar in the presence of the trial court, defense counsel and counsel for the State, and determined
it was high. When asked if there was anything she could do to bring it down, she told the trial court exercise was all that
she could do.
The trial court allowed the parties to question Juror Muller and her answers revealed she felt she had heard all of the questions
asked and answers given, did not think she had missed anything, and felt she could remain on the jury and be alert and
attentive. She admitted to defense counsel that, in addition to her sleepiness, she had an upset stomach and a little headache
and that it had been “gradually getting worse today.”
After the parties questioned Juror Muller, defense counsel asked the trial court to continue to observe her and then to “revisit
the issue ... at 1:30” to see how she was feeling. Defense counsel stated, “I think we ought to go on. I mean, let’s keep putting
witnesses on and if she starts nodding off again then we may have to stop it, Judge.....” The trial court again agreed to keep
an eye on her.
Following cross-examination of the witness, court recessed for lunch and the jurors were asked to return at 1:30. When the
jury returned, the trial court told the parties, “[I]nformally I spoke with Juror Muller. She insists that she’s doing just fine.”
Defense counsel asked the trial court to continue to watch her. The record contains no further specific references to Juror
Muller.
*20 Coddington, 142 P.3d at 445 (footnote omitted).
In denying petitioner relief on this claim, the OCCA found that although the trial court had the statutory authority to remove the
juror, its failure to do so did not amount to an abuse of discretion. See Okla. Stat. tit. 22, § 601a (permitting the impanelment of
additional jurors and authorizing the trial court to replace an ill juror with an alternate). The OCCA arrived at this conclusion
by considering the following circumstances: (1) the absence of an objection from defense counsel; (2) the lack of conclusive
evidence that the juror had in fact been sleeping; and (3) a silent record which indicated no further issues with this particular
juror. Coddington, 142 P.3d at 446. Regarding petitioner’s related ineffectiveness claim, the OCCA found as follows:
While the trial court might properly have removed Juror Muller if the record conclusively showed she was sleeping or was
too ill to continue, defense counsel specifically stated the trial “ought to go on” and did not request the trial court to remove
her as a matter of trial strategy. In hindsight, it may appear to [petitioner] that his defense counsel’s decision to give this juror
another chance was not appropriate, but that is not sufficient to meet the test for ineffective assistance of counsel established
in Strickland v. Washington, 466 U.S. 668, 104 S.Ct. 2052, 80 L.Ed.2d 674 (1984). This Court does not evaluate trial strategy
in hindsight. Woodruff v. State, 1993 OK CR 7, ¶ 16, 846 P.2d 1124, 1133, cert. denied, 510 U.S. 934, 114 S.Ct. 349, 126
L.Ed.2d 313 (1993). Further, the record does not establish this juror missed any of the testimony due to inattentiveness or
illness and [petitioner] has not shown he was prejudiced by his trial counsel’s failure to request her removal from the jury.
Id.
In support of his request for relief, Petitioner references three Supreme Court cases: Nebraska Press Ass'n v. Stuart, 427 U.S.
539, 555 (1976), for the proposition that “[t]he trial judge bears the responsibility of protecting” his right to a fair trial; Furman v.
Georgia, 408 U.S. 238 (1972), for the proposition that capital cases require “ ‘heightened reliability’ ”; and Strickland. Petition,
pp. 46-48. Petitioner has not shown, however, how the OCCA’s decision is contrary to or an unreasonable application of any
of these cases.
The bottom line is that petitioner’s claim lacks a factual basis. As the OCCA found, there is no evidence that the juror was
actually sleeping or that she missed any of the presented evidence. Moreover, after the juror was thoroughly questioned about
her condition and what affect it might have on her ability to continue her service as a juror, defense counsel, an experienced
capital litigator,16 proposed the following plan of action:
I move we advise her to tell you if her health condition is not getting better, that you observe her, and then we revisit the issue
maybe at 1:30 or something and see how the lady is feeling. I think we ought to go on. I mean, let’s keep putting witnesses on
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

033

16

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

and if she starts nodding off again then we may have to stop it, Judge. But I move that you say, ma'am, tell us if you continue
to get worse, maybe have a report on the lunch break, and then maybe revisit it again at 1:30 and we'll see.
*21 (2003 Tr. III, 80-81, 90-100). In accordance with this plan, the trial judge informed the parties after lunch that he had
spoken with the juror and “she’s doing just fine” (2008 Tr. III, 113-14). The court has no doubt that after this incident, the juror
was monitored by all parties, and because the record reflects no further discussion of this issue, it can be assumed that no other
incidents arose. There is nothing in this scenario that causes the court to question whether the trial court or petitioner’s trial
counsel violated petitioner’s constitutional rights.17 The OCCA’s determination of the claim is not contrary to or an unreasonable
application of Supreme Court law.
G. Ground X: Evidence Supporting the Murder to Avoid Arrest or Prosecution Aggravating Circumstance.
In Ground X, petitioner contends that the murder to avoid arrest or prosecution aggravating circumstance, one of the four
aggravating circumstances supporting his death sentence, is not supported by constitutionally sufficient evidence.18 Petitioner
raised this claim in his resentencing appeal. The OCCA addressed the merits and denied relief. Coddington, 254 P.3d at 705-06.
Because petitioner has not shown that the OCCA’s decision is unreasonable, relief must be denied.
In reviewing petitioner’s claim, the OCCA applied the following standard: “whether, in the light most favorable to the State,
any rational trier of fact could have found the aggravating circumstance beyond a reasonable doubt.” Id. at 705. This is the
same standard mandated by Lewis v. Jeffers, 497 U.S. 764, 781-83 (1990). As the Supreme Court recognized in Jeffers, “[l]ike
findings of fact, state court findings of aggravating circumstances often require a sentencer to ‘resolve conflicts in the testimony,
to weigh the evidence, and to draw reasonable inferences from basic facts to ultimate facts.’ ” Id. at 782 (quoting Jackson v.
Virginia, 443 U.S. 307, 319 (1979)). Thus, this court “ ‘must accept the jury’s determination as long as it is within the bounds of
reason.’ ” Lockett v. Trammel [sic], 711 F.3d 1218, 1243 (10th Cir. 2013) (quoting Boltz v. Mullin, 415 F.3d 1215, 1232 (10th
Cir. 2005)). This standard of review is highly deferential to the jury’s verdict, but when a layer of AEDPA deference is added
to it, petitioner’s ability to obtain relief is all the more difficult. See Hooks v. Workman, 689 F.3d 1148, 1166 (10th Cir. 2012)
(“We call this standard of review ‘deference squared.’ ”) (citation omitted).
*22 When reviewing the evidentiary sufficiency of an aggravating circumstance, the court looks to Oklahoma substantive law
to determine the aggravator’s defined parameters. Hamilton v. Mullin, 436 F.3d 1181, 1194 (10th Cir. 2006). With respect to the
murder to avoid arrest or prosecution aggravating circumstance, Oklahoma law requires the prosecution to show that petitioner
“committed a predicate crime, separate from [the] murder, and killed to ... avoid arrest or prosecution for that predicate crime.”
Coddington, 254 P.3d at 705. “ ‘[A] defendant’s intent is critical to a determination of whether he killed to avoid arrest or
prosecution.’ ” Id. at 706 (quoting Wackerly v. State, 12 P.3d 1, 14 (Okla. Crim. App. 2000)). In petitioner’s case, the state
alleged robbery as the predicate crime. The state contended that petitioner killed Mr. Hale to avoid arrest for taking $525 from
him. Coddington, 254 P.3d at 705.
In denying petitioner relief, the OCCA addressed petitioner’s concerns and held as follows:
[Petitioner] argues that his testimony from the first trial cannot support this aggravating circumstance. He testified that he
left Hale’s house without calling police because he did not want to get caught, and agreed that he wanted to avoid arrest
or prosecution. He also testified, and told police, that he hit Hale with the hammer first, and grabbed the cash from Hale’s
pocket just before he left. [Petitioner] said he thought Hale was dead when he left the scene. [Petitioner] argues that taken
together these statements do not provide sufficient proof of a predicate crime. He claims this merely reflects how [he] felt
when he left the scene of the murder, but does not show that he killed Hale to avoid being caught for robbery. He insists that
robbery cannot be the predicate crime because he had already hit Hale before he robbed him. In similar circumstances, this
Court found that a murder occurring contemporaneously with a robbery was nevertheless distinct from it, because evidence
showed the defendant intended to rob the victim and was prepared to kill to get the money he sought. Wackerly v. State, 2000
OK CR 15, ¶¶ 40–41, 12 P.3d 1, 14. Evidence here also shows that [petitioner], who was in the middle of a string of robberies
at the time of the crime, went to Hale’s house to borrow money, intended to get money, attacked Hale after Hale refused to

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

034

17

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

loan him money, and robbed him before leaving. Sufficient evidence supports a conclusion beyond a reasonable doubt that
[petitioner] committed the predicate crime of robbery.
Sufficient evidence also supports a conclusion beyond a reasonable doubt that [petitioner] killed Hale to avoid arrest or
prosecution for the robbery. “[A] defendant’s intent is critical to a determination of whether he killed to avoid arrest or
prosecution.” Wackerly, 2000 OK CR 15, ¶ 42, 12 P.3d at 14. Ample evidence showed that Hale knew [petitioner] well and
could identify him. [Petitioner’s] statements to police, as well as his testimony at his first trial, show that he wanted to avoid
being caught for this robbery. This was supported by evidence that [petitioner] also attempted to avoid being arrested for the
other robberies he committed during this same period of time. Direct and circumstantial evidence support the jury’s finding
of this aggravating circumstance. Wackerly, 2000 OK CR 15, ¶ 43, 12 P.3d at 14–15.
Coddington, 254 P.3d at 705-06. Petitioner makes these same arguments here.
The crux of petitioner’s claim is that there was no predicate crime. He argues that because he came to Mr. Hale’s home for a loan
and without any criminal intent, and because he did not take Mr. Hale’s money until after he killed him, the evidence supporting
the avoid arrest aggravator is not only insufficient but totally absent. Downplaying the damaging statements he made during his
own testimony, petitioner asserts that “[his] words do not establish he committed the murder to avoid arrest and prosecution, ...
[but only that] he did not call the police after the murder because he did not want to be arrested.” Petition, p. 50. Petitioner
argues that how he felt and why he left the scene after the murder are irrelevant.
*23 Ultimately, what petitioner asks this court to do is to invalidate the jury’s verdict and the OCCA’s decision because his
version of the events shows that the robbery was nothing more than an afterthought. This the court cannot do. In addition to
the fact that this court must be doubly deferential in its review of this claim, the Jeffers/Jackson standard by which petitioner’s
claim is evaluated is viewed not in the light most favorable to petitioner, but “ ‘in the light most favorable to the prosecution ....’
” Jeffers, 497 U.S. at 781 (quoting Jackson, 443 U.S. at 319). Despite petitioner’s claims that he had no intent to rob or kill Mr.
Hale, the evidence was sufficient for the jury to find otherwise. When petitioner came to Mr. Hale’s home, he was on a mission
for money to buy more cocaine and he had already robbed at least one business for that purpose. Even if petitioner went to see
Mr. Hale in hopes of getting a loan, and even if the jury believed this, a rationale trier of fact could have still found that when
Mr. Hale refused to give him money, petitioner went to his backup plan. The fact that petitioner left his knife in the car (the
knife he used to rob several businesses before and after Mr. Hale’s murder) does not make this finding any less rational. The
evidence showed that Mr. Hale was an elderly person who was not in the best of health, whereas petitioner was a young man of
twenty-four. Petitioner did not need a weapon to get Mr. Hale’s money. However, if petitioner had done that, simply assaulted
Mr. Hale to get money, Mr. Hale could have survived and called the police, easily identifying petitioner as the perpetrator. So
by killing Mr. Hale, with more than one strike of a hammer to his head, the jury could rationally find that petitioner killed Mr.
Hale to avoid arrest or prosecution. Ground X does not state a basis for relief.
H. Ground XI: Roper19 and Evidence of Juvenile Offenses Presented in Support of the Continuing Threat Aggravating
Circumstance.
Petitioner’s Ground XI is a challenge to the state’s use of his juvenile offenses to support the continuing threat aggravator.
Petitioner contends, as he did in his resentencing appeal, that this is prohibited by the Supreme Court’s decision in Roper.20
Relying on its decision in Mitchell v. State, 235 P.3d 640 (Okla. Crim. App. 2010), the OCCA denied relief on this claim.
Coddington, 254 P.3d at 707. Because petitioner has not shown that the OCCA’s decision is contrary to or an unreasonable
application of Roper, he has not demonstrated his entitlement to relief.
In Roper, 543 U.S. at 578, the Supreme Court held that “[t]he Eighth and Fourteenth Amendments forbid imposition of the
death penalty on offenders who were under the age of 18 when their crimes were committed.” In denying petitioner relief, the
OCCA relied on its decision in Mitchell wherein it addressed this issue as a case of first impression. Coddington, 254 P.3d at
707. In Mitchell, the OCCA held as follows:

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

035

18

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

This Court has consistently held that evidence of unadjudicated bad acts, non-violent bad acts and juvenile offenses are
admissible in a capital case to prove a defendant constitutes a continuing threat to society. Nothing in the language of Roper
suggests that the State is prohibited from relying on prior juvenile adjudications to support an aggravating circumstance.
Mitchell, 235 P.3d at 659 (citation omitted). Faulting the OCCA for this interpretation of Roper, petitioner contends that “Roper
should operate to preclude the use of juvenile adjudications to support aggravating factors in a capital sentencing proceeding.”
Petition, p. 55 (emphasis added).
Roper does not address the use of juvenile adjudications in capital proceedings, and petitioner’s argument that it should be so
applied is not a basis for habeas relief. The OCCA’s decision cannot be deemed unreasonable because it failed to extend the
principles espoused in Roper. The OCCA’s decision is measured against Supreme Court holdings, not general legal principles
that may be extracted from them, and those holdings are to be narrowly construed. Fairchild v. Trammell, 784 F.3d 702, 710
(10th Cir. 2015). The OCCA’s decision is not contrary to or an unreasonable application of Roper. See Mitchell, 2016 WL
4033263, at *7-8 (rejecting this same claim); Dodd v. Workman, No. CIV-06-140-D, 2011 WL 3299101, at *57-58 (W.D. Okla.
Aug. 2, 2011) (rejecting a similar Roper claim), rev'd on other grounds, Dodd v. Trammell, 753 F.3d 971 (10th Cir. 2013).
I. Ground XII: Juror Misconduct.
*24 In his final ground, petitioner asserts that he is entitled to relief because two jurors in his first trial lied during voir dire.
Like his Ground VIII, petitioner states that this issue is exhausted because it was presented to the OCCA in the post-conviction
application following his resentencing appeal. Petition, p. 59. On post-conviction, petitioner claimed that his appellate counsel
in his first direct appeal was ineffective for failing to investigate these jurors. The OCCA addressed the merits of the appellate
counsel claim and denied relief. The OCCA procedurally barred the underlying substantive issue. Coddington, 259 P.3d at
835-37.
Petitioner’s underlying claim concerns Jurors Berry and Doyle. In discussing the issue of addiction with the prospective jurors,
defense counsel asked Juror Berry for her thoughts. In her response, Juror Berry included a statement that she'd “never had any
personal experiences with anybody on drugs” (2003 Tr. II, 131). Because Juror Berry’s father died in a drug/alcohol related
accident of his own making, petitioner asserts that Juror Berry’s statement was “an outright attempt to conceal [her] prejudices
against drug and alcohol abusers.” Petition, pp. 60, 61-62. As for Juror Doyle, petitioner asserts that he also hid his drug/alcohol
prejudices when he failed to disclose prior DUIs. Petition, pp. 58-59. Petitioner argues that had this information been made
known at trial, these jurors would have been subject to removal for cause.
In denying petitioner relief, the OCCA repeatedly stressed the claim it was deciding:
The issue raised ... is not whether any or all of these six jurors were less than candid in their responses; nor is it whether
trial counsel, had she known of these misrepresentations, would have challenged any of these jurors for cause or through a
peremptory challenge. The issue before the Court is whether appellate counsel’s failure to investigate these jurors and raise
any issues resulting from that investigation on direct appeal, raises a substantial likelihood that the result of the proceeding
would have been different. In conducting this review, this Court is focusing on [petitioner’s] conviction as the outcome which
would have been affected by different actions on appellate counsel’s part.
[Petitioner] apparently fails to understand these limitations. In addition to claiming ineffective assistance of appellate counsel
in this proposition, he claims that he was denied his right to fully conduct voir dire, and his right to an impartial jury, by
what he characterizes as material omissions in the responses of three (and particularly two) of the six jurors. This is not the
question before the Court. These substantive issues have been waived.
....
We repeat, whether the responses were inaccurate or whether trial counsel might have used peremptory challenges based on
this information is not the issue before the Court.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

036

19

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

Coddington, 259 P.3d at 836, 837.21 Acknowledging the high standard imposed by Strickland, the OCCA noted that “[a]ppellate
counsel need not raise every non-frivolous issue” and “[a] strong presumption exists that, where counsel focuses on some issues
to the exclusion of others, this reflects a strategic decision rather than neglect.” Id. at 835-36 (citing Richter, 562 U.S. at 109 and
Jones, 463 U.S. at 753-54). In addition, because appellate counsel had succeeded in getting petitioner’s death sentence reversed
and remanded for a new sentencing, the OCCA found that “[g]iven this evidence of effective representation, it will be difficult
for [petitioner] to show that appellate counsel’s performance was deficient.” Coddington, 259 P.3d at 836. Ultimately, the OCCA
denied relief for two reasons: (1) because appellate counsel has no duty to investigate jurors; and (2) because petitioner failed
to demonstrate that the jurors in question had “any bias or partiality for or against [his] case or [him].” Id. at 836-37. Petitioner
has not shown that this determination is unreasonable.
*25 The sum of petitioner’s argument is one of prejudice. He claims that the jurors' errors are so grave that he simply must
be granted relief. This argument fails on multiple grounds. First, the AEDPA standard of review precludes it. In addition to the
expansive deference that must be afforded the OCCA’s determination, relief is required only if the OCCA’s decision amounts
to an extreme malfunction of the criminal justice system. See Davis v. Ayala, 576 U.S. ____, 135 S. Ct. 2187, 2202 (2015)
(“The role of a federal habeas court is to guard against extreme malfunctions in the state criminal justice systems.”) (internal
quotation marks and citation omitted). This cannot be said of the OCCA’s opinion. Second, the Strickland standard, which
requires a showing of both deficient performance and prejudice, precludes it. Strickland, 466 U.S. at 687. Although petitioner
has presented an argument for prejudice, with regard to deficient performance, petitioner has stated only that a reasonable
investigation would have uncovered this juror claim. However, Strickland cautions against this type of hindsight distortion,
while recognizing that “[t]here are countless ways to provide effective assistance in any given case.” Id. at 689. Petitioner does
not argue that appellate counsel should have somehow been alerted to a potential claim, nor does he make any assertion that
juror investigations are required in every appeal. In addition, petitioner has not even offered up a critique of appellate counsel’s
brief in an effort to show that this juror claim was more worthy than the claims that were presented. As the OCCA noted, since
appellate counsel was able to obtain sentencing relief, petitioner would be hard pressed to even make this argument.
And finally, even petitioner’s prejudice argument fails to demonstrate his entitlement to relief. The OCCA found that petitioner
had failed to show that Jurors Berry and Doyle had any bias or partiality to either side based on their drug/alcohol experiences.
While petitioner has inferred that their experiences would have made them unsympathetic jurors, one can just as easily infer
that their experiences made them sympathetic jurors. In addition, the court notes that petitioner’s support for his claim regarding
Juror Berry is in the form of a hearsay affidavit which is inherently unreliable, see Neill v. Gibson, 278 F.3d 1044, 1056 (10th
Cir. 2001) (finding no abuse of discretion in refusing to consider hearsay affidavits by investigators), and as for Juror Doyle,
the record does not support petitioner’s contention that he was dishonest when he failed to respond to the trial court’s inquiry
about ever being in a court of law or coming before a judge as a witness or a party (2003 Tr. I, 108). Based on the evidence
petitioner has provided, Juror Berry did have two prior DUI arrests, but his convictions were the result of bond forfeitures due
to his failure to appear. Petition, pp. 58-59. So when the trial court asked if he had ever been in a court of law or before a judge,
Juror Berry was not dishonest in remaining silent. The question posed would not necessarily have prompted any disclosure of
his prior DUI arrests.
Under these circumstances, it was reasonable for the OCCA to conclude that “[a]ppellate counsel was not ineffective for failing
to investigate jurors' backgrounds.” Coddington, 259 P.3d at 837. See McDonough Power Equipment, Inc., v. Greenwood, 464
U.S. 548, 556 (1984) (holding that in order to obtain a new trial, a petitioner “must first demonstrate that a juror failed to answer
honestly a material question on voir dire, and then further show that a correct response would have provided a valid basis for
a challenge for cause”). As for the underlying claim, it is, as the OCCA found, procedurally barred because appellate counsel
ineffectiveness does not excuse petitioner’s default.

IV. Motions for Discovery and Evidentiary Hearing.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

037

20

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

Petitioner has filed a motion for discovery as well as a motion for an evidentiary hearing. Docs. 30 and 31. The court concludes
that both should be denied.
In order to conduct discovery, Rule 6(a) of the Rules Governing Section 2254 Cases in the United States District Courts requires
petitioner to show good cause. In Bracy v. Gramley, 520 U.S. 899, 908-09 (1997), the Supreme Court acknowledged that “good
cause” requires a pleading of specific allegations showing a petitioner’s entitlement to relief if the facts are fully developed.
Petitioner’s discovery request is extensive. He requests any information known to the trial court or the court clerk regarding any
communications with the jurors; the prosecution’s entire file; all information concerning Jurors Berry and Doyle; all information
related to his intoxication at the time of the crime and his confession; and any exculpatory material. He also requests that he
be allowed to depose Jurors Berry, Doyle, and Muller; law enforcement officers Smart, DeSpain, and Weaver; and Kenneth
Johnson. Although petitioner makes reference to the medical examiner who performed the autopsy of the victim, the court notes
that he makes no request related to him.
*26 Regarding his intoxication, petitioner seeks more information from the law enforcement officers who interacted with
him the day he was arrested and confessed. However, as respondent has pointed out, petitioner was afforded a hearing on the
voluntariness of his confession. At that hearing, and in the first trial, both Smart and DeSpain testified and were subject to crossexamination by petitioner. As for Weaver, he testified at the resentencing proceeding and was subject to cross-examination by
petitioner at that time. Doc. 41 at 2. Petitioner has not shown what further information could be gathered from these individuals.
In addition, regarding Mr. Johnson, petitioner has not shown how deposing him would lead to information supporting a claim
for relief. In Ground VII, petitioner has alleged that his trial counsel was ineffective for failing to present Mr. Johnson for
testimony, and he has supported this claim with a transcript of an interview which was apparently conducted at the time of trial
and contained in trial counsel’s files. Petitioner’s Exhibit 13. However, petitioner has not shown what additional information
could be gained from a deposition of Mr. Johnson, nor has he shown how the same would support a relief on a claim this court
has determined to be procedurally barred.
Petitioner’s Grounds IX and XII involve three jurors who sat on the jury in petitioner’s original trial in 2003. In Ground IX,
petitioner has complained about Juror Muller’s sleeping during the trial, and in Ground XII, petitioner has asserted that Jurors
Berry and Doyle lied during voir dire. With respect to Ground IX, the court has concluded that it lacks factual support; however,
what petitioner seeks to discover with respect to Juror Muller does address this deficiency. Petitioner wants to depose Juror
Muller to discuss her alertness during trial and her medical condition, but this was all addressed during the trial. Upon questioning
by the trial court and the parties, it was discovered that Juror Muller was having trouble with her diabetes that particular morning.
However, she did not miss any evidence and by afternoon she was feeling fine (2003 Tr. III, 91-100, 113). Petitioner has not
given this court any reason to discount how the matter was handled at trial, nor has he shown how pursuing this issue some
thirteen years later will bring about any different result. Regarding Jurors Berry and Doyle, petitioner wants to depose them and
discover more information about the extent of their alleged bias. In Ground XII, the court has rejected petitioner’s argument that
his appellate counsel was ineffective for failing to investigate these jurors and found the underlying juror misconduct claim to be
procedurally barred. Petitioner has not shown how further investigation into Jurors Berry and Doyle affects these determinations
and/or his entitlement to relief. Therefore, this request is also denied.
In addition to these specific requests, petitioner has made general requests regarding juror communications, the prosecution’s
file, and exculpatory material. The court denies these requests because they are too broad and unsupported by specific allegations
as required by Bracy.
As for an evidentiary hearing, petitioner requests that he be granted one to further develop his Ground V which concerns the
admissibility of his videotaped confession. However, the court has denied this ground for relief, concluding that petitioner has
failed to show that the OCCA’s determination of the issue is an unreasonable determination of law or fact under Section 2254(d).
In accordance with Pinholster, 563 U.S. at 181, the court’s review of this claim is limited to the record that was before the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

038

21

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

OCCA at the time it rendered its decision. Having failed to satisfy Section 2254(d), petitioner is not entitled to an evidentiary
hearing on this claim. Jones v. Warrior, 805 F.3d 1213, 1222 (10th Cir. 2015).

V. Conclusion.
Having concluded petitioner’s arguments do not establish a right to relief, his petition for writ of habeas corpus is DENIED, as
are his requests for discovery and an evidentiary hearing. [Doc. Nos. 29, 30 and 31]. Judgment will be enter accordingly.
IT IS SO ORDERED.
Dated this 15th day of September, 2016.
All Citations
Not Reported in Fed. Supp., 2016 WL 4991685
Footnotes
Pursuant to Fed. R. Civ. P. 25(d), Terry Royal, who currently serves as warden of the Oklahoma State Penitentiary, is hereby substituted
1
2
3
4
5
6
7
8
9
10
11
12
13
14

as the proper party respondent.
Doc. 29 is petitioner’s amended petition, which was filed to correct certain scrivener’s errors.

Because petitioner had two direct appeal proceedings (OCCA Case Nos. D-2003-887 and D-2008-655), the state court record
contains two sets of the original record. The first original record is eight volumes, and it will be referred to as “2003 O.R.” The
second original record is six volumes, and it will be referred to as “2008 O.R.”
Because the OCCA granted petitioner relief on direct appeal, his related post-conviction appeal was subsequently dismissed as moot.
Order Dismissing Post-Conviction Appeal, Case No. PCD-2003-1029 (Okla. Crim. App. Sept. 28, 2006).
Petitioner has numbered his grounds for relief as Ground IV through Ground XII.
The first trial will be referred to as “2003 Tr.” and the second trial as “2008 Tr.”
Contrary to respondent’s assertion, the court concludes that petitioner’s claim is based on his federal constitutional right to present a
defense. See Holmes v. South Carolina, 547 U.S. 319, 324 (2006) (discussing Supreme Court authority related to a criminal defendant’s
federal constitutional right to a meaningful opportunity to present a complete defense). Thus, a Brecht analysis is appropriate.
Miranda v. Arizona, 384 U.S. 436 (1966).
Petitioner also consented to a search of his apartment (State’s Exhibit 33).
Before questioning began, and even before Officer DeSpain talked to petitioner about his earlier waiver, petitioner told Officers
DeSpain and Weaver, “You're gonna want the murder weapon, I'm sure ....” Later, petitioner also told them that they “need[ed] to
get homicide down [there]” (State’s Exhibit 88; Court’s Exhibit 2, pp. 2, 12).
In addition, post-conviction counsel ineffectiveness cannot serve as cause. Coleman, 501 U.S. at 752 (because there is no
constitutional right to representation in state post-conviction proceedings, a petitioner “ ‘bear[s] the risk of attorney error that results
in a procedural default’ ”) (citation omitted).
In addition, the court concludes that petitioner has failed to demonstrate that this claim has merit. In his petition, petitioner has
done little more than make minor, passing references to this claim. Petition, pp. 28, 31. He has not presented any related argument
regarding why trial counsel was allegedly ineffective in this instance.
Although petitioner references Chapman as the relevant Supreme Court case, Petition, pp. 32, 34, it is clear that Strickland is the
controlling authority.
On post-conviction, petitioner challenged only the testimony of Dr. Chai Choi, who testified at the resentencing. Original Application
for Post-Conviction Relief at 60 (“The admission of the autopsy sketches, photos, and Dr. Choi’s testimony based upon Dr. Parker’s
and/or Dr. Jordan’s report violated [petitioner’s] right to confront his accusers under the Sixth and Fourteenth Amendments to the
United States Constitution and Article II § 20 of the Oklahoma Constitution.”). Therefore, to the extent petitioner challenges the
testimony of Dr. Fred Jordan who testified in petitioner’s original trial or his appellate counsel’s actions in his first direct appeal,
these claims are unexhausted and anticipatorily procedurally barred. See Ground VII, supra. As to his claim that his trial counsel at

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

039

22

Coddington v. Royal, Not Reported in Fed. Supp. (2016)

15

16
17
18

19
20

21

resentencing was ineffective for failing to object to Dr. Choi’s testimony, the OCCA noted that any such direct challenge was waived.
Coddington, 259 P.3d at 838. However, given that this claim is interwoven with his appellate counsel challenge, it is subject to denial
on the merits as well.
Addressing petitioner’s claim through the lens of harmless error, the OCCA assumed that a confrontation violation occurred. However,
“[t]he Supreme Court has never held that the Confrontation Clause applies at capital sentencing.” Carter v. Bigelow, 787 F.3d 1269,
1294 (10th Cir. 2015). See also Wilson v. Sirmons, 536 F.3d 1064, 1111 (10th Cir. 2008) (stating “that it is far from clear whether the
Confrontation Clause even applies at capital sentencing proceedings”) (internal quotation marks omitted) (citation omitted).
See Fields v. Gibson, 277 F.3d 1203, 1209 (10th Cir. 2002) (referring to defense counsel’s supervisory position in the litigation division
of the Oklahoma County Public Defender’s Office and his status as “the second most experienced death penalty lawyer at the PDO”).
Regarding petitioner’s reference to Furman, respondent aptly points out that because petitioner received a new sentencing proceeding,
petitioner has no argument that this juror’s service denied him a reliable sentencing proceeding. Response, p. 72.
In footnote 5, petitioner asserts that he has an additional basis for relief. Citing Harrison v. United States, 392 U.S. 219 (1968),
petitioner contends that his testimony from his first trial, testimony which as discussed herein lends support to the jury’s finding of
the avoid arrest aggravator, should not have been admitted at his resentencing. This claim, however, has never been presented to
the OCCA. It is therefore unexhausted and subject to an anticipatory procedural bar. See Ground VII, supra. The court additionally
concludes that this claim lacks merit because it is based on petitioner’s contention that his confession was illegally obtained. Because
the court has found otherwise and denied relief on this related claim, see Ground V, supra, petitioner’s Harrison claim fails as well.
Roper v. Simmons, 543 U.S. 551 (2005).
In footnote 8, petitioner makes the additional claim that his trial counsel was ineffective for not raising an objection at resentencing
based on Roper. While asserting that this claim should not be reviewed on the merits, respondent additionally argues that it can be
denied on the merits. The court concludes that denial on the merits is the most efficient course. Because Roper does not preclude
the admission of juvenile offenses to prove the continuing threat aggravator, the objection would have been overruled even if trial
counsel had objected on this basis. Thus, there is no merit to this ineffectiveness claim.
The OCCA’s reference to six jurors includes four jurors challenged by petitioner in his post-conviction claim but not raised here.
Petition, pp. 56-57. Also, since appellate counsel was successful in getting petitioner a new sentencing proceeding, the obvious focus
for the OCCA would be petitioner’s murder conviction. Coddington, 142 P.3d at 462.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

040

23

Appendix C
Oklahoma Court of Criminal Appeals opinion on direct appeal
Coddington v. State, 142 P.3d 437 (Okla. Crim. App. 2006)

041

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

$563.47, within thirty days of the date this
opinion becomes final.

Okl.

437

¶ 23
RESPONDENT
SUSPENDED
FROM THE PRACTICE OF LAW FOR
TWO YEARS AND ONE DAY; RESPONDENT ORDERED TO PAY COSTS.

(4) error in prohibiting defense expert
from testifying that defendant would
have been unable to form the requisite
deliberate intent of malice aforethought due to his cocaine addiction
was harmless;

¶ 24 WATT, C.J., WINCHESTER, V.C.J.,
HARGRAVE, OPALA, EDMONDSON,
TAYLOR and COLBERT, JJ., concur.

(5) admission of a single pre-death photograph of the victim was not an abuse of
discretion;

¶ 25 KAUGER, J., concurring in result.

(6) evidence was sufficient to support conviction for first-degree murder;

Although I agree with the discipline imposed, this proceeding should have been
brought under Rule 10.

(7) exclusion of a videotaped statement
from defendant’s mother violated due
process; and

,

(8) the trial court’s decision to instruct the
jury on impeachment of witnesses by a
former conviction during the sentencing phase of first-degree murder trial
constituted plain error.

2006 OK CR 34

Affirmed in part; reversed and remanded in
part.

James Allen CODDINGTON, Appellant
v.
STATE of Oklahoma, Appellee.
No. D–2003–887.

Lumpkin, Vice Presiding Judge, filed an
opinion concurring in part and dissenting in
part.
Lewis, J., filed a specially concurring opinion.

Court of Criminal Appeals of Oklahoma.
Aug. 16, 2006.

Background: Defendant was convicted by
a jury in the District Court, Oklahoma
County, Jerry Bass, J., of first degree
murder and robbery with a dangerous
weapon and he was sentenced to death.
Defendant appealed.
Holdings: The Court of Criminal Appeals,
C. Johnson, J., held that:
(1) the prosecutor offered race-neutral
reasons for his challenges to four African-American jurors;
(2) the trial court’s failure to replace juror,
who was sleepy due to a problem with
her blood sugar level, did not constitute plain error;
(3) fatigue and hunger from self-induced
drug usage did not render defendant’s
waiver of his Miranda rights or his
confessions involuntary;

1. Jury O33(5.15)
The prosecutor offered race-neutral reasons for his challenges to four African-American jurors, during first-degree murder prosecution; three of the jurors were excluded
since they had previously been prosecuted
for a criminal offense, and the fourth juror
was excluded because the prosecutor did not
believe that he could impose the death penalty. U.S.C.A. Const.Amend. 14.
2. Constitutional Law O221(4)
A defendant may raise an equal protection challenge to the use of peremptory challenges by showing that the prosecutor used
the challenges for the purpose of excluding
members of the defendant’s own race from
the jury panel. U.S.C.A. Const.Amend. 14.
3. Jury O33(5.15)
Under Batson, the defendant must first
make a prima facie showing that the prosecu-

042

438

Okl.

142 PACIFIC REPORTER, 3d SERIES

tor has exercised peremptory challenges on
the basis of race; then, the burden shifts to
the prosecutor to articulate a race-neutral
explanation related to the case for striking
the juror in question. U.S.C.A. Const.
Amend. 14.
4. Jury O33(5.15)
The race-neutral reason given by the
prosecutor for exercising a peremptory challenge need not rise to the level of justifying
excusal for cause, but it must be a clear and
reasonably specific explanation of his or her
legitimate reasons for exercising the challenges. U.S.C.A. Const.Amend. 14.
5. Criminal Law O1158(3)
The trial court’s findings concerning
whether a prosecutor exercised peremptory
challenges on the basis of race are entitled to
great deference, and the Court of Criminal
Appeals reviews the record in the light most
favorable to the trial court’s ruling.
U.S.C.A. Const.Amend. 14.
6. Criminal Law O1035(5)
Jury O33(5.15)
The trial court’s finding that the prosecutor’s use of a peremptory challenge on
juror did not establish a pattern of discrimination was not plain error, in first degree
murder prosecution; the record did not establish that juror was a woman of minority
race. U.S.C.A. Const.Amend. 14.
7. Criminal Law O1035(5)
Jury O149
The trial court’s failure to replace juror,
who was sleepy due to a problem with her
blood sugar level, with an alternate juror did
not constitute plain error, during first-degree
murder prosecution; defense counsel did not
request removal of the juror and asked the
court to continue to watch her, the record did
not conclusively show that juror slept during
trial, juror stated she could continue as an
alert and attentive juror, and there was nothing in the record that indicated that her
sleepiness due to illness continued after the
lunch recess on the first day of testimony.
U.S.C.A. Const.Amends. 5, 14; Const. Art. 2,
§ 19; 22 Okl.St.Ann. § 601a.

8. Criminal Law O868
Juror misconduct must be proven by
clear and convincing evidence.
9. Jury O149
A trial judge has inherent power to substitute a juror for good cause.
10. Jury O149
The trial court’s discretion to substitute
a juror for good cause ought to be exercised
with great caution, especially in capital cases.
11. Criminal Law O641.13(2.1)
Trial counsel’s failure to request the removal of juror who was sleepy due to a blood
sugar problem did not prejudice defendant,
during first-degree murder prosecution, and
therefore did not constitute ineffective assistance of counsel; the record did not show that
juror missed any of the testimony due to
inattentiveness or illness. U.S.C.A. Const.
Amend. 6.
12. Criminal Law O641.13(1)
The Court of Criminal Appeals does not
evaluate trial strategy in hindsight.
U.S.C.A. Const.Amend. 6.
13. Criminal Law O519(3)
The trial court’s decision to admit defendant’s videotaped in custody extra-judicial
confession and let the jury determine whether it was knowingly and voluntarily made
was supported by the record, in first-degree
murder prosecution; defendant was provided
his Miranda rights in relation to the robbery
investigations and he waived those rights,
officers were not required to provide new
Miranda warnings when defendant volunteered information concerning the homicide,
and defendant was not threatened, coerced,
or promised anything during the confession.
U.S.C.A. Const.Amends. 5, 14.
14. Criminal Law O519(1)
Voluntariness of a confession is judged
by examining the totality of the circumstances, including the characteristics of the
accused and the details of the interrogation.
15. Criminal Law O517.2(2)
The inquiry concerning the voluntariness
of a confession has two aspects: the relinquishment of constitutional rights must be

043

CODDINGTON v. STATE

Okl.

Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

voluntary in that it was a product of free,
deliberate choice, rather than coercion, intimidation or deception; and, the waiver must
have been made with a full awareness of the
nature of the right being abandoned and the
consequences of the decision to abandon it.
16. Criminal Law O412.2(5)
The trial court may properly find a valid
waiver of Miranda rights where the totality
of the circumstances show both an uncoerced
choice and the requisite level of comprehension.
17. Criminal Law O517.2(2), 526
Defendant’s fatigue and hunger from
self-induced drug usage did not render his
waiver of his Miranda rights or his confessions involuntary, in prosecution for firstdegree murder; officers testified that defendant was coherent and rational, and that they
did not think that he was under the influence
of intoxicants, defendant’s prior contacts with
law enforcement established his familiarity
with the concepts encompassed in Miranda,
and self-induced intoxication went only to the
weight to be accorded to defendant’s confession, not the admissibility of the confession.
18. Criminal Law O526
Self-induced intoxication, short of mania,
or such an impairment of the will and mind
as to make the person confessing unconscious
of the meaning of his words, will not render a
confession inadmissible, but goes only to the
weight to be accorded to it.
19. Criminal Law O474.2
The trial court abused its discretion
when it prohibited defense expert from testifying that, in his opinion, defendant would
have been unable to form the requisite deliberate intent of malice aforethought due to his
cocaine addiction, in prosecution for firstdegree murder; the normal experiences of
jurors would not likely have provided them
with an understanding of the effects of cocaine intoxication on one’s ability to control
behavior and form intent to kill, defendant
presented sufficient evidence to required the
court to instruct the jury on the defense of
voluntary intoxication, and after defense of
voluntary intoxication was raised an expert
could give an opinion on whether a defen-

439

dant’s actions were intentional. U.S.C.A.
Const.Amends. 5, 6, 14; 12 Okl.St.Ann.
§ 2704.
20. Criminal Law O470(1)
Any properly qualified expert testifying
in accordance with the standards governing
admissibility of expert testimony may offer
an opinion on the ultimate issue if it would
assist the trier of fact.
21. Criminal Law O469, 472
While expert witnesses can suggest the
inferences which jurors should draw from the
application of specialized knowledge to the
facts, opinion testimony which merely tells a
jury what result to reach is inadmissible.
22. Criminal Law O471
Where the normal experiences and qualifications of laymen jurors permit them to
draw proper conclusions from the facts and
circumstances, expert conclusions or opinions
are inadmissible.
23. Criminal Law O474.2
When a defendant raises the defense of
voluntary intoxication, an expert may properly offer his or her opinion on whether the
defendant’s actions were intentional.
24. Criminal Law O661
Defendants in criminal trials deserve to
have their day in court, to require the State
to meet its burden of proof through evidence
presented in open court, to tell their stories,
and to defend themselves against the crimes
of which they have been charged.
25. Constitutional Law O268(10)
Witnesses O2(1)
A defendant’s due process right under
the Fifth Amendment and to compulsory process under the Sixth Amendment includes
the right to present witnesses in his or her
own defense. U.S.C.A. Const.Amends. 5, 6.
26. Constitutional Law O268(10)
The right to offer the testimony of witnesses is, in plain terms, the right to present
a defense; this right is a fundamental element of due process of law. U.S.C.A. Const.
Amends. 5, 6, 14.

044

440

Okl.

142 PACIFIC REPORTER, 3d SERIES

27. Criminal Law O1170(1)
Trial court’s error in prohibiting defense
expert from testifying that, in his opinion,
defendant would have been unable to form
the requisite deliberate intent of malice
aforethought due to his cocaine addiction was
harmless, in prosecution for first-degree
murder; expert testified extensively about
the effects of cocaine addiction and intoxication of the brain, on decision-making, and
on behavior. U.S.C.A. Const.Amends. 5, 6,
14.
28. Criminal Law O338(1)
Testimony from victim’s son concerning
his brain disorder was admissible, in prosecution for first-degree murder; the testimony
explained to the jury why the witness had
obvious difficulty expressing himself and answering the State’s questions. U.S.C.A.
Const.Amends. 5, 14.
29. Criminal Law O1036.1(3.1)
Testimony from the victim’s son that his
brain disorder got worse after victim died did
not constitute plain error, in prosecution for
first-degree murder; the testimony was not
solicited by the State, and no further attention was called to the testimony by the State
or the defense.
30. Criminal Law O438(3)
The trial court’s admission of a single
pre-death photograph of the victim was not
an abuse of discretion, and it did not deprive
defendant of a fair first-degree murder trial
or a fair sentencing proceeding; the trial
court required the State to provide a picture
depicting only the victim, and the photograph
showed the victim’s general appearance and
condition prior to his death. 12 Okl.St.Ann.
§ 2403.
31. Statutes O181(1)
The fundamental rule of statutory construction is to ascertain and give effect to the
intention of the legislature as expressed in
the statute.
32. Statutes O184, 208
A statute should be given a construction
according to the fair import of its words
taken in their usual sense, in connection with

the context, and with reference to the purpose of the provision.
33. Constitutional Law O197
Criminal Law O438(3)
Application of statute, which allowed the
admission of one photograph of a homicide
victim when the victim was alive and which
was not in effect at the time of defendant’s
crime, did not violate ex post facto principles;
the admission of the single photograph did
not change the quantum of evidence necessary for the state to obtain a conviction and it
did not subvert the presumption of innocence. U.S.C.A. Const. Art. 1, § 9, cl. 3;
Const. Art. 2, § 15; 12 Okl.St.Ann. § 2403.
34. Constitutional Law O197
The prohibition against ex post facto law
requires the finding of two elements: that the
law was enacted after the conduct to which it
is being applied and that the law disadvantages the offender affected by it. U.S.C.A.
Const. Art. 1, § 9, cl. 3; Const. Art. 2, § 15.
35. Criminal Law O1035(10)
Trial court’s admission of testimony
from two emergency medical technicians
(EMTs) did not constitute plain error, in
prosecution for first-degree murder, despite
contention that testimony was cumulative;
the EMTs testified as to the details of the
crime scene and to the victim’s condition.
U.S.C.A. Const.Amends. 5, 8, 14.
36. Criminal Law O661, 1153(1)
Admission of evidence is left to the
sound discretion of the trial court and will
not be disturbed absent an abuse of discretion.
37. Constitutional Law O266(1)
Criminal Law O438(4), 675
Defendant’s rights to a fair trial and to
due process of law were not violated when
the trial court allowed three witnesses to
testify about the crime scene and allowed the
admission of photographic evidence depicting
the information contained in the testimony;
the prosecutor laid a brief foundation for the
introduction of the photographic evidence,
defense counsel did not object to the admission of the photographic evidence, and the

045

CODDINGTON v. STATE

Okl.

Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

photographs were not cumulative or prejudicial. U.S.C.A. Const.Amends. 5, 14.
38. Homicide O1139
Evidence was sufficient to support conviction for first-degree murder; defendant
confessed that he killed victim by hitting him
in the head with a hammer after victim refused to give defendant money for drugs,
defendant told officers where to find the
hammer, officers found hammer in location
where defendant stated it would be, medical
examiner testified that victim died from blunt
force head trauma, defense expert testified
that defendant told him he knew he had done
wrong by killing victim, and defendant admitted on cross-examination that he struck victim three times with the hammer even
though victim was no threat after the first
blow. 21 Okl.St.Ann. § 702.
39. Homicide O530
Malice, the deliberate intention to take
the life of another without justification, may
be formed in an instant.
40. Criminal Law O1144.13(5), 1159.4(1)
The Court of Criminal Appeals will accept all reasonable inferences and credibility
choices that tend to support the verdict.
41. Constitutional Law O270(2)
Sentencing and Punishment O1767,
1789(10)
The trial court’s exclusion of a videotaped statement from defendant’s mother,
during the second stage of first-degree murder prosecution, violated due process, even
though a transcript of the deposition was
read to the jury, and warranted remand for
resentencing; the jury was denied the opportunity to actually see and hear defendant’s
mother present mitigation evidence and to
judge her demeanor and assess her credibility, and statute that contemplated reading
preserved examination testimony into the
record did not making reading the examination mandatory. U.S.C.A. Const.Amends. 5,
8, 14; Const. Art. 2, § 7; 12 Okl.St.Ann.
§ 3002; 22 Okl.St.Ann. § 781 et seq.
42. Criminal Law O1158(1)
The Court of Criminal Appeals affords
great deference to jurors’ determinations of

441

witness credibility due to their unique ability
to personally observe the demeanor of the
witnesses at trial.
43. Sentencing and Punishment O1757
The sentencer in capital cases should not
be precluded from considering any relevant
mitigating evidence.
44. Sentencing and Punishment O49
Sympathy is proper for the jury to consider in assessing punishment.
45. Sentencing and Punishment O1757,
1767
Prohibiting the jury in capital sentencing proceeding from viewing videotaped examination of defendant’s mother, whose demeanor exhibited distress and sadness she
had for her son in a way that the cold
reading of a transcript could not portray, was
improper.
46. Sentencing and Punishment O1780(3),
1789(3, 10)
The trial court’s decision to instruct the
jury on impeachment of witnesses by a former conviction during the sentencing phase
of first-degree murder trial constituted plain
error and warranted vacation of defendant’s
death sentence and remand for resentencing;
defendant relied on several family witnesses
and their own troubles with the law and
addiction to explain defendant’s background,
addiction, and criminality, and the instruction
might have led the jury to believe the evidence of the witnesses’ prior convictions was
offered for impeachment purposes and was
not offered to explain defendant’s background. U.S.C.A. Const.Amends. 5, 8, 14.
47. Criminal Law O641.13(1)
To prevail on a claim of ineffective assistance of counsel, an appellant must show (1)
that counsel’s representation fell below an
objective standard of reasonableness and (2)
the reasonable probability that, but for counsel’s errors, the results of the proceedings
would have been different. U.S.C.A. Const.
Amend. 6.

046

442

Okl.

142 PACIFIC REPORTER, 3d SERIES

Fern Smith, Christy Reid, Asst. District
Attorneys, Oklahoma City, OK, attorneys for
the State at trial.
Tamra Spradlin, Tim Wilson, Asst. Public
Defenders, Okla. Co. Public Defender’s Office, Oklahoma City, OK, attorneys for the
defendant at trial.
Andrea Digilio Miller, Emma Victoria
Rolls, Asst. Public Defenders, Okla. Co. Public Defender’s Office, Oklahoma City, OK,
attorneys for appellant on appeal.
W.A. Drew Edmondson, Attorney General
of Oklahoma, Seth S. Branham, Assistant
Attorney General, Oklahoma City, OK, attorneys for State on appeal.
OPINION
C. JOHNSON, Judge.
¶ 1 Appellant, James Allen Coddington,
was convicted by a jury in Oklahoma County
District Court, Case No. CF 97–1500, of
First Degree Murder, in violation of 21
O.S.Supp.1996, § 701.7(A) (Count 1) and of
Robbery with a Dangerous Weapon, in violation of 21 O.S.1991, § 801 (Count 2). Jury
trial was held before the Honorable Jerry D.
Bass, District Judge, on April 21st—May 1st,
2003. On Count 1, the jury found the existence of two aggravating circumstances: (1)
the defendant was previously convicted of a
felony involving the use or threat of violence,1 and (2) the murder was especially
heinous, atrocious, or cruel.2 The jury set
punishment at death on Count 1 and life
imprisonment without the possibility of parole on Count 2. Judgment and Sentence was
imposed in accordance with the jury’s verdicts.
¶ 2 Coddington gave timely notice of his
intent to appeal the convictions and sentences. The record on appeal was completed
September 3, 2004. Coddington filed his
Brief of Appellant on November 8, 2004, and
the State filed the Brief of Appellee on
March 8, 2005. Coddington filed a Reply
Brief on March 28, 2005. This matter was
originally set for oral argument on October
18, 2005. At Coddington’s request, oral ar1.

21 O.S.1991, § 701.12(1)

gument was rescheduled and was subsequently held on November 8, 2005. The
parties each filed supplemental authorities on
November 18, 2005.
¶ 3 In early March of 1997, Appellant, a
cocaine addict, suffered a relapse and began
using cocaine again. He estimated he spent
one thousand dollars ($1000.00) a day to support his habit. Within a short time, he was
desperate for money and robbed a convenience store on March 5, 1997 to feed his
habit. The robbery did not yield enough
money, so Coddington went to his friend Al
Hale’s home to borrow fifty dollars ($50.00).
¶ 4 Hale, then 73 years old, worked with
Coddington at a Honda Salvage yard. Hale
had previously loaned Coddington money and
had also contributed towards Coddington’s
previous drug treatment. Hale’s friends and
family knew he kept a large amount of cash
at his home. On March 5, 1997, he had over
twenty-four thousand dollars ($24,000.00)
stashed in his closet.
¶ 5 Coddington went to Hale’s home on the
afternoon of March 5, 1997 to borrow money,
because he had been on a cocaine binge for
several days and needed money for more
cocaine. Coddington watched television with
Hale for an hour or two and then smoked
crack cocaine in Hale’s bathroom. Hale
knew Coddington was using cocaine again.
Hale refused to give him money and told him
to leave. As he was leaving, Coddington saw
a claw hammer in Hale’s kitchen, grabbed it,
turned around and hit Hale at least three
times with the hammer. Coddington believed Hale was dead, so he took five hundred twenty-five dollars ($525.00) from his
pocket and left. Following the attack on
Hale, Coddington robbed five more convenience stores to get money for cocaine.
¶ 6 Oklahoma City police detectives arrested Coddington on March 7, 1997, outside of
his apartment in south Oklahoma City. Coddington told one officer he had been on a
cocaine binge. On the way to the police
department, Coddington tried to choke himself by wrapping the seat belt around his
2.

21 O.S.1991, § 701.12(4)

047

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

neck. He also stated he wanted to die. At
the police station, during an interview with a
robbery detective and a homicide detective,
Coddington confessed to the convenience
store robberies and also to the murder of Mr.
Hale. He admitted he struck Mr. Hale in the
head with a claw hammer and believed Hale
was dead when he left. At trial, Coddington
admitted he murdered Hale. He testified he
did not go to Hale’s house with the intent to
do anything except borrow money to buy
more cocaine. He said he did not have a
weapon with him, did not intend to rob Hale,
and did not intend to kill him.
¶ 7 Ron Hale, the victim’s son, discovered
Hale after the attack on the evening of
March 5, 1997. There was blood and blood
spatter everywhere. Hale was lying in his
bed, soaked in blood, still breathing but unable to speak. Hale was transported first to
Midwest City Hospital and then to Presbyterian Hospital. He died approximately twenty-four hours later. An autopsy showed
Hale died from blunt force head trauma.
The medical examiner testified he sustained
at least three separate blows to the left side
of his head, consistent with being hit in the
head with a claw hammer. He also testified
Hale had defensive wounds.
¶ 8 Coddington admitted that he did not
call the police when he left Hale’s house
because he did not want to get caught. He
also admitted he had prior felony convictions.
¶ 9 Other relevant facts will be discussed
under the related propositions of error.
JURY ISSUES
[1] ¶ 10 In Proposition Two, Coddington
contends he was denied an impartial jury
comprised of a fair cross-section of the community when the State exercised five peremptory challenges against minority jurors
in violation of his state and federal constitutional rights and in violation of Batson v.
Kentucky, 476 U.S. 79, 106 S.Ct. 1712, 90
L.Ed.2d 69 (1986). The State exercised peremptory challenges to exclude four of six
African–American jurors from the jury panel
of thirty. Coddington claims the State also
exercised a peremptory challenge to excuse a
woman of ‘‘Spanish heritage.’’

Okl.

443

[2–5] ¶ 11 A defendant may raise an
equal protection challenge to the use of peremptory challenges by showing that the
prosecutor used the challenges for the purpose of excluding members of the defendant’s
own race from the jury panel. Batson, 476
U.S. at 96, 106 S.Ct. at 1723–1724; see also
Powers v. Ohio, 499 U.S. 400, 415, 111 S.Ct.
1364, 1373, 113 L.Ed.2d 411 (1991)(extending
Batson to include race-based exclusions even
when the defendant and the potential juror
are not of the same race). Under Batson,
the defendant must first make a prima facie
showing that the prosecutor has exercised
peremptory challenges on the basis of race.
Then, the burden shifts to the prosecutor to
articulate a race-neutral explanation related
to the case for striking the juror in question.
The trial court must then determine whether
the defendant has carried his burden of proving purposeful determination. Batson, 476
U.S. at 98, 106 S.Ct. at 1724. The raceneutral reason given by the prosecutor need
not rise to the level of justifying excusal for
cause, but it must be a ‘‘clear and reasonably
specific’’ explanation of his or her ‘‘legitimate
reasons’’ for exercising the challenges. Id.,
476 U.S. at 98, n. 20, 106 S.Ct. at 1724, n. 20;
see also Neill v. State, 1994 OK CR 69, ¶ 17,
896 P.2d 537, 546, cert. denied, 516 U.S. 1080,
116 S.Ct. 791, 133 L.Ed.2d 740 (1996); Short
v. State, 1999 OK CR 15, ¶ 12, 980 P.2d 1081,
1091, cert. denied, 528 U.S. 1085, 120 S.Ct.
811, 145 L.Ed.2d 683 (2000). The trial
court’s findings are entitled to great deference, and we review the record in the light
most favorable to the trial court’s ruling.
Batson, 476 U.S. at 98, n. 21, 106 S.Ct. at
1724, n. 21; Neill, id.; Bland v. State, 2000
OK CR 11, ¶ 9, 4 P.3d 702, 710–711, cert.
denied, 531 U.S. 1099, 121 S.Ct. 832, 148
L.Ed.2d 714 (2001).
¶ 12 Defense counsel objected to the prosecutor’s exercise of peremptory challenges
against African–American jurors, and in response, the State articulated the following
reasons for excusing those jurors: the State
excused Juror Christian because he had been
prosecuted by the Oklahoma County District
Attorney’s office for embezzlement and had a
brother in prison; the prosecutor excused
Juror Mann because the prosecutor believed

048

444

Okl.

142 PACIFIC REPORTER, 3d SERIES

he could not impose the death penalty and
did not believe he truly had a change of heart
after taking a walk; the prosecutor excused
Juror Graham, because she had previously
been prosecuted for embezzlement; the prosecutor excused Juror Mensah, because she
had previously been prosecuted for fraud,
because her brother was being prosecuted
for larceny, and because she acted totally
disinterested in what was going on during
voir dire. Defense counsel did not object to
the State’s excusal of Juror Equigua, but
now asks this Court to consider her removal
in its consideration of the State’s ‘‘pattern’’ of
excusing minority jurors.3 Defense counsel
argued that excusing African–American jurors based upon prior contact with the criminal justice system had a disparate impact on
the jury because a higher percentage of that
minority population have had contacts with
the criminal justice system and there are
fewer ‘‘non-disenfranchised’’ African–Americans available for jury service.
¶ 13 The trial court did not specifically rule
on the ‘‘race-neutral’’ reasons offered by the
State and did not specifically overrule defense counsel’s objection to the disparate impact the State’s exercise of peremptories had
on the jury. However, voir dire continued,
the alternate jurors were selected, and the
record reflects the trial court accepted the
prosecutor’s stated reasons for removing
these minority jurors and did not believe the
reasons were pretexts for purposeful discrimination.
¶ 14 The reasons offered by the State for
excusing Jurors Christian, Mann, Graham,
and Mensah were facially valid and do not
reveal an intent to discriminate on the basis
of race. Short v. State, 1999 OK CR 15, ¶ 15,
980 P.2d at 1092 (‘‘[e]xcusal of a potential
juror because of a prior criminal record or
because of the criminal records of family
members are legitimate reasons for removal’’); Harris v. State, 2004 OK CR 1, ¶ 21, 84
P.3d 731, 743 (removal of juror because prosecutor believed she was not being truthful
3.

The record of voir dire shows Juror Equigua
was divorced and that the name Equigua originated from the ‘‘Basque region of Spain.’’ This
record does not show this juror was, in fact, a
minority juror. It only shows her name originated from another country.

was not only race-neutral but plausible).
‘‘The critical question in determining whether
a prisoner has proved purposeful discrimination TTT is the persuasiveness of the prosecutor’s justification for his peremptory
strikeTTTT ‘implausible or fantastic justifications may (and probably will) be found to be
pretexts for purposeful discrimination.’ ’’ Miller–El v. Cockrell, 537 U.S. 322, 123 S.Ct.
1029, 154 L.Ed.2d 931 (2003), citing Purkett
v. Elem, 514 U.S. 765, 768, 115 S.Ct. 1769,
1771, 131 L.Ed.2d 834 (1995). Here, the trial
court accepted the prosecutor’s reasons for
striking the four African–American jurors,
and its ‘‘decision on the issue of discriminatory intent will not be overturned unless we
are convinced that determination is clearly
erroneous.’’ Short, 1999 OK CR 15, ¶ 17, 980
P.2d at 1092, citing Hernandez v. New York,
500 U.S. 352, 369, 111 S.Ct. 1859, 1871–1872,
114 L.Ed.2d 395 (1991).
¶ 15 The record shows the prosecutor also
exercised a peremptory challenge against a
Caucasian juror because of his past contact
with the District Attorney’s office or the
criminal justice system.4 At least two African–American jurors were among those finally seated in this case. The record does not
suggest the crimes prosecuted in this case
were in any way racially motivated. As in
Short, the record does not show the prosecutor was exercising the State’s peremptory
challenges to purposefully discriminate and
exclude jurors on the basis of race, and the
trial court’s decision to accept the prosecutor’s reasons for excusing the four African–
American jurors was not clearly erroneous.
Black v. State, 2001 OK CR 5, ¶ 31, 21 P.3d
1047, 1061, denied, 534 U.S. 1004, 122 S.Ct.
483, 151 L.Ed.2d 396 (2001)(review is only for
clear error by the trial court and we review
the record in a light most favorable to the
trial court’s ruling).
[6] ¶ 16 Defense counsel did not object to
the prosecutor’s exercise of peremptory challenge against Juror Equigua, and the State
4.

The State exercised its second peremptory to
excuse Juror McGaugh—a ‘‘white male’’ who
was previously prosecuted for DWI and DUI.

049

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

was therefore not required to give a raceneutral reason for her excusal. Because no
objection was made at trial, our review is for
plain error. Wackerly v. State, 2000 OK CR
15, ¶ 7, 12 P.3d 1, 7, cert. denied, 532 U.S.
1028, 121 S.Ct. 1976, 149 L.Ed.2d 768 (2001).
Coddington suggests Juror Equigua’s excusal is ‘‘probative of a pattern of discrimination.’’ We disagree. Coddington has not
made a prima facie showing the peremptory
challenge against Juror Equigua was made
on the basis of race. The record does not
establish that Juror Equigua was, in fact, a
woman of a minority race. See f. 1 supra.
We find no plain error.
¶ 17 In this case, the prosecutor’s exercise
of peremptory challenges against African–
American jurors because of prior contact
with the criminal justice system was a sufficiently, race-neutral reason to survive Coddington’s Batson objections. The ratio of
African–American jurors called at the beginning of voir dire (1:6) compared to those who
remained and were seated on Coddington’s
jury (1:5) was about the same. Coddington
has not shown he was deprived of a jury
composed of a fair cross-section of the community due to the excusal of minority jurors.
¶ 18 On the first day of witness testimony,
during the examination of Scott Cox, defense
counsel informed the trial court that Juror
Muller appeared to be ‘‘nodding off and
sleeping. She’s about to fall out of her
chair.’’ Defense counsel asked the trial court
to watch the juror and, at break, to talk to
her. Assistant District Attorney Reid also
noted the same conduct. The trial court
watched the juror and a short while later, the
trial court called the attorneys to the bench
and stated ‘‘[s]he is nodding off TTT’’. At
defense counsel’s request, the trial court
spoke with Juror Muller in chambers. During this colloquy, Juror Muller told the trial
court she was feeling strange and ‘‘not very
well;’’ she thought it was something to do
with her blood sugar. Juror Muller told the
trial court she was having difficulty with her
vision and walking.5
5.

Before opening statements, the trial court
made the following statement: ‘‘Does anybody
have any particular medical needs? Sometimes
I have people that are diabetics and they have
to eat candy or they have to take regular medi-

Okl.

445

¶ 19 Juror Muller tested her blood sugar in
the presence of the trial court, defense counsel and counsel for the State, and determined
it was high. When asked if there was anything she could do to bring it down, she told
the trial court exercise was all that she could
do.
¶ 20 The trial court allowed the parties to
question Juror Muller and her answers revealed she felt she had heard all of the
questions asked and answers given, did not
think she had missed anything, and felt she
could remain on the jury and be alert and
attentive. She admitted to defense counsel
that, in addition to her sleepiness, she had an
upset stomach and a little headache and that
it had been ‘‘gradually getting worse today.’’
¶ 21 After the parties questioned Juror
Muller, defense counsel asked the trial court
to continue to observe her and then to ‘‘revisit the issue TTT at 1:30’’ to see how she was
feeling. Defense counsel stated, ‘‘I think we
ought to go on. I mean, let’s keep putting
witnesses on and if she starts nodding off
again then we may have to stop it, Judge.
TTTT’’ The trial court again agreed to keep an
eye on her.
¶ 22 Following cross-examination of the
witness, court recessed for lunch and the
jurors were asked to return at 1:30. When
the jury returned, the trial court told the
parties, ‘‘[I]nformally I spoke with Juror
Muller. She insists that she’s doing just
fine.’’ Defense counsel asked the trial court
to continue to watch her. The record contains no further specific references to Juror
Muller.
[7] ¶ 23 In Proposition Three, Coddington contends the trial court’s failure to replace Juror Muller with an alternate juror
deprived him of his right to a fair trial by a
jury of twelve. Coddington submits the trial
court had the statutory authority to remove a
sick juror and to replace that juror with an
alternate and suggests his failure to use that
cations. Does anybody have any regular medication or anything that they need to take?
Anything at all?’’ The record reflects no juror
responded.

050

446

Okl.

142 PACIFIC REPORTER, 3d SERIES

authority sua sponte was an abuse of discretion.
¶ 24 A criminal defendant charged with
murder is entitled to a trial by a jury composed of twelve people. Okla. Const. art. II,
§ 19; U.S. Const. amends. VI, XIV. ‘‘In a
capital murder case in which the jury found
guilt and set punishment at death, the participation of a juror who ‘‘dosed (sic) during
parts of the trial’’ is an unacceptable degradation of due process which requires reversal.’’ Spunaugle v. State, 1997 OK CR 47,
¶ 34, 946 P.2d 246, 253, overruled on other
grounds in Long v. State, 2003 OK CR 14,
¶ 18, 74 P.3d 105.
[8–10] ¶ 25 Juror misconduct must be
proven by clear and convincing evidence.
Spunaugle, 1997 OK CR 47, ¶ 33, 946 P.2d at
253. ‘‘A trial judge has inherent power to
substitute a juror for good cause.’’ Miller v.
State, 2001 OK CR 17, ¶ 23, 29 P.3d 1077,
1082. 22 O.S.2001, § 601a provides for the
use of alternate jurors to replace jurors who
are sick or who have died; however, the trial
court’s discretion to substitute jurors is not
limited to cases of sickness or death. Miller,
2001 OK CR 17, ¶ 23, n. 5, 29 P.3d at 1083.
This discretion ought to be exercised with
great caution, especially in capital cases. Id.
¶ 26 The trial court could have exercised
its discretion and properly removed Juror
Muller and replaced her with an alternate
juror because she was obviously sleepy due
to a blood sugar problem. We found the
trial court’s belief that the juror in Miller
was ill was a sufficient basis for her dismissal. Id., 2001 OK CR 17, ¶ 26, 29 P.3d at
1083. However, in this case, defense counsel
did not request Juror Muller’s removal due
to illness and did not object when the trial
court did not remove her.
¶ 27 The trial court acted within its discretion by keeping Juror Muller on the jury,
and no plain error occurred. First, defense
counsel specifically did not request the trial
court to remove Juror Muller; rather, defense counsel stated the trial ‘‘ought to go
on’’ and asked the trial court to continue to
watch her. Second, the record does not conclusively show Juror Muller was sleeping;
6.

Miranda v. Arizona, 384 U.S. 436, 86 S.Ct.

she stated she had not missed any of the
questions asked or answered and felt she
could continue as an alert and attentive juror. Third, nothing further appears in the
record which would indicate her sleepiness
due to illness continued to be a problem after
the lunch recess on the first day of trial
testimony.
[11, 12] ¶ 28 Alternatively, Coddington
argues his trial counsel was ineffective for
failing to request the trial court to remove
this juror. While the trial court might properly have removed Juror Muller if the record
conclusively showed she was sleeping or was
too ill to continue, defense counsel specifically stated the trial ‘‘ought to go on’’ and did
not request the trial court to remove her as a
matter of trial strategy. In hindsight, it may
appear to Coddington that his defense counsel’s decision to give this juror another
chance was not appropriate, but that is not
sufficient to meet the test for ineffective assistance of counsel established in Strickland
v. Washington, 466 U.S. 668, 104 S.Ct. 2052,
80 L.Ed.2d 674 (1984). This Court does not
evaluate trial strategy in hindsight. Woodruff v. State, 1993 OK CR 7, ¶ 16, 846 P.2d
1124, 1133, cert. denied, 510 U.S. 934, 114
S.Ct. 349, 126 L.Ed.2d 313 (1993). Further,
the record does not establish this juror
missed any of the testimony due to inattentiveness or illness and Coddington has not
shown he was prejudiced by his trial counsel’s failure to request her removal from the
jury. Proposition Three does not warrant
relief.
FIRST STAGE ISSUES
[13] ¶ 29 In Proposition One, Coddington
claims his in custody extra judicial confession
should not have been admitted, because his
waiver of Miranda6 rights was ‘‘unknowing
and involuntary.’’ First, he argues that because he was read his Miranda rights in
relation to the robbery investigations, but not
in relation to the homicide investigation, his
subsequent confession to the homicide was
made in violation of his Fifth and Fourteenth
Amendment rights against self-incrimination
and right to counsel, and in violation of Okla.
1602, 16 L.Ed.2d 694 (1966).

051

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

Const. art. 2, § 21. Secondly, he argues that
he was incapable of knowingly and voluntarily waiving his rights at all, because he was
‘‘high, sleep deprived, hungry and suicidal’’ at
the time of the interrogation. Coddington
therefore claims the admission of his confession violated his Fifth and Fourteenth
Amendment rights under the federal constitution and corresponding provisions of the
Oklahoma Constitution.
¶ 30 During a hearing to determine the
admissibility of Coddington’s statements,7
former Oklahoma City police officer Smart
testified he advised Coddington of his Miranda rights after robbery detectives arrested him as a suspect in a string of armed
robberies. They were standing outside of
Coddington’s apartment when Coddington
began making voluntary statements. Smart
immediately read him his Miranda rights.
He stated Coddington said he understood his
rights, waived them, and continued to make
statements. He also signed a search waiver
for his apartment. He said Coddington did
not appear to be drunk or high on drugs; he
walked normally and was coherent of his
environment.
¶ 31 Former Oklahoma City police detective Despain interviewed Coddington at the
police department a couple of hours later.
Despain did not re-advise Coddington of his
Miranda rights because Coddington had already been read and waived those rights.
Coddington told Despain he remembered being so advised. Despain said Coddington did
not appear to be under the influence; he was
talkative, rational and alert. Despain’s interview with Coddington was videotaped.
¶ 32 Coddington does not dispute that he
was read his Miranda rights or that he
waived those rights at the time of his arrest
for the armed robberies. In fact, at trial,
Coddington admitted that he waived his
rights and voluntarily talked to the detectives
on this case. Coddington now complains that
he was not readvised of those rights when
the interrogation turned towards his involvement in the homicide. Because the invocation of one’s Miranda rights is non-offense
specific, Coddington argues the opposite
7.

Jackson v. Denno, 378 U.S. 368, 84 S.Ct. 1774,
12 L.Ed.2d 908 (1964) established a defendant’s

Okl.

447

must also be true—a knowing and voluntary
waiver of Miranda cannot occur unless the
suspect is advised of what crime or crimes he
is a suspect. In effect, he argues that his
waiver of Miranda and resulting statement
was compelled in violation of the Fifth
Amendment, because he waived his rights
without being informed he would be questioned about crimes for which he was not
arrested.
[14–16] ¶ 33 This argument ‘‘strains the
meaning of compulsion past the breaking
point.’’ Colorado v. Spring, 479 U.S. 564,
573, 107 S.Ct. 851, 857, 93 L.Ed.2d 954
(1987). Voluntariness of a confession is
judged by examining the totality of the circumstances, including the characteristics of
the accused and the details of the interrogation. Van White v. State, 1999 OK CR 10,
¶ 45, 990 P.2d 253, 267. The inquiry has two
aspects—the relinquishment of the right
must be voluntary in that it was a product of
free, deliberate choice, rather than coercion,
intimidation or deception; and, the waiver
must have been made with a full awareness
of the nature of the right being abandoned
and the consequences of the decision to abandon it. See Moran v. Burbine, 475 U.S. 412,
421, 106 S.Ct. 1135, 1141, 89 L.Ed.2d 410, 421
(1986). The trial court may properly find a
valid waiver of Miranda rights where the
totality of the circumstances show both an
‘‘uncoerced choice and the requisite level of
comprehensionTTTT’’ Id.; see also Lewis v.
State, 1998 OK CR 24, ¶ 34, 970 P.2d 1158,
1170, cert. denied, 528 U.S. 892, 120 S.Ct.
218, 145 L.Ed.2d 183 (1999). We have never
required the requisite level of comprehension
to include being informed of every possible
offense about which one might be questioned.
¶ 34 After hearing the officers’ testimony
at the in camera hearing, the trial court
watched Coddington’s videotaped confession
and found Coddington appeared to be ‘‘in
some sort of heightened state of intoxication.’’ However, the trial court found,
based on the videotape, that Coddington was
not threatened, coerced or promised anything, and nothing indicated his statements
right to an in camera hearing on the voluntariness of a confession.

052

448

Okl.

142 PACIFIC REPORTER, 3d SERIES

were made against his will. After considering the totality of the circumstances, the trial
court admitted the taped confession and the
physical evidence derived from it. The question of the voluntariness of Coddington’s
waiver was a fact question to be resolved by
the jury and the trial court instructed the
jury accordingly. The trial court’s ruling to
admit the statement was supported by competent evidence of the voluntary nature of
the statement. Bryan v. State, 1997 OK CR
15, ¶ 17, 935 P.2d 338, 352, cert. denied, 522
U.S. 957, 118 S.Ct. 383, 139 L.Ed.2d 299
(1997).
¶ 35 Officer Smith testified he read Miranda warnings to Coddington, and Coddington indicated he understood his rights and
waived them. At the beginning of the interview at the police station, Officer Despain
said, ‘‘Ok (sic), again, I’m Sgt. DeSpain, this
is Det. Wes Weaver, uh now I understand uh
that Sgt. Smart advised you of your rights
earlier and you signed a search waiver.’’
Coddington responded, ‘‘Yeah.’’ Sgt. Despain
said, ‘‘You remember that.’’ Coddington replied, ‘‘Yeah.’’ Throughout the interview,
Coddington was cooperative and did not appear to be coerced or threatened in any way.
Further, after answering questions relating
to the burglaries, Coddington said, ‘‘Uh, you
need to get homicide down here.’’ He then
confessed to Hale’s murder and willingly provided the detectives with details about the
crime. At trial, Coddington testified he was
read his rights and voluntarily waived them.
¶ 36 There is no question that Coddington
was informed of his Miranda rights and
waived them. He exhibited no reluctance in
speaking with the detectives about the robberies or the homicide. In fact it was he who
volunteered statements about the homicide
and initiated the discussion about the homicide. The relevant inquiry is whether the
suspect understands the rights at stake and
the consequences of waiving them. Colorado
v. Spring, 479 U.S. at 573, 107 S.Ct. at 857.
His ‘‘awareness of all the possible subjects of
questioning in advance of interrogation is not
relevant to determining whether the suspect
voluntarily, knowingly, and intelligently
waived his Fifth Amendment privilege.’’ Id.,
479 U.S. at 577, 107 S.Ct. at 859. The trial

court’s decision to admit Coddington’s confession and let the jury determine whether it
was knowingly and voluntarily made was
proper and was supported by the record.
[17] ¶ 37 Coddington also argues he was
‘‘incapable of knowingly and voluntarily waiving his rights as he was high, sleep deprived,
hungry and suicidal at the time of the interrogation.’’ While the officers who testified at
the Jackson v. Denno hearing both indicated
Coddington appeared coherent and rational
and neither thought he was under the influence of intoxicants, the trial court did not
agree and specifically found that Coddington
appeared to be in some ‘‘heightened state of
intoxication.’’ Coddington admitted he had
been using cocaine for several days and had
not eaten or slept. Still, his fatigue and
hunger from drug usage do not render his
waiver of Miranda involuntary.
[18] ¶ 38 ‘‘[S]elf-induced intoxication,
short of mania, or such an impairment of the
will and mind as to make the person confessing unconscious of the meaning of his words,
will not render a confession inadmissible, but
goes only to the weight to be accorded to it.’’
Moles v. State, 1974 OK CR 57, ¶ 6, 520 P.2d
822, 824. Coddington gave specific details
about both the robberies and the murder of
Mr. Hale, and appeared to understand exactly what was going on. That he also confessed to crimes which could not be corroborated
does not show he was so intoxicated that his
Miranda waiver was not knowingly and voluntarily made. Further, from his prior contacts with law enforcement and prior convictions, we can assume he was familiar with
and understood the ‘‘concepts encompassed
in Miranda.’’ Smith v. Mullin, 379 F.3d
919, 934 (10th Cir.2004).
¶ 39 Coddington simply has not shown his
Miranda rights waiver was not knowingly
and voluntarily made. The admission of his
confession and the physical evidence derived
therefrom did not deprive Coddington of his
state or federal constitutional rights. Proposition One is therefore denied.
[19] ¶ 40 In Proposition Four, Coddington argues the trial court’s limitations on the
testimony of Dr. J.R. Smith deprived him of
his Fifth, Sixth, and Fourteenth Amendment

053

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

rights to present a defense and confront the
State’s evidence. Prior to trial, the State
filed a Motion in Limine to prohibit the defense expert from testifying that Coddington
could not have formed the requisite intent of
malice aforethought due to his cocaine intoxication. At trial, prior to the examination of
the expert defense witness, the trial court
sustained the State’s Motion in Limine,
‘‘keeping in line with White v. State,’’ and
instructed defense counsel that its expert
could ‘‘suggest the inferences the jury should
draw from the application of his specialized
knowledge TTT as long as he refrained from
merely telling the jury what result to reach.’’
Following the trial court’s ruling, defense
counsel argued that Hooks v. State and
White v. State8 were unconstitutional and
violated the ‘‘Fourteenth Amendment fundamental fairness clause and equal provisions
in the Oklahoma state constitution.’’ The
defense made the following offer of proof in
response to the trial court’s ruling:
If permitted to testify as to the effect of
James Coddington’s cocaine addiction and
his ability to form malice aforethought Dr.
Smith would testify that on 5 March in his
opinion that to a reasonable degree of
medical certainty James Coddington would
not have been able to form the intent of
malice aforethought and that he would
have been experiencing the effects of the
cocaine to such a degree that the brain
would be unable to formulate that specific
intent and we would propound that question and we would urge the grounds that
we have made in the previous record.
[20–22] ¶ 41 Testimony in the form of an
opinion or inference otherwise admissible is
not objectionable because it embraces an ultimate issue to be decided by the trier of fact.
12 O.S.2001, § 2704. ‘‘Any properly qualified
expert testifying in accordance with the standards governing admissibility of expert testimony may offer an opinion on the ultimate
issue if it would assist the trier of fact.’’
8.

In Hooks v. State, 1993 OK CR 41, ¶ 16, 862
P.2d 1273, 1279, we said that when the defendant attempts to elicit expert testimony on the
issue whether he possessed the requisite intent to
commit the crime in question, that testimony
should be excluded. In White v. State, 1998 OK
CR 69, ¶¶ 14–15, 973 P.2d 306, 311, where the

Okl.

449

Johnson v. State, 2004 OK CR 25, ¶ 16, 95
P.3d 1099, 1104. The ‘‘otherwise admissible’’
language of § 2704 must be read in context
with 12 O.S.2001, §§ 2403 (amended 2003),
2701, 2702 (amended 2002). Romano v.
State, 1995 OK CR 74, ¶ 21, 909 P.2d 92, 109,
cert. denied, 519 U.S. 855, 117 S.Ct. 151, 136
L.Ed.2d 96 (1996). ‘‘While expert witnesses
can suggest the inferences which jurors
should draw from the application of specialized knowledge to the facts, opinion testimony which merely tells a jury what result to
reach is inadmissible.’’ Id.; see also Hooks
v. State, 1993 OK CR 41, ¶ 13, 862 P.2d 1273,
1278, cert. denied, 511 U.S. 1100, 114 S.Ct.
1870, 128 L.Ed.2d 490 (1994). ‘‘[W]here the
normal experiences and qualifications of laymen jurors permit them to draw proper conclusions from the facts and circumstances,
expert conclusions or opinions are inadmissible.’’ Gabus v. Harvey, 1984 OK 4, ¶ 18, 678
P.2d 253, 255.
¶ 42 The normal experiences and qualifications of laymen jurors likely do not provide
an understanding of the effects of cocaine
intoxication on one’s ability to control behavior, to think rationally, and to form an intent
to kill. An expert’s opinion on the effects of
cocaine intoxication would have been helpful
to the trier of fact. While Dr. Smith could
not, under our case law, tell the jury what
result to reach, Dr. Smith could properly
have testified that, in his expert medical
opinion, Coddington would have been unable
to form the requisite malice. Such testimony
would not ‘‘simply have told the jury what
result to reach.’’ Experts for the State routinely testify to conclusions drawn from their
specialized knowledge even on ultimate issues. See e.g. Lott v. State, 2004 OK CR 27,
¶¶ 84–88, 98 P.3d 318, 342–343, cert. denied,
544 U.S. 950, 125 S.Ct. 1699, 161 L.Ed.2d 528
(2005)(State’s expert on sexual assault could
properly testify rape was result of non-consensual sex and conclude oral sodomy had
occurred based upon her examination of
physical evidence); Abshier v. State, 2001
defendant sought to introduce expert testimony
on whether his intoxication affected his mental
state and prevented him from forming malice
aforethought, we stated such evidence ‘‘was not
prohibited by Hooks ’’ even though it would have
embraced an ultimate issue to be decided by the
trier of fact.

054

450

Okl.

142 PACIFIC REPORTER, 3d SERIES

OK CR 13, ¶ 116, 28 P.3d 579, 604, cert.
denied, 535 U.S. 991, 122 S.Ct. 1548, 152
L.Ed.2d 472 (2002), rev’d on other grounds
by Jones v. State, 2006 OK CR 17, 134 P.3d
150 (State’s expert witness could testify that
child was conscious and crying during beating from defendant based upon his experience and studies); Welch v. State, 2000 OK
CR 8, ¶¶ 21–23, 2 P.3d 356, 368–369, cert.
denied, 531 U.S. 1056, 121 S.Ct. 665, 148
L.Ed.2d 567 (2000)(Detective’s testimony
that victim’s death was not self-inflicted or
the result of auto-erotic behavior, that her
death was not accidental but intentionally
inflicted, and her wounds were not consistent
with sexual asphyxiation was properly admitted and based upon his specialized knowledge
of homicide investigations).
[23] ¶ 43 Here, Coddington raised sufficient evidence for the trial court to instruct
the jury on his defense of voluntary intoxication. When a defendant raises the defense
of voluntary intoxication, an expert may
properly offer his or her opinion on whether
the defendant’s actions were intentional.
Malicoat v. State, 2000 OK CR 1, ¶ 11, 992
P.2d 383, 395, cert. denied, 531 U.S. 888, 121
S.Ct. 208, 148 L.Ed.2d 146 (2000); White,
1998 OK CR 69, ¶ 15, 973 P.2d at 311. Dr.
Smith could have properly testified that, in
his opinion and based upon his specialized
knowledge, he believed Coddington would
have been unable to form the requisite deliberate intent of malice aforethought. The
trial court erred and abused its discretion by
sustaining the Motion in Limine and so limiting the expert witness’ testimony. See Davis
v. State, 2004 OK CR 36, ¶ 30, 103 P.3d 70, 79
(admission of evidence lies within the discretion of the trial court).
¶ 44 Coddington contends the trial court’s
limitation of Dr. Smith’s testimony violated
his fundamental right to present a defense,
was prejudicial, and warrants reversal of his
conviction. The State responds that Coddington’s intoxication defense was ‘‘meritless,’’ would not have been affected by the
proposed testimony, and the limitation on Dr.
Smith’s testimony was harmless beyond a
reasonable doubt. We disagree with the
State’s position that Coddington’s jury was
‘‘erroneously instructed’’ on the defense of

voluntary intoxication. The trial court found
sufficient evidence of intoxication and also
noted the State itself had suggested it. The
question is whether the proposed, excluded,
testimony would have made a difference; we
believe it would not.
¶ 45 Dr. Smith testified about Coddington’s
family history, his medical history, and his
history of drug use. He testified about the
properties of cocaine and about the effects of
cocaine in general upon the body and the
brain. He testified about cocaine addiction,
how it happens quickly, and how certain people, like Coddington, are more vulnerable to
it. He testified that Coddington was a cocaine addict. He testified how cocaine affects the part of the brain one thinks with,
how it affects what one does, one’s ethics,
one’s judgment, how one behaves, and how
one makes decisions. Seemingly the only
thing his testimony did not cover was how
cocaine intoxication might have affected Coddington on March 5, 1997, based upon his
examination of Coddington’s medical and
drug abuse history, upon his observation of
the videotaped confession, and based upon
his prior experience and studies of cocaine
addicts and addiction. On one hand, the jury
heard testimony from Dr. Smith which would
have been helpful to its consideration of Coddington’s voluntary intoxication defense; on
the other hand, the absence of the expert’s
opinion on Coddington’s ability to specifically
intend to commit the homicide was notable.
[24–26] ¶ 46 ‘‘Defendants in criminal trials deserve to have their day in court, to
require the State to meet its burden of proof
through evidence presented in open court, to
tell their stories, and to defend themselves
against the crimes of which they have been
charged.’’ Malone v. State, 2002 OK CR 34,
¶ 5, 58 P.3d 208, 209. A defendant’s due
process right under the Fifth Amendment
and to compulsory process under the Sixth
Amendment includes the right to present
witnesses in his or her own defense. United
States v. Dowlin, 408 F.3d 647, 659 (10th
Cir.2005); see also Washington v. Texas, 388
U.S. 14, 18–19, 87 S.Ct. 1920, 1923, 18 L.E.2d
1019 (1967). ‘‘The right to offer the testimony of witnesses TTT is in plain terms the
right to present a defenseTTTT This right is a

055

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

fundamental element of due process of law.’’
Washington, id.
¶ 47 To determine whether Coddington
was denied this fundamental right, we must
first determine whether the trial court erred
in excluding the testimony. Then, to establish constitutional error, Coddington must
show the evidence was material to the extent
its exclusion violated his right to present a
defense. Dowlin, id. To determine materiality, we examine the entire record and must
ask ‘‘whether the evidence was of such an
exculpatory nature that its exclusion affected
the trial’s outcome.’’ (citations omitted) Id.
¶ 48 The trial court clearly erred by limiting the testimony of Dr. Smith on the issue
of Coddington’s ability to form malice and
Coddington’s conviction cannot stand unless
we find the error was harmless beyond a
reasonable doubt. See Chapman v. California, 386 U.S. 18, 87 S.Ct. 824, 17 L.Ed.2d 705
(1967). Such testimony, while helpful to the
jury and certainly material, was not exculpatory in the sense that it would have exonerated the defendant; but, if believed by the
jury, the evidence certainly might have reduced the degree of homicide for which Coddington was convicted.
[27] ¶ 49 The exclusion of Dr. Smith’s
expert opinion testimony relating to Coddington’s specific ability to form the requisite
intent for malice murder did not prevent
Coddington from putting forth significant evidence relating to cocaine intoxication. Dr.
Smith testified extensively about the effects
of cocaine addiction and intoxication on the
brain, on decision-making and behavior. The
evidence in this case was overwhelming, and
we find, beyond a reasonable doubt, that Dr.
Smith’s expert opinion on the ultimate issue
of whether Coddington could form the requisite malice would not have made a difference
in the jury’s determination of guilt. We find
the error was harmless beyond a reasonable
doubt. Chapman v. California, 386 U.S. 18,
24, 87 S.Ct. 824, 828, 17 L.Ed.2d 705 (1967).
[28] ¶ 50 In Proposition Five, Coddington
argues he was denied due process, a fair trial
and a reliable sentence because improper
victim impact evidence was admitted during
the first stage of trial. First, he complains

Okl.

451

that Ron Hale’s unsolicited testimony that
his brain disorder ‘‘got worse’’ when ‘‘my dad
died’’ was irrelevant, prejudicial and constituted improper victim impact evidence. Secondly, he complains that the introduction of a
photograph of the deceased while alive was
irrelevant, prejudicial, denied him of a reliable sentence, and violated ex post facto principles.
¶ 51 During direct examination, because
Ron Hale had obvious difficulty answering
the prosecutor’s questions, the prosecutor
asked him if he suffered from a brain disease
which made it difficult for him to come up
with certain words. Hale answered,
Yes. It’s called Pick’s disease. I lose simple words on the left side of my brain and
it’s because—even things that you say I
know what you’re talking about, but I can’t
hardly say them sometimes. Because this
went way back in time to the day my dad
died and that’s when it got worse.
Upon defense counsel’s announcement that it
would not cross-examine Hale, the witness
said, ‘‘Okay. I do have something that me
and my sister and my brother would like to
say down the road if we can TTT There’s
something else I would like to say.’’ Coddington complains this testimony was not
only irrelevant and prejudicial but also that it
constituted impermissible victim impact evidence. The State responds that the testimony relating to Pick’s Disease was necessary
to explain the witness’ difficulty testifying;
the State agrees Hale’s last statement was
inappropriate, but so innocuous that it did
not amount to error warranting relief.
[29] ¶ 52 There was no objection to
Hale’s testimony and our review is for plain
error. Lott, 2004 OK CR 27, ¶ 70, 98 P.3d at
340 (failure to object to witness testimony or
to cross-examine witness waives all but plain
error with regard to witness testimony).
While the victim’s son’s neurological problem
was not relevant to or probative of any issue
to be proved at trial, the State elicited this
testimony to explain to the jury why this
witness had obvious difficulty expressing
himself and answering the State’s questions.
We have no problem with its admission.
Hale’s testimony that his condition got worse
after his father died called the jury’s atten-

056

452

Okl.

142 PACIFIC REPORTER, 3d SERIES

tion to the effect of his father’s murder on
him. This testimony was not solicited and no
further attention was called to it by either
the State or the defense. While it is improper for the prosecutor to ask jurors to have
sympathy for the victim(s) and improper to
introduce victim impact evidence during the
first stage of trial, Hale’s testimony relating
to the aggravation of his disease following
the death of his father was not solicited and
was not so prejudicial to warrant relief. We
find no plain error.9 Review of this witness’s
testimony reflects a number of non-responsive and/or confusing answers and it is unlikely the jury was at all affected by Hale’s
spontaneous, unsolicited statement.
[30] ¶ 53 Coddington also complains the
admission of a single, pre-mortem photograph of the victim was irrelevant, prejudicial, denied him of a reliable sentence, and
violated ex post facto principles. Coddington
argues that when the legislature amended
Section 2403, it created a per se rule of
relevancy for pre-mortem photographs in
homicide cases.
¶ 54 Title 12 O.S.Supp.2003, § 2403 provides:
Although relevant, evidence may be excluded if its probative value is substantially outweighed by the danger of unfair
prejudice, confusion of the issues, misleading the jury, undue delay, needless
presentation of cumulative evidence, or
unfair and harmful surprise. However,
in a prosecution for any criminal homicide, an appropriate photograph of the
victim while alive shall be admissible
evidence when offered by the district
attorney to show the general appearance
and condition of the victim while alive.

issue’’ and its ‘‘relevancy outweighs the danger of prejudice to the defendant.’’ Thornburg v. State, 1999 OK CR 32, ¶ 23, 985 P.2d
1234, 1244; see e.g. Tilley v. State, 1998 OK
CR 43, ¶ 32, 963 P.2d 607, 615; Valdez v.
State, 1995 OK CR 18, ¶ 64, 900 P.2d 363,
381, cert. denied, 516 U.S. 967, 116 S.Ct. 425,
133 L.Ed.2d 341 (1995); Staggs v. State, 1991
OK CR 4, ¶ 7, 804 P.2d 456, 458; Cargle v.
State, 1995 OK CR 77, ¶ 82, 909 P.2d 806,
830. In Hogan v. State, 2006 OK CR 19,
¶ 60, 139 P.3d 907, this Court recognized that
these pre–2002 amendment cases have been
superceded by statute.
¶ 55 Coddington argues the placement of
the amendatory language in the statutory
provision which sets forth the balancing test
for the exclusion of otherwise relevant evidence and the use of the words ‘‘shall be
admissible’’ suggests the Legislature did not
intend for the balancing test to apply to this
whole category of evidence. See Lenion v.
State, 1988 OK CR 230, ¶ 3, 763 P.2d 381, 382
(‘‘shall’’ is generally considered mandatory
and not permissive). By this amendment,
the Legislature effectively overruled those
cases where this Court required the live photograph to be ‘‘relevant to some material
issue’’ and its relevancy to outweigh ‘‘the
danger of prejudice to the defendant.’’ Coddington proposes that the trial court can no
longer exercise its discretion to exclude this
whole category of evidence and it will be
admitted without regard to its relevance and
without regard to whether the evidence
would unfairly prejudice the defendant. He
argues it violates his statutory rights under
the Oklahoma Evidence Code and deprives
him of procedural and substantive due process.

(emphasis added). Prior to its amendment in
2002, this Court interpreted the former Section 2403 to favor the admission of relevant
evidence, but repeatedly held the admission
of pre-mortem photographs of a homicide
victim were inadmissible unless the photograph(s) was/were ‘‘relevant to some material

[31, 32] ¶ 56 We disagree.
The fundamental rule of statutory construction is to ascertain and give effect
to the intention of the legislature as
expressed in the statute. Thomas v.
State, 404 P.2d 71, 73 (Okl.Cr.1965). ‘‘A
statute should be given a construction

9.

S.Ct. 2052, 2065, 80 L.Ed.2d 674 (1984)(defendant must be able to overcome the presumption
that counsel’s actions could not be considered
sound trial strategy).

We also find trial counsel was not ineffective
for failing to object to Hale’s unsolicited statements. His decision not to call the jury’s attention to the statement could be considered sound
trial strategy. Strickland, 466 U.S. 668, 689, 104

057

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

according to the fair import of its words
taken in their usual sense, in connection
with the context, and with reference to
the purpose of the provision.’’ Jordan v.
State, 763 P.2d 130, 131 (Okl.Cr.1988).
Wallace v. State, 1996 OK CR 8, ¶ 4, 910 P.2d
1084, 1086. Unlike Oregon and Utah which
have similar statutes mandating the admissibility of pre-mortem photographs 10, Oklahoma’s amended § 2403 requires admission
of an ‘‘appropriate’’ photograph of the homicide victim. The requirement that the photograph be ‘‘appropriate’’ preserves the trial
judge’s discretion in determining the admissibility of this evidence.11 If the trial court
determines the photograph is not appropriate—that its probative value is substantially
outweighed by the danger of unfair prejudice, confusion of the issues, misleading the
jury, undue delay, needless presentation of
cumulative evidence, or unfair and harmful
surprise—the photograph can and should be
excluded. See 12 O.S.Supp.2003, § 2403.
The amended statute does not deprive a defendant of the statutory principles of admissibility set forth in the Oklahoma Discovery
Code.
¶ 57 The pre-mortem photograph of the
victim was properly admitted. The photograph the State originally sought to introduce was of the deceased holding a small
child, presumably a grandchild. The defense
objected that the statute did not contemplate
a photograph of anyone but the deceased and
objected that the photograph was more prejudicial than probative.12 The State offered
to ‘‘cover up’’ the child with a Post–It note.
The trial court ruled the Post–It note cover
up was not sufficient and agreed to admit the
photograph only after the State redacted the
child from the picture. State’s Exhibit 87
was thereafter admitted and it pictures only
the deceased. The trial court’s action in this
case demonstrates his exercise of discretion
and the application of the probative value/un10. See Or. Rev.Stat. § 41.415 (2001) and UTAH
CODE ANN. § 77–38–9(7)(1999).
11. While Oklahoma, Oregon and Utah are
among the few States which require the admission of pre-mortem victim photographs offered
by the prosecution in homicide cases, a majority
of States for many years have held such photographs to be admissible when relevant. See e.g.

Okl.

453

fair prejudice balancing test allowed by the
amended statute.
¶ 58 In Payne v. Tennessee, 501 U.S. 808,
827, 111 S.Ct. 2597, 2609, 115 L.Ed.2d 720
(1991), the Supreme Court held that victim
impact evidence is relevant for a jury to
meaningfully assess the defendant’s moral
culpability and blameworthiness and is only
inadmissible where it is so unduly prejudicial
that it renders the trial fundamentally unfair.
The introduction of a single pre-death photograph of the victim was appropriate to show
his general appearance and condition prior to
his death. It did not inject passion, prejudice, or other arbitrary factors into the sentencing stage more than any other relevant
victim impact evidence. We find the trial
court did not abuse its discretion when it
admitted the photograph, the statute is not
unconstitutional on its face or as applied, and
Coddington was not deprived of a fair trial or
a fair sentencing proceeding as a result of its
admission.
[33, 34] ¶ 59 Section 2403, as amended,
also does not run afoul of ex post facto principles. The prohibition against ex post facto
law requires the finding of two elements:
that the law was enacted after the conduct to
which it is being applied and that it must
disadvantage the offender affected by it.
Gilson v. State, 2000 OK CR 14, ¶ 97, 8 P.3d
883, 914, cert. denied, 532 U.S. 962, 121 S.Ct.
1496, 149 L.Ed.2d 381 (2001). In Neill v.
Gibson, 278 F.3d 1044 (10th Cir.2001), the
Tenth Circuit rejected a claim that Oklahoma’s victim impact evidence statute violated the Ex post Facto and Due Process clauses. In Neill, the appellant advanced the
same argument as that raised by Coddington—that application of the statute, not in
effect at the time of his crime, implicated the
fourth category of ex post facto legislation recognized in Calder v. Bull, 3 U.S.
(3 Dall.) 386, 390, 1 L.Ed. 648 (1798)—
State v. Broberg, 342 Md. 544, 556–557, 677 A.2d
602, 607–608 (1996)(citing other jurisdictions
upholding admissibility of in-life photographs).
12. Defense counsel also objected that the statute
should not apply to Coddington because it was
not in effect at the time he committed the offense. (Tr.III 8–9)

058

454

Okl.

142 PACIFIC REPORTER, 3d SERIES

‘‘[e]very law that alters the legal rules of
evidence, and receives less, or different
testimony, than the law required at the
time of the commission of the offence, in
order to convict the offender.’’
Id. at 1051. Neill relied on Carmell v. Texas,
529 U.S. 513, 120 S.Ct. 1620, 146 L.Ed.2d 577
(2000), arguing the Supreme Court reaffirmed the fourth category of Calder and noting
the state court (this Court) rejected his claim
below without addressing this category of ex
post facto violations. Rejecting Neill’s claim,
the Tenth Circuit said, ‘‘Oklahoma’s victim
impact statute does not change the quantum
of evidence necessary for the State to obtain
a death sentence, nor does it otherwise subvert the presumption of innocence.’’ Id. at
1051, citing Carmell, 529 U.S. at 530–34, 120
S.Ct. 1620, and Thompson v. Missouri, 171
U.S. 380, 387, 18 S.Ct. 922, 43 L.Ed. 204
(1898). See also Pennington v. State, 1995
OK CR 79, ¶¶ 78–80, 913 P.2d 1356, 1372,
cert. denied, 519 U.S. 841, 117 S.Ct. 121, 136
L.Ed.2d 72 (1996). Further, the ‘‘fourth criterion’’ set forth in Calder does not prohibit
the application of new evidentiary rules in
trials for crimes committed before the evidentiary changes. See e.g. Collins v. Youngblood, 497 U.S. 37, 43, f. 3, 110 S.Ct. 2175,
2719, f. 3, 111 L.Ed.2d 30 (1990).
¶ 60 Like victim impact evidence, the admissibility of a single Section 2403 ‘‘live photograph’’ does not change the quantum of
evidence necessary for the State to obtain a
conviction and also does not subvert the presumption of innocence. Application of the
amended Section 2403 in Coddington’s case
does not violate the ex post facto principles
set forth in either the federal or our state
constitution. U.S. Const. art. I, § 9; Okla.
Const. art.II, § 15.
[35] ¶ 61 In Proposition Six, Coddington
complains three prosecution witnesses 13 testified to the details of the crime scene and to
the victim’s condition. He argues the presentation of this cumulative evidence during
the first stage of trial unfairly prejudiced him
and resulted in an unfair trial and sentencing
13. The prosecution witnesses were EMTs Jeff
Hanlon and Richard Archer, and police officer

determination in violation of his Fifth,
Eighth, and Fourteenth Amendment rights.
[36] ¶ 62 Trial counsel did not object to
the first two witnesses—Hanlon and Archer.
Both were first-responder EMTs and each
testified about what he saw at the crime
scene and described the victim’s condition at
that time. All but plain error with regard to
the cumulative nature of this testimony is
waived by trial counsel’s failure to object.
Admission of evidence is left to the sound
discretion of the trial court and will not be
disturbed absent an abuse of discretion. See
e.g. Williams v. State, 2001 OK CR 9, ¶ 94,
22 P.3d 702, 724, cert. denied, 534 U.S. 1092,
122 S.Ct. 836, 151 L.Ed.2d 716 (2002). Allowing two witnesses to testify about the
murder scene and the victim’s condition was
not an abuse of discretion and we find no
plain error.
¶ 63 When counsel did object to the third
witness’s description of the crime scene, the
trial court acknowledged the testimony was
somewhat cumulative and instructed the
prosecutor to lay a brief foundation for introduction of the photographic evidence.
Thereafter, the witness testified sufficiently
to lay the foundation for photographic evidence, and certain photographic evidence was
admitted.
[37] ¶ 64 Coddington submits the trial
court erred by allowing three witnesses to
testify about the ‘‘same’’ thing and to allow
the admission of photographic evidence depicting the information contained in the testimony. We disagree. When trial counsel
objected, the trial court properly instructed
the prosecutor to ‘‘lay a brief foundation’’ for
the introduction of the photographic evidence. Thereafter, State’s Exhibits 1, 3, 4,
23, 28 and 67 were identified and admitted
into evidence without objection. The photographs were properly admitted during the
testimony of Scott Cox and were not so
cumulative or prejudicial as to be inadmissible and no error occurred. Accordingly, we
will not find Coddington was prejudiced by
cumulative testimony, or deprived of his funScott Cox.

059

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

damental rights to a fair trial and due process of law.
[38] ¶ 65 In Proposition Seven, Coddington contends the State did not present sufficient evidence to sustain his conviction for
First Degree Murder. Coddington specifically challenges the sufficiency of the State’s
proof on the element of malice aforethought.
At trial, and now on appeal, Coddington submits he did not intend to kill Hale. He argues
that all of the evidence of the element of
malice aforethought was circumstantial and
suggests that, under the reasonable hypothesis standard, the evidence was insufficient to
exclude every reasonable hypothesis but guilt
on this element.
¶ 66 In Easlick v. State, 2004 OK CR 21,
¶ 15, 90 P.3d 556, 559, we abandoned the
‘‘reasonable hypothesis’’ test and adopted a
unified standard of review for direct and
circumstantial evidence in claims of insufficient evidence. Prior to Easlick, we looked
to the evidence as a whole in determining
which standard of review to apply—not just
the type of evidence offered in support of a
single element. Bland, 2000 OK CR 11, ¶ 23,
4 P.3d at 713; see also Davis v. State, 2004
OK CR 36, ¶ 27, 103 P.3d 70, 79. Accordingly, we will review Coddington’s claim challenging the sufficiency of the evidence by
determining whether, in a light most favorable to the State, a rational trier of fact could
have found the essential elements of the
crime beyond a reasonable doubt. Spuehler
v. State, 1985 OK CR 132, ¶ 7, 709 P.2d 202,
203–204; Easlick, 2004 OK CR 21, ¶ 15, 90
P.3d at 559.

Okl.

455

hammer from the place where Coddington
said it would be—from a creek over the fence
just west of Coddington’s apartment. Former Oklahoma City police officer Glen Despain interviewed Coddington after his arrest
at the police station. During the interview,
after admitting to his involvement in a string
of robberies, Coddington himself turned the
conversation towards the homicide. Coddington confessed to killing Hale by hitting
him in the head with the hammer. Coddington told officer Despain where the hammer
was that he used to kill Hale; officer Despain
was also among the officers who recovered
the hammer from the location where Coddington said it would be. The Chief Medical
Examiner for the State of Oklahoma testified
that Hale died from blunt force head trauma—probably three or four blows to the
head and also had defensive wounds on his
hands. One skull injury suggested a direct
blow and was in the shape of a cross.
¶ 68 At trial, Coddington’s expert witness
on symptoms of cocaine intoxication and addiction (Dr. Smith) said Coddington told him
he knew he had done wrong by killing, admitted he hit Hale three or four times and
took money from him when he realized what
he had done. Dr. Smith testified he was able
to describe the attack in great detail; he
knew what clothes he wore, the denominations of bills he removed from Hale’s pocket,
and what part of the hammer he hit Hale
with.

¶ 67 Hale’s neighbors, Jeff Pence and Nathan Kirkpatrick, each testified he saw a
gray Honda parked in Hale’s driveway in
front of the garage between 5:30 and 6:30
p.m. on the day Hale was murdered.14 Kirkpatrick also testified he saw a white male
driving the Honda. Greg Brewer, owner of
the Honda Salvage Yard and Coddington’s
employer, testified that he loaned Coddington a 1984 gray Honda the day before Hale’s
murder. Former Oklahoma City police detective Robert Smart testified he and several
other police officers recovered a ‘‘rough-in’’

¶ 69 Coddington testified and admitted he
went to Hale’s house around 5:00 p.m. on
March 5, 1997, intending to borrow money
from Hale to buy more cocaine. He watched
television with Hale for one and a half to two
hours and smoked cocaine in Hale’s bathroom during that time. Coddington testified
Hale knew he was using, asked him what was
wrong, and told him to get back into treatment. When Coddington asked Hale to borrow some money, he refused and told Coddington to leave. Coddington testified as he
approached the door with Hale behind him,
he saw a hammer on the dishwasher,
grabbed it and hit Hale with the weapon.

14. Pence testified he saw the Honda parked
there around 5:50 p.m.; Kirkpatrick testified he

saw the car parked there between 5:30 and 6:30
p.m.

060

456

Okl.

142 PACIFIC REPORTER, 3d SERIES

Although Coddington testified he did not go
there intending to kill or harm Hale, he
admitted on cross-examination that he struck
Hale three times even though Hale was no
threat after the first blow. He testified he
did not call the police because he did not
want to get caught.
[39, 40] ¶ 70 The evidence in this case
consisted of both circumstantial and direct
evidence.15 While Coddington denied having
the intent to kill Hale, the circumstances
surrounding his murder suggest it was committed with intent. Coddington attacked
Hale after Hale refused to give him money
for drugs. He hit Hale with the hammer
three times; Hale had defensive wounds, and
there was significant blood spatter. Malice,
the deliberate intention to take the life of
another without justification, may be formed
in an instant. Ullery v. State, 1999 OK CR
36, ¶ 31, 988 P.2d 332, 347. ‘‘A design to
effect death is inferred from the fact of killing, unless the circumstances raise a reasonable doubt whether such design existed.’’ 21
O.S.2001, § 702. This Court will accept all
reasonable inferences and credibility choices
that tend to support the verdict. Bland,
2000 OK CR 11, ¶ 24, 4 P.3d at 713. Here,
the jury obviously did not find Coddington’s
denial of malice to be credible. In a light
most favorable to the State, the evidence
presented was sufficient for a rational trier
of fact to find the essential elements of first
degree murder beyond a reasonable doubt.
Spuehler, id. Proposition Seven does not
warrant relief.
SECOND STAGE ISSUES
[41] ¶ 71 In Proposition Eight, Coddington argues he was deprived of the right to a
constitutionally sound capital sentencing proceeding when the trial court precluded the
admission of the videotaped statement of his
mother. Prior to trial, the defense filed an
15. Coddington’s own testimony constituted direct evidence of the crime as he admitted killing
Hale. See Hooks v. State, 2001 OK CR 1, ¶ 8, f. 7,
19 P.3d 294, 305 (a defendant’s testimony does
not provide direct evidence of a crime unless he
includes actual direct evidence of the crime).
16. In support of the Application, Coddington
averred Hood was an ‘‘essential punishment
state (sic) witness,’’ would testify extensively

Application to Take Testimony of Out of
State Witness. Coddington sought a videotaped statement from his mother, Gayla
Hood, to preserve her testimony for the second stage of trial.16 At the time of the
Application, Hood was incarcerated at the
Federal Medical Center Penitentiary at
Carswell Air Force Base in Fort Worth, Texas, suffering from serious heart problems
which made death likely and imminent.
¶ 72 A hearing on the Application was held
May 4, 2000. There, defense counsel Spradlin stated
TTT We wish to preserve her testimony
in the event that she does pass away before our trial. And also in the event that if
she is still living at the time of our trial, it
is entirely possible her physicians would
not let her travel because of her illness.
I have verified in the past, by speaking
directly with her doctor, that she does,
in fact, have a heart condition. She has
had several heart attacks, several angioplasties. She has serious heart problems which are prevalent in the family
TTT So it is a serious issue at this point.
And she contacted me last week and expressed that she was no longer able to
have any further operations. Her condition continued to deteriorate and her doctor informed her that her heart was just
giving out.
So TTT what we are asking to do is propound interrogatories TTT provide a set
TTT to the prosecution and then they, in
turn, would provide their cross-interrogatories to us. Then we would submit those
interrogatories to the Court for approval.
And we would like to go to Ft. Worth to
the Federal Medical Center at Carswell
Air Force Base and take that testimony
both by transcription and on videotape.
about child abuse suffered by Coddington, suffered from cardiac failure and her condition was
inoperable and deteriorating. Accompanying the
Application was a Notice filed by defense counsel
stating Hood’s physician indicated during an interview that Hood was ‘‘surviving past any medical reason’’ and ‘‘could and will probably die
very soon.’’

061

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

The trial court noted the attorneys had
agreed to proceed through interrogatories
and take a videotape and transcript of the
interrogatories. ‘‘And then, at some point in
time, if the State objects to the videotape we
can argue that.’’ Assistant District Attorney
Lou Keel then stated ‘‘[t]he only disagreement, sir, we have got pertaining to the
manner in which the testimony from this
witness would be given to the jury at trial
and whether follow-up questions to the interrogatories that are proposed will be appropriateTTTT’’ The parties agreed to appoint a
commissioner to consider the interrogatories
to be submitted. Defense counsel filed interrogatories for the witness and provided copies of those interrogatories to the District
Attorney. The State did not present any
interrogatories prior to the examination.
¶ 73 Gayla Hood was examined by defense
counsel and assistant District Attorney Marny Hill on June 8, 2000, at the Federal
Medical Center Penitentiary in Ft. Worth,
Texas. Judge Bass administered an oath to
Hood—that her sworn testimony would be
the truth, the whole truth and nothing but
the truth—by telephone. Counsel then
asked her the questions previously filed of
record as interrogatories, and the State’s
attorney cross-examined her. Her oath and
testimony was recorded on videotape.
¶ 74 On the fourth day of trial, the State
filed a Motion in Limine to prohibit the defense from playing the videotape and sought
an order requiring Hood’s testimony be read
to the jury if admitted at all. The State also
requested the defense be required to redact
‘‘unresponsive answers.’’ On the first day of
second stage proceedings, Judge Bass heard
lengthy arguments on the State’s motion.
The State, through assistant District Attorney Fern Smith, objected to the admissibility
of Hood’s testimony because it was ‘‘not in
compliance with the law’’ and because it contained statements the State objected to. Defense counsels argued strenuously that
Hood’s answers to interrogatories had been
videotaped pursuant to an agreed procedure,
that everyone had notice of the interrogato17. The videotapes, original and redacted, are
contained in the appeal record as Defendant’s

Okl.

457

ries, that representatives from both parties
were present, that the witness was properly
sworn, that the State cross-examined Hood,
that both parties knew the intent of the
videotape was to preserve Hood’s testimony
because of her poor health, and that no court
reporter was present by agreement of the
parties. Defense counsel Wilson also argued
that laches precluded the State from such a
late objection to the manner in which this
testimony was preserved.
¶ 75 While the trial court noted the statutes dealing with conditional examinations of
witnesses in criminal cases had ‘‘not kept up
with the times by any stretch of the imagination,’’ after reviewing the transcript of the
May 4, 2000 hearing, it determined there was
no agreement to play the videotape during
the trial as the State had reserved ‘‘its objections to any portions of the admissibility of
this statement.’’ After redacting certain responses upon the State’s request, defense
counsels offered the original videotape, the
redacted videotape and the original transcript into evidence and argued there was a
‘‘distinction with a difference between reading from a transcript and seeing someone’s
face and what they actually look like.’’ The
trial court admitted the videotapes for purposes of appeal only. Thereafter, Gayla
Hood’s responses to the interrogatories, recorded on the videotaped statement, were
read into the record by defense counsel.
¶ 76 Coddington contends the trial court’s
decision to prohibit the playing of Hood’s
videotaped examination in its entirety based
on strict adherence to the rules of evidence
and to the procedures outlined at 22 O.S.
2001, §§ 781 et. seq. deprived him of due
process of law and a reliable capital sentencing hearing, in violation of the Fifth, Eighth,
and Fourteenth Amendments to the U.S.
Constitution and Article II, § 7 of the Oklahoma Constitution. At a minimum, Coddington submits the redacted videotape should
have been admitted and played for the jury.17
¶ 77 We agree. While the videotaped
preservation of Hood’s testimony did not
strictly comply with the procedural requireExhibits 25A and 25B.

062

458

Okl.

142 PACIFIC REPORTER, 3d SERIES

ments set forth in 22 O.S.2001, § 781, et.
seq., the record below indicates the State
agreed to the procedure to be utilized and
only had not agreed on the manner in which
it would be presented to the jury.18 For the
State to object almost three years later to
the admission of the videotaped examination,
because the strict procedures set forth in the
statute referenced in the Application to Take
Testimony of Out of State Witness were not
followed in taking the statement, seems disingenuous. The State knew Coddington
wanted and needed to preserve his mother’s
testimony for second stage mitigation evidence and we are not convinced by the prosecutor’s eleventh hour claim that the State
was not aware Coddington intended to offer
the videotape rather than read the testimony.
¶ 78 Prosecutor Smith’s argument that the
applicable statutes only allowed for Hood’s
testimony to be read to the jury was not
correct. The statutes referenced in the Application to Take Testimony of Out of State
Witness, 22 O.S.2001, § 781 et. seq., were
adopted in 1910 and have not been amended
since. The language of the statute dealing
with how the ‘‘deposition’’ will be presented
at trial only contemplates ‘‘reading’’, because
there were no videotapes or recording devices in 1910. We note, however, the statute
does not mandate the examination be read
into the record. See 22 O.S.2001, § 793.
(‘‘Depositions taken under a commission may
be read into evidence TTT’’) As the trial court
noted, these statutes have not kept up with
the times by any stretch of the imagination.
¶ 79 The legislature has provided for the
conditional examination of witnesses other
than the non-resident material witnesses referenced in Section 781.
Sections 761
through 771 of Title 22 also address depositions or the conditional examination of witnesses. These statutes contemplate those
occasions where a witness is about to leave
the state, a witness is incarcerated, or a
witness is so sick or infirm that one could
reasonably believe that the witness will be
unable to attend the trial, and provide a
18. At the hearing in May of 2000, the assistant
prosecutor reserved objections relating to the
manner in which the testimony would be given

mechanism to obtain and preserve the testimony of that witness. The procedures set
forth in 22 O.S.2001, §§ 761 et. seq. and 781
et. seq. both reflect the legislature’s intent to
provide a mechanism to obtain and preserve
important testimony when the witness is or is
anticipated to be unavailable at trial.
¶ 80 We note that the State’s objection to
the videotaped deposition was not based
upon a claim that it was not a reliable preservation of the testimony. Rather, the State’s
objection was to the admissibility of Gayla
Hood’s testimony at all because the statute
referenced in the motion was not followed.
¶ 81 Gayla Hood’s videotaped examination
should have been admitted. Having reviewed both the videotaped examination and
the written examination, we note a compelling difference between seeing the witness
testify to this valuable mitigation evidence
and hearing someone read her testimony.
Regardless of the statutory procedure for
‘‘commissions to take testimony outside
state,’’ under the facts of this case, the exclusion of the videotaped evidence constituted a
violation of the Fourteenth Amendment.
The exclusion of the videotaped examination
was not based upon unreliability, but upon
the strict application of an outdated statute
dealing with reliable preserved testimony.
¶ 82 In Chambers v. Mississippi, 410 U.S.
284, 302, 93 S.Ct. 1038, 1049, 35 L.Ed.2d 297
(1973), the Court said ‘‘[t]he hearsay rule
may not be applied mechanistically to defeat
the ends of justice.’’ What happened in this
case is similar to the mechanistic application
of the rules of evidence the Supreme Court
condemned in Chambers. See e.g. Green v.
Georgia, 442 U.S. 95, 97, 99 S.Ct. 2150, 2151–
2152, 60 L.Ed.2d 738 (1979)(exclusion of proffered reliable testimony which was highly
relevant constituted a violation of due process and denied petitioner a fair trial on issue
of punishment).
¶ 83 In Warner v. State, 2001 OK CR 11,
¶ 15, 29 P.3d 569, 575, this Court recognized
the importance of a mother’s testimony as
mitigating evidence in a capital trial. ‘‘[T]he
Constitution requires individualized sentencthe jury; any objection to ‘‘procedure,’’ such as
lack of a court reporter or otherwise should have
been made at that time.

063

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

ing, and mitigation evidence is an important
factor in insuring this right.’’ Warner, id.,
quoting Fitzgerald v. State, 1998 OK CR 68,
¶ 41, 972 P.2d 1157, 1173, citing Lockett v.
Ohio, 438 U.S. 586, 605, 98 S.Ct. 2954, 2965,
57 L.Ed.2d 973 (1978). In Warner, we found
defense counsel ineffective for failing to follow the statutorily mandated procedure for
requesting a continuance in order to secure
the defendant’s mother’s presence for second-stage testimony. Id., 2001 OK CR 11,
¶ 16, 29 P.3d at 575. Because counsel did not
comply with the statute, his request for continuance was denied and he was forced to
present this valuable mitigation witness’s testimony in the form of a five sentence stipulation. Id. at ¶ 15, f. 10, 29 P.3d at 575.
¶ 84 In this case, while Coddington was not
denied the opportunity to present his mother’s testimony in written form, the jury was
denied the opportunity to actually see and
hear the witness when such nearly live testimony was available. The jury was denied
the opportunity to judge this witness’s demeanor and assess her credibility.
¶ 85 Courts routinely note the general
preference for live testimony. For example,
in cases where the declarant is unavailable,
former sworn testimony is admitted as a
substitute for live testimony because no better version of the evidence exists. See United States v. Inadi, 475 U.S. 387, 394, 106
S.Ct. 1121, 89 L.Ed.2d 390 (1986)(general
preference for live testimony noted); State v.
Nobles, 357 N.C. 433, 437, 584 S.E.2d 765,
769 (N.C.2003)(when two versions of the
same evidence are available, longstanding
principles of the law of hearsay favor the
better evidence). It is apparent from reading the record that the trial court found
Hood’s examination testimony to be sufficiently reliable and admissible mitigation evidence; it simply did not admit the videotaped
examination because the State insisted the
statute required it to be read.
¶ 86 The best evidence, in this case, was
Hood’s videotaped examination, not a reading
of her testimony. See 12 O.S.2001, § 3002.
Videotaped confessions, rather than confessions in written form, are regularly admitted
to show the jury the demeanor of a person
and the circumstances under which confes-

Okl.

459

sions are made. Just as this Court determined in the 1950s that wire recordings and
talking motion pictures were so common in
use that the verity of their recordings and
sounds were established enough to allow recorded confessions to be admissible rather
than requiring admissibility of the transcription, see Williams v. State, 93 Okla.Crim.
260, 270, 226 P.2d 989, 995 (1951), we now
hold that under the conditional examination
statutes at issue in this case, set forth at 22
O.S.2001, §§ 781, et. seq. and set forth at 22
O.S.2001, §§ 761, et. seq., when the examination of the person is conducted under such
circumstances which show the recording is
reliable, the actual videotaped examination
may be received into evidence and viewed by
the jury rather than read to the jury.
TTT [I]n keeping with the policy of the
courts to avail themselves of each and every aid of science for the purpose of ascertaining the truth, such practice is to be
commended as of inestimable value to triers of fact in reaching accurate conclusions.
‘‘This particular case well illustrates the
advantage to be gained by courts’ utilizing
modern methods of science in ascertaining
facts. TTT When a confession is presented
by means of a movietone the trial court is
enabled to determine more accurately the
truth or falsity of such claims and rule
accordingly.’’
Williams, 93 Okla.Crim. at 270, 226 P.2d at
995, quoting People v. Hayes, 21 Cal.App.2d
320, 71 P.2d 321, 322.
¶ 87 While the jury heard this important
mitigation testimony, it was wrongly prohibited from seeing this valuable witness. The
humanizing effect of live testimony in the
form of a mother testifying for her son as
mitigation evidence in a capital murder trial
cannot seriously be disregarded as irrelevant.
See e.g. Solomon v. State, 49 S.W.3d 356, 366
(Tex.Crim.App.2001)(recognizing humanizing
effect of live testimony); People v. Enis, 194
Ill.2d 361, 414, 743 N.E.2d 1, 30, 252 Ill.Dec.
427, 456 (Ill.2000)(noting live testimony of the
affiants would have had more complete portrayal of the defendant). Coddington knew
his mother would be unable to give live testimony on his behalf due to her extremely ill

064

460

Okl.

142 PACIFIC REPORTER, 3d SERIES

health and arranged for the next best
thing—a videotaped examination while she
was alive.
¶ 88 Civil courts in Oklahoma recognize the
value of videotaped depositions. See e.g. B–
Star, Inc. v. Polyone Corporation, 2005 OK
8, ¶ 17, 114 P.3d 1082, 1086 (‘‘This Court
understands that video presentation of evidence is a convenient and cost-effective
tool.’’); see also 12 O.S.Supp.2004, § 3232(C).
‘‘The utilization of videotape is nothing more
than an updated visual version of preserving
testimony.’’ Inhofe v. Wiseman, 1989 OK 41,
¶ 7, 772 P.2d 389, 392. The fact finder ‘‘at
trial often will gain greater insight from the
manner in which an answer is delivered and
recorded by audio-visual devices. Moreover,
a recording, a video tape, or motion picture
of a deposition will avoid the tedium that is
produced when counsel read lengthy depositions into evidence at trial.’’ Carson v. Burlington Northern, Inc., 52 F.R.D. 492, 493
(D.Neb.1971)(emphasis added), citing 8
Wright & Miller, Fed. Practice and Procedure 426 (1970). Here, while the statute
contemplated reading the preserved examination testimony into the record, the legislature did not make ‘‘reading’’ the examination
mandatory in its conditional examination
statutes. 22 O.S.2001, §§ 770, 793 (statutes
use the word ‘‘may’’ rather than ‘‘shall’’).
The trial court should have allowed the
videotaped examination to be seen and heard
by the jury; it was well within the trial
court’s discretion to allow the jury to experience her testimony in that form. 12 O.S.
2001, § 2402 (all relevant evidence is generally admissible).
[42] ¶ 89 We afford great deference to
jurors’ determinations of witness credibility
due to their unique ability to personally observe the demeanor of the witnesses at trial.
See Scott v. State, 1995 OK CR 14, ¶ 15, 891
P.2d 1283, 1291; Stanberry v. State, 1981 OK
CR 156, ¶ 12, 637 P.2d 892, 896. Personal
observation of a significant mitigation witness would allow the jury to judge that witness’s demeanor and aid in determining that
witness’s credibility and value as a mitigation
witness. The ‘‘tedious’’ reading of Hood’s
testimony into the record hardly afforded

Coddington’s jury that opportunity in this
case.
[43–45] ¶ 90 The sentencer in capital
cases should not be precluded from considering any relevant mitigating evidence. Skipper v. South Carolina, 476 U.S. 1, 8, 106
S.Ct. 1669, 1673, 90 L.Ed.2d 1 (1986).
Hood’s videotaped examination showed her
demeanor—it showed her distress and sadness she had for her son in a way that the
cold reading of a transcript could not portray. The witness’s demeanor in this case is
exactly the type of evidence that might invoke sympathy for a defendant facing the
death penalty. Sympathy is proper for the
jury to consider in assessing punishment.
See Salazar v. State, 1998 OK CR 70, ¶ 42,
973 P.2d 315, 328. Prohibiting the jury from
receiving evidence in the form likely to invoke sympathy and achieve the purpose of
this mitigation witness was improper. See
Lockett v. Ohio, 438 U.S. 586, 98 S.Ct. 2954,
57 L.Ed.2d 973 (1978). We cannot determine
how the jury would have viewed Hood’s testimony if it had actually seen her videotaped
examination. However, the potential error
would be of constitutional magnitude. The
only proper remedy is to remand for a new
sentencing hearing with an instruction that
the new jury specifically be allowed to see
Hood’s videotaped examination.
[46] ¶ 91 The error identified in Proposition Fourteen also warrants discussion and
contributes to our decision to reverse Coddington’s sentence of death and remand for
resentencing. In Proposition Fourteen, instructional error in the sentencing phase allowed the jury to disregard relevant mitigating evidence in violation of Lockett v. Ohio
and its progeny. Upon the State’s request,
the trial court gave the Oklahoma Uniform
Jury Instruction on impeachment of witness
by former conviction. See OUJI–CR 2d. 9–
22. Specifically listed in that instruction
were defense witnesses Gayla Hood, Mike
Hood, Tommy Coddington, Walter ‘‘Duffy’’
Coddington, Ricky Coddington, and Kathy
Johnson. Coddington relied upon these family witnesses and their own troubles with the
law and addiction to help explain Coddington’s background, addiction, and criminality.
Defense counsel did not object to this in-

065

CODDINGTON v. STATE
Cite as 142 P.3d 437 (Okla.Crim.App. 2006)

struction. The trial court’s decision to give
the impeachment instruction as it related to
his family mitigation witnesses effectively recharacterized their testimony as impeachment evidence and precluded the sentencer
from properly considering their testimony.
We find plain error.
¶ 92 In Lockett, 438 U.S. at 604, 98 S.Ct. at
2964–65, the Supreme Court concluded ‘‘that
the Eighth and Fourteenth Amendments require that the sentencer, in all but the rarest
kind of capital case, not be precluded from
considering, as a mitigating factor, any aspect of a defendant’s character or record and
any circumstances of the offense that the
defendant proffers as a basis for a sentence
less than death.’’ Here, the purpose the
family witnesses during second stage was to
show how Coddington came from a bad background where his family members were drug
addicts and criminals. Contrary to the
State’s response, such evidence might be perceived as facts about Coddington’s background that would call for a penalty less than
death. This instruction might have led the
jury to believe the evidence of these witnesses’ prior convictions was offered for impeachment purposes and was not offered to
explain Coddington’s background. To that
extent, under the facts presented here, the
instruction might have prevented the jury
from considering relevant mitigating evidence. See Williams, 2001 OK CR 9, ¶ 104,
22 P.3d 702, 726.
¶ 93 In Williams, we found any error in
the language of the instruction did not have a
substantial impact on the outcome of second
stage proceedings. Id. Here, we cannot so
find. This error, in conjunction with the
error identified in Proposition Eight, requires Coddington’s death sentence be vacated and the case remanded for a new sentencing proceeding.
¶ 94 Because our remand for resentencing
renders moot all other challenges to the second stage proceedings, the remaining propositions raising errors alleged to have occurred in the sentencing stage of trial need
not be addressed. However, in Proposition
Twenty, Coddington argues he received ineffective assistance of counsel in both stages of
trial. Because we remand for resentencing,

Okl.

461

those complaints about counsel’s second
stage performance are moot. What remains
is Coddington’s complaints that his attorneys
failed to make timely, specific objections, request admonishments or mistrial or take other appropriate action to preserve the issues
raised in Propositions Three and Five.
[47] ¶ 95 To prevail on a claim of ineffective assistance of counsel, an appellant must
show (1) that counsels’ representation fell
below an objective standard of reasonableness and (2) the reasonable probability that,
but for counsels’ errors, the results of the
proceedings would have been different.
Strickland v. Washington, 466 U.S. 668, 687,
104 S.Ct. 2052, 2064, 80 L.Ed.2d 674 (1984).
¶ 96 Review of this record, in its entirety,
shows two well-prepared, competent capital
trial litigators represented Coddington. In
Proposition Three, we found that trial counsel’s failure to request that Juror Muller be
removed and replaced by an alternate juror
was likely a matter of trial strategy and
Coddington had not established his counsel’s
conduct constituted deficient performance.
Strickland, id.; Woodruff v. State, 1993 OK
CR 7, ¶ 16, 846 P.2d 1124, 1133, cert. denied,
510 U.S. 934, 114 S.Ct. 349, 126 L.Ed.2d 313
(1993) (this Court does not evaluate performance in hindsight). We reviewed the claims
relating to Ron Hale raised in Proposition
Five for plain error and determined no error
warranting relief occurred. Had trial counsel imposed timely objections to the complained of testimony, the trial court might
have admonished the jury to disregard the
evidence. However, while objections to
Hale’s testimony might have been sustained
and the jury admonished, we do not believe
trial counsel’s objections would have altered
the outcome of the first stage proceedings
and Coddington cannot show prejudice.
Humphreys v. State, 1997 OK CR 59, ¶ 40,
947 P.2d 565, 578 (to show prejudice, an
appellant must show a reasonable probability
that but for counsel’s errors the outcome of
the proceeding would have been different).
Failure to prove prejudice is fatal to Coddington’s ineffective assistance of counsel
claim. Dodd v. State, 2004 OK CR 31, ¶ 112,
100 P.3d 1017, 1049.

066

462

Okl.

142 PACIFIC REPORTER, 3d SERIES
DECISION

¶ 97 For the reasons set forth in this Opinion, Coddington’s conviction and sentence for
First Degree Robbery, in Oklahoma County
District Court, Case No. CF 97–1500 (Count
2) is AFFIRMED; Coddington’s conviction
for First Degree Murder (Count 1) is AFFIRMED, but his sentence of death is REVERSED AND REMANDED TO THE DISTRICT COURT FOR RESENTENCING.
CHAPEL, P.J., and A. JOHNSON, J.:
concur.
LUMPKIN, V.P.J.: concurs in
part/dissents in part.
LEWIS, J.: specially concurs.
LUMPKIN, Vice–Presiding Judge:
Concur in Result/Dissent in Part.
¶ 1 I concur in the results reached in this
case, but dissent in part. My vote is based
upon the following reasons.
¶ 2 First, I cannot agree with the confusing analysis used concerning proposition
four, i.e., expert testimony on the ultimate
issue. The opinion’s discussion of this issue
and paraphrased summaries of White v.
State, 1998 OK CR 69, 973 P.2d 306 and
Hooks v. State, 1993 OK CR 41, 862 P.2d
1273 use dangerous wordplay that could dilute the applicable law. Paragraphs 9
through 11 of my specially concurring opinion in White provide a more thorough explanation of the applicable rules, rules that fully
comply with the American Bar Association
Standards for Criminal Justice.
¶ 3 For purpose of clarity, I reiterate here
that Standard 7–6.6 of the American Bar
Association Criminal Justice Mental Health
Standards provides that ‘‘[o]pinion testimony, whether expert or lay, as to whether or
not the defendant was criminally responsible
at the time of the offense charged should not
be admissible.’’ Furthermore, the commentary to that standard provides that an ‘‘expert witness should not be permitted to express opinions on any question requiring a
conclusion of law or a moral or social value
judgment properly reserved to the court or
to the jury.’’ And later, that same commentary indicates that ‘‘[t]erms like premedita-

tion, malice, and provocation have technical
legal meanings concerning which mental
health or mental retardation professionals
can pretend no expertise.’’
¶ 4 Accordingly, I have no qualms with the
trial court’s in limine ruling that prevented
the defense expert from testifying as to Appellant’s inability to develop the requisite
mens rea. That issue was ultimately for the
jury to decide. In addition, psychological
testimony is totally subjective and not provable with objective evidence. It is educated
speculation at best. For that reason, we
have previously limited such testimony to
educating the jury regarding the nature of
the proffered mental health issue from which
the jury could then render its decision based
on the facts of the crime. In this case,
Appellant’s ability to remember and relate
the facts of the crime carry great weight in
disproving that proffered opinion. In addition, Appellant admitted he knew what he
had done and it was wrong.
¶ 5 Second, concerning the victim photograph issue raised in proposition five, the
Court seems to abandon the clear legislative
intent of 12 O.S.Supp.2002, § 2403 by applying the old rule applicable to such photographs, prior to 2002 amendments. The
statutory amendment plainly means that a
victim’s photo is definitely admissible in a
criminal homicide prosecution so long as it is
an accurate representation of the victim at
the time of the death and is not an attempt to
play on the sympathy or sentiment of the
trier of fact. The plain language of the
current statute is clear and the Court should
not employ an overall relevance balancing
test under the former version of the statute.
¶ 6 Third, I agree with the opinion that the
videotape of the mother should have been
admitted. But I agree only because of the
agreement of the parties and the fact the
State made no objection to the use of the
videotape at the time the agreement was
made. There is nothing unconstitutional
about Oklahoma’s statutory method for preserving witness testimony. There may be
more modern ways to preserve such testimony, but that does not make the statute unconstitutional. Until the statute is changed we

067

Okl.

HOOPER v. STATE
Cite as 142 P.3d 463 (Okla.Crim.App. 2006)

are bound to follow the statute even if the
process is antiquated.
¶ 7 This Court has recently emphasized the
importance of following a statutory provision
even to the point it can be a structural error
in a trial. See e.g., Golden v. State, 2006 OK
CR 2, 127 P.3d 1150. But now the Court
wants to brush away statutory provisions
because it has conceived of new ways that
might be better. This, of course, leads to
inconsistencies. I cannot join in a resultoriented jurisprudence designed to ensure
mothers always get to testify. Regardless of
who they are, witnesses must comply with
rules established by the Legislature. It
seems the Court only wants to view statutes
with the weight of ‘‘structural error’’ if the
use of that view impedes the state.
¶ 8 I agree the Legislature should update
our statutes on preserving witness testimony.
But until the Legislature does, this Court is
without authority to amend statutes. We
can only interpret them and determine if
they are Constitutional.
¶ 9 Fourth, there is no reason not to impeach family members who are offering mitigating evidence. See OUJI–CR 2d. 9–22.
We cannot provide a defendant’s family
members a safe haven that deprives the triers of fact the truth of their own prior illegal
activates. It is for the trier of fact to decide
the credibility of the witnesses, and the trier
of fact must be informed of the witnesses’
character to make an informed finding.
LEWIS, Judge, Specially Concurs.
¶ 1 I agree with the State that parts of the
testimony by the defendant’s mother should
have been redacted; however, I concur with
the opinion that prohibiting the defendant
from playing the videotaped testimony to the
jury denied the defendant relevant mitigating evidence.

,

463

2006 OK CR 35

Michael Edward HOOPER, Appellant
v.
STATE of Oklahoma, Appellee.
No. D–2004–1098.
Court of Criminal Appeals of Oklahoma.
Aug. 18, 2006.

Background: Following remand for resentencing in capital murder prosecution,
314 F.3d 1162, defendant waived his rights
to jury trial, presentation of mitigating
evidence, and direct appellate review. The
District Court, Canadian County, imposed
the death penalty on all three counts of
first-degree murder. Defendant appealed.
Holdings: The Court of Criminal Appeals,
Chapel, P.J., held that:
(1) defendant was competent, at time of
re-sentencing proceedings, to make
valid waivers of his rights to jury trial,
presentation of mitigating evidence,
and direct appellate review;
(2) sufficient evidence supported finding of
aggravating circumstance that defendant was a continuing threat to society;
and
(3) death sentences were not imposed under influence of passion, prejudice, or
any other arbitrary factor, including
defendant’s own expressed wish to receive the death penalty.
Affirmed; motion to supplement record with
extra-record material granted.
Lumpkin, V.P.J., concurred in results, with
opinion.
1. Sentencing and Punishment O1641
In case in which capital defendant essentially volunteers for the death penalty by
waiving his rights to a jury trial, presentation
of mitigating evidence, and direct appellate
review, it must be determined whether defendant has the capacity to appreciate his
position and make a rational choice with respect to continuing or abandoning further
litigation, or, on the other hand, whether he

068

Appendix D
Tenth Circuit’s order denying panel rehearing/rehearing en banc

069

Appellate Case: 16-6295

Document: 010110415812

Date Filed: 09/29/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
JAMES CODDINGTON,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

September 29, 2020
Christopher M. Wolpert
Clerk of Court

Petitioner - Appellant,
No. 16-6295
(D.C. No. 5:11-CV-01457-HE)
(W.D. Okla.)

v.
TOMMY SHARP, Warden, Oklahoma
State Penitentiary,

Respondent - Appellee.
_________________________________
ORDER
_________________________________
Before LUCERO, MORITZ, and EID, Circuit Judges.
_________________________________
This matter is before the court on Appellant’s Petition for Panel and En-Banc
Rehearing. The petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

070

